App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CLUB ONE CASINO, INC., DBA
Club One Casino; GLCR,
INC., DBA The Deuce Lounge
and Casino,
Plaintiffs-Appellants,

No. 18-16696
D.C. No.
1:16-cv-01908AWI-EPG
OPINION

v.
DAVID BERNHARDT; MIKE
BLACK, Acting Assistant
Secretary of the Interior Indian Affairs; U.S. DEPARTMENT OF THE INTERIOR,
Defendants-Appellees.

Appeal from the United States District Court
for the Eastern District of California
Anthony W. Ishii, District Judge, Presiding
Argued and Submitted February 11, 2020
San Francisco, California
Filed May 27, 2020
Before: R. Guy Cole, Jr.* Ronald M. Gould,
and Mary H. Murguia, Circuit Judges.
Opinion by Judge Murguia

* The Honorable R. Guy Cole, Jr., Chief Judge of the United
States Court of Appeals for the Sixth Circuit, sitting by designation.

App. 2
SUMMARY**
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Tribal Gaming
The panel affirmed the district court’s summary
judgment in favor of the U.S. Department of the Interior and its Secretary in an action brought by plaintiff
cardrooms, challenging the Secretary’s approval of a
Nevada-style casino project on off-reservation land in
the County of Madera, California by the North Fork
Rancheria of Mono Indians, a federally recognized
tribe.
Section 3719 of Indian Gaming Regulatory Act
(“IGRA”) prohibits gaming on any lands acquired by
the Secretary in trust for the benefits of Indian Tribes
after October 17, 1988, unless one of several exceptions
applies. As relevant here, Class III games include casino-style games, slot machines, and lotteries, and can
only be conducted pursuant to tribal-state compacts
approved by the Secretary. Section 5108 of the Indian
Reorganization Act of 1934 (“IRA”) authorized the Secretary to acquire interests or rights for the purpose of
providing land for Indians. In July 2016, in accordance
with IGRA, the Secretary prescribed certain procedures that permitted gaming on the Madera Parcel
(the “Secretarial Procedures”).

** This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

App. 3
The panel rejected plaintiffs’ contention that the
Secretarial Procedures were issued in violation of
IGRA. The panel held that as a matter of law, the federal government confers tribal jurisdiction over lands
it acquires in trust for the benefit of tribes. The panel
further held that the Tribe’s jurisdiction over the
Madera Parcel operated as a matter of law and the
Tribe clearly exercised governmental power when it
entered into agreements with local governments and
enacted ordinances concerning the property. Finally,
the panel rejected plaintiffs’ claim that the Tribe’s acquisition of any jurisdiction over the Madera Parcel required the State’s consent or cession. Specifically, the
panel held that the Enclave Clause of the U.S. Constitution did not apply because the Secretary’s acquisition of land in trust for the benefit of a tribe did not
result in the creation of a federal enclave or violate the
Clause. The panel also held that 40 U.S.C. § 3112 did
not apply where the jurisdiction at issue here—which
was created by operation of law—was not granted by
the State to the federal government, or taken by the
federal government from the State.
The panel rejected plaintiffs’ contention that to
the extent IRA created tribal jurisdiction upon the Secretary’s acquisition of land in trust for the benefit of
the Tribe, it violated the Tenth Amendment. The panel
held that the IRA did not offend the Tenth Amendment
because Congress has plenary authority to regulate Indian affairs.
The panel held that plaintiffs waived two arguments raised for the first time on appeal.

App. 4
The panel concluded that the Secretary’s actions
were not arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.
COUNSEL
Robert D. Links (argued), Adam G. Slote, and Marglyn
E. Paseka, Slote Links & Boreman LLP, San Francisco,
California; Robert A. Olson and Timothy T. Coates,
Greines Martin Stein & Richland LLP, Los Angeles,
California; for Plaintiffs-Appellants.
Tamara Rountree (argued), John David Gunter II, Steven Miskinis, and Joann Kintz, Attorneys; Eric Grant,
Deputy Assistant Attorney General; Jeffrey Bossert
Clark, Assistant Attorney General; Environment and
Natural Resources Division, United States Department of Justice, Washington, D.C.; for Defendants-Appellees.
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
MURGUIA, Circuit Judge.
This action is one in a series of actions1 concerning
the proposed construction and operation of a Nevadastyle casino on off-reservation land in the County of
Madera, California (the “Madera Parcel”) by the North
1

See Picayune Rancheria of Chukchansi Indians v. United
States Dep’t of Interior, No. 1:16-CV-0950-AWI-EPG, 2017 WL
3581735, at *3–5 (E.D. Cal. Aug. 18, 2017) (reviewing actions related to the proposed casino).

App. 5
Fork Rancheria of Mono Indians (the “North Fork” or
“Tribe”), a federally recognized tribe. Plaintiffs-Appellants, Club One Casino and the Deuce Lounge, are
cardrooms licensed by the State of California (the
“State”). Plaintiffs contend that the approval of the
casino project by the United States Secretary of the
Interior (the “Secretary”) and the United States Department of the Interior (collectively, Defendants-Appellees) is unlawful, and they brought a host of
procedural, statutory, and constitutional challenges.
The district court granted summary judgment against
Plaintiffs on all claims. We affirm.
I
The North Fork Rancheria of Mono Indians of California are the modern descendants of the Mono Indians, who have used and occupied lands in and near
California’s San Joaquin Valley for several centuries.
The Tribe has approximately 1,750 citizens, is headquartered in North Fork, Madera County, California,
and has been federally recognized since 1915.
In March 2005, the North Fork applied to the Department of the Interior to have a 305-acre plot of land
in Madera County taken into trust by the United
States pursuant to section 5108 of the Indian Reorganization Act (“IRA”), 25 U.S.C. §§ 5101-5144. The Tribe
proposes to construct a casino resort on the property.
In September 2011, the Secretary made a determination pursuant to section 2719 of the Indian Gaming
Regulatory Act (“IGRA”), id. §§ 2701-2721, finding that

App. 6
gaming on the land would be in the best interest of the
North Fork and not detrimental to the surrounding
community (the “Secretarial Determination”). In August 2012, the Governor of the State of California (the
“Governor”) informed the Secretary that he concurred
in the Secretarial Determination and negotiated a
compact with the North Fork to govern gaming at the
Madera Parcel. In February 2013, the Madera Parcel
was acquired in trust by the Secretary for the benefit
of the North Fork. In June 2013, the California Legislature passed Assembly Bill 277, which ratified the
compact, and the Governor signed the legislation into
law the following month. Enough signatures, however,
were gathered to place a veto referendum (“Proposition
48”) on the November 2014 ballot, which proposed
voiding the California Legislature’s ratification of the
compact. Proposition 48 passed with sixty-one percent
of the vote—meaning that Assembly Bill 277, which
had ratified the compact between the Tribe and the
State, was vetoed by the voters.
After this defeat at the polls, the North Fork requested that the State negotiate a new tribal-state
compact to govern gaming at the Madera Parcel. The
State refused, citing Proposition 48’s passage. In
March 2015, the Tribe brought an action under IGRA,
alleging that the State failed to negotiate in good faith.
N. Fork Rancheria of Mono Indians of Cal. v. California, No. 1:15-CV-00419-AWI-SAB, 2015 WL 11438206,
at *1 (E.D. Cal. Nov. 13, 2015). The district court
agreed, finding that the State’s refusal to negotiate a
compact post-referendum violated IGRA, and ordered

App. 7
the State and the North Fork to conclude a compact
within sixty days. Id. at *8, *12. When the parties
failed to do so, the court selected a mediator and directed the parties to submit their last best offers. The
parties complied with the order and the mediator selected the North Fork’s proposed compact as “the compact that best comported with IGRA, Federal law, and
the orders of this Court.” The mediator thereafter submitted the compact to the State for its consent. The
State did not consent to the selected compact within
the statutorily required time period and the mediator’s
proposed compact was submitted to the Secretary pursuant to section 2710(d)(7)(B)(vii) of IGRA.
In July 2016, in accordance with IGRA, the Secretary prescribed certain procedures that permitted
gaming on the Madera Parcel (the “Secretarial Procedures”). The Secretarial Procedures do not include express findings as to whether the North Fork had
jurisdiction or exercised governmental power over the
Madera Parcel or whether the Madera Parcel was Indian land.
Plaintiffs, the cardrooms, sued the Secretary and
the Department of the Interior in the district court in
December 2016. They challenged the Secretary’s issuance of the Secretarial Procedures under the Administrative Procedure Act, claiming: (1) the Secretarial
Procedures were issued in violation of IGRA, as the
Tribe purportedly never acquired jurisdiction or exercised governmental power over the Madera Parcel; and
(2) assuming the Tribe acquired jurisdiction and exercised governmental power, IRA violates the Tenth

App. 8
Amendment to the Constitution by reducing the
State’s jurisdiction over land within its territory without its agreement.
On cross-motions for summary judgment, the district court denied Plaintiffs’ motion and granted Defendants’ motion. In accordance with case law from
other circuits, the district court held that: (1) the Tribe
had jurisdiction over the Madera Parcel for purposes
of IGRA by virtue of the land being acquired in trust
for the Tribe and neither consent nor cession by the
State was required; (2) Plaintiffs’ Tenth Amendment
challenge was not properly before the court, as Plaintiffs had only challenged the issuance of the Secretarial Procedures, not the Secretary’s acquisition of the
Madera Parcel in trust for the benefit of the Tribe; and
(3) alternatively, Plaintiffs lacked standing to bring the
Tenth Amendment challenge. Plaintiffs timely appealed.
II
We review the district court’s grant of summary
judgment de novo to determine whether the Secretary’s actions were “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.” 5
U.S.C. § 706(2)(A); Alaska Oil & Gas Ass’n v. Jewell,
815 F.3d 544, 554 (9th Cir. 2016). We have described
the arbitrary and capricious standard as deferential
and narrow, establishing a “high threshold” for setting
aside agency action. River Runners for Wilderness v.
Martin, 593 F.3d 1064, 1067, 1070 (9th Cir. 2010) (per

App. 9
curiam). We also review purely legal questions de novo.
Wagner v. Nat’l Transp. Safety Bd., 86 F.3d 928, 930
(9th Cir. 1996).
III
Before proceeding to our analysis, we pause to set
out the applicable statutory landscape. Gaming in Indian country is a multi-billion-dollar industry conducted pursuant to the Indian Gaming Regulatory Act
of 1988. IGRA “accommodate[s] the interests of tribes
in pursuing gaming but also set[s] forth a federal regulatory regime, and g[ives] a powerful role to states by
providing for significant state involvement in the decision to permit casino-style gaming.” Cohen’s Handbook
of Federal Indian Law § 12.01, at 876 (2012) (“Federal
Indian Law”).
Gaming is permitted only on Indian lands, which
are defined as “all lands within the limits of any Indian
reservation,” 25 U.S.C. § 2703(4)(A), and “any lands title to which is either held in trust by the United States
for the benefit of any Indian tribe or individual or held
by any Indian tribe or individual subject to restriction
by the United States against alienation and over which
an Indian tribe exercises governmental power,” id.
§ 2703(4)(B). Thus, a tribe may engage in gaming activities either: (1) on a reservation; or (2) off a reservation on tribal or individual trust land, or land not held
in trust but subject to a restriction on alienation, but
only if a tribe exercises governmental power over this
trust or restricted land. Id. § 2703(4).

App. 10
Importantly, section 2719 of IGRA prohibits gaming on any lands acquired by the Secretary in trust for
the benefit of Indian tribes after October 17, 1988, unless one of several exceptions applies. An exception
pertinent to this appeal permits gaming if the Secretary makes a two-part determination: (1) finding that
gaming on land acquired in trust after 1988 “would be
in the best interest of the Indian tribe and its members”; and (2) that such gaming “would not be detrimental to the surrounding community, but only if the
Governor of the State in which the gaming activity is
to be conducted concurs in the Secretary’s determination.” Id. § 2719(b)(1)(A).
Additionally, IGRA divides gaming into three classes. As relevant here, Class III2 games include casinostyle games, slot machines, and lotteries. See id.
§ 2703(8). Generally, Class III games can only be conducted pursuant to tribal-state compacts approved by
the Secretary. Id. § 2710(d)(1)(C), (3)(B). If a state generally permits such gaming, IGRA authorizes a tribe to
bring an action in federal court3 against a state that
2

Class I games include social and traditional games for
prizes of minimal value. Federal Indian Law § 12.02, at 881–82.
Class I gaming is within the sole jurisdiction of tribes. Id. Class
II games include bingo, bingo-like games, and certain non-banking (meaning, players compete against each other and not the
“house”) card games. Id. Class II gaming is jointly regulated by
tribes and the National Indian Gaming Commission, excluding a
role for states. Id.
3
As a result of the Supreme Court’s ruling in Seminole Tribe
of Fla. v. Florida, 517 U.S. 44 (1996), states may assert Eleventh
Amendment immunity from tribal lawsuits alleging failure to negotiate in good faith—meaning, tribes are prohibited from

App. 11
refuses to enter into negotiations at all or has refused
to negotiate a Class III tribal-state compact in good
faith. Id. § 2710(d)(7)(A)(i), (B)(i). If there is a finding
by a district court that the state failed to negotiate in
good faith, IGRA requires the district court to order the
tribe and the state to negotiate a compact within sixty
days. Id. § 2710(d)(7)(B)(iii). If a compact fails to materialize within sixty days, the district court shall appoint a mediator who will require the tribe and the
state to submit their best and final proposal for a compact. Id. § 2710(d)(7)(B)(iv). The mediator then selects
the compact that best comports with policies embodied
in IGRA and other applicable federal laws. Id. If the
state still refuses to agree to be bound by the chosen
compact, IGRA requires the mediator to refer the matter to the Secretary, who must then issue gaming procedures consistent with the compact selected by the
mediator, other relevant provisions of IGRA, and the
laws of the state. Id. § 2710(d)(7)(B)(vii).
In addition to IGRA, this appeal implicates the Indian Reorganization Act of 1934. IRA authorizes the
Secretary “in his discretion” to acquire “any interest in
lands, water rights, or surface rights to lands, within
or without existing reservations,” through purchase,
gift, or exchange “for the purpose of providing land for
Indians.” Id. § 5108 (formerly § 465). IRA reflected a
major shift in federal policy from one favoring diminishment of tribal lands to one protecting tribal lands
bringing lawsuits in federal court against a state without the consent of the state. California has waived its immunity and has
thereby consented to such suits. See Cal. Gov’t Code § 98005.

App. 12
and supporting tribal self-government and economic
development. See Mescalero Apache Tribe v. Jones, 411
U.S. 145, 152 (1973).
In sum, in order for a tribe to engage in any gaming on off-reservation land acquired after October 17,
1988, the following must take place: (1) land—which is
either held in trust by the United States for the benefit
of any Indian tribe or individual or held by any Indian
tribe or individual subject to restriction by the United
States against alienation, 25 U.S.C. § 2703(4)(B)—
must be acquired; (2) the Secretary must make a determination finding that gaming would be in the best
interest of the Indian tribe and its members, and would
not be detrimental to the surrounding community, id.
§ 2719(b)(1)(A); and (3) the governor of the state must
concur in the determination, id.
In order for a tribe to engage in Class III gaming,
however, the Secretary must also either approve a
tribal-state compact, id. § 2710(d)(1)(C), or prescribe
secretarial procedures, if the state failed to negotiate
in good faith, id. § 2710(d)(7)(B)(vii). As explained
above, if a state refuses to negotiate a tribal-state compact in good faith or to enter into negotiations at all,
IGRA authorizes the Secretary to permit gaming by issuing gaming procedures consistent with a compact selected by a mediator, other relevant provisions of
IGRA, and the laws of the state.

App. 13
IV
On appeal, Plaintiffs re-assert the arguments they
presented to the district court. Plaintiffs contend that:
(1) the Secretarial Procedures were issued in violation
of IGRA, as the Tribe purportedly never acquired jurisdiction or exercised governmental power over the
Madera Parcel; and (2) assuming the Tribe acquired
jurisdiction and exercised governmental power, IRA violates the Tenth Amendment by reducing the State’s
jurisdiction over land within its territory without its
agreement. Plaintiffs also, however, introduce two additional arguments, which they present for the first
time on appeal: (1) that the Secretarial Determination
finding that gaming at the Madera Parcel would be in
the best interest of the North Fork and not detrimental
to the surrounding community did not reflect sufficiently robust consultation, as required by law; and (2)
that the Governor lacked authority to concur in the
Secretarial Determination. We address the first two arguments below, and we conclude that the latter two
have been waived.
A
Plaintiffs contend that the Secretarial Procedures,
which permit gaming on the Madera Parcel, were
issued in violation of IGRA because the Tribe purportedly lacked jurisdiction and did not exercise governmental power over the Madera Parcel. In support of
this argument Plaintiffs appear to claim that: (1) tribal
jurisdiction was not automatically obtained by the

App. 14
Tribe when the United States acquired the Madera
Parcel in trust for the benefit of the Tribe; (2) the Secretary was required, but failed, to consider whether the
Tribe possessed jurisdiction and whether the Tribe exercised governmental power over the Madera Parcel;
and (3) the Tribe’s acquisition of any jurisdiction over
the Madera Parcel requires the State’s consent or cession—neither of which was granted. None of these arguments has merit.
1
As noted above, IRA authorizes the Secretary “in
his discretion” to acquire “any interest in lands, water
rights, or surface rights to lands, within or without existing Indian reservations,” through purchase, gift, or
exchange “for the purpose of providing land for Indians.” Id. § 5108. And while there is no Ninth Circuit
precedent precisely on point, other circuits have logically concluded that, as a matter of law, the federal government confers tribal jurisdiction over lands it
acquires in trust for the benefit of tribes. We agree.
In Upstate Citizens for Equality, Inc. v. United
States, for example, the Second Circuit concluded that
“[l]and held by the federal government in trust for Indians under [section 5108 of IRA] ‘is generally not subject to (1) state or local taxation; (2) local zoning and
regulatory requirements; or, (3) state criminal and civil
jurisdiction [over Indians], unless the tribe consents to
such jurisdiction.’ ” 841 F.3d 556, 561 (2d Cir. 2016) (alteration in original) (quoting Conn. ex rel. Blumenthal

App. 15
v. United States Dep’t of Interior, 228 F.3d 82, 85–86
(2d Cir. 2000)). The court further noted that the federal
government may, “by acquiring land for a tribe, divest
a state of important aspects of its jurisdiction, even if
a state previously exercised wholesale jurisdiction over
the land and even if ‘federal supervision over [a tribe]
has not been continuous.’ ” Id. at 568 (alteration in
original) (quoting United States v. John, 437 U.S. 634,
653 (1978)). Accordingly, “[w]hen the federal government takes land into trust for an Indian tribe, the state
that previously exercised jurisdiction over the land
cedes some of its authority to the federal and tribal
governments.” Id. at 569 (emphasis added).4
Similarly, in Yankton Sioux Tribe v. Podhradsky,
the Eighth Circuit concluded that “land held in trust
under [IRA] is effectively removed from state jurisdiction,” for “when Congress enacted [IRA] ‘it doubtless
intended and understood that the Indians for whom
the land was acquired would be able to use the land
free from state or local regulation or interference as
well as free from taxation.’ ” 606 F.3d 994, 1011 (8th
Cir. 2010) (quoting Chase v. McMasters, 573 F.2d 1011,
1018 (8th Cir. 1978)).

4

Notably and importantly, federal and Indian authority do
not entirely displace state authority over land taken into trust.
Upstate Citizens for Equality, 841 F.3d at 572. For example, under Public Law 280, 18 U.S.C. § 1162(a), California retains “broad
criminal jurisdiction over offenses committed by or against Indians within all Indian country within the State.” California v. Cabazon Band of Mission Indians, 480 U.S. 202, 207 (1987),
superseded on other grounds by statute.

App. 16
As a general matter, too, off-reservation trust land
like the Madera Parcel is “Indian country” with all the
jurisdictional consequences that attach to that status.5
Federal law defines “Indian country,” in part, as “all dependent Indian communities within the borders of the
United States whether within the original or subsequently acquired territory thereof, and whether within
or without the limits of a state.” 18 U.S.C. § 1151(b).
Off-reservation trust land set aside for Indian use is
Indian country under subsection (b) of the Indian country statute. Off-reservation trust land is, by definition,
land set aside for Indian use and subject to federal control. Federal control over trust land is evident and
made clear in regulations such as 25 C.F.R. § 1.4(a),
which precludes state or local regulation of property
“belonging to any Indian or Indian tribe, band, or community that is held in trust by the United States[.]”
“Generally speaking, primary jurisdiction over land
that is Indian country rests with the Federal Government and the Indian tribe inhabiting it, and not with
the States.” Native Vill. of Venetie, 522 U.S. at 527 n.1.
As such, the federal government confers tribal jurisdiction over lands it acquires in trust for the benefit
of tribes as a matter of law.

5

"Although this definition by its terms relates only to federal
criminal jurisdiction, we have recognized that it also generally
applies to questions of civil jurisdiction. . . .” Alaska v. Native Vill.
of Venetie Tribal Gov’t, 522 U.S. 520, 527 (1998).

App. 17
2
Plaintiffs’ next contention, that the Secretary was
somehow legally required to consider whether the
Tribe possessed jurisdiction and exercised governmental power over the Madera Parcel, is equally unpersuasive. Plaintiffs do not point to any provision of IGRA—
or any other relevant authority, for that matter—requiring the Secretary to make either determination.
We decline to read into IGRA unnecessary requirements demanded neither by law nor logic. As to jurisdiction specifically, requiring the Secretary to evaluate
whether the Tribe possesses jurisdiction over the land
would be illogical. As noted above, the Tribe’s jurisdiction over the Madera Parcel operates as a matter of
law; it is not a question of fact. Upstate Citizens for
Equality, 841 F.3d at 569 (“When the federal government takes land into trust for an Indian tribe, the state
that previously exercised jurisdiction over the land
cedes some of its authority to the federal and tribal
governments.”).
As to governance, the Tribe most certainly exercises governmental power over the Madera Parcel.
IGRA authorizes gaming on “any lands title to which
is . . . held in trust by the United States for the benefit
of any Indian tribe . . . and over which an Indian tribe
exercises governmental power.” 25 U.S.C. § 2703(4)(B)
(emphasis added). Although federal courts have not often had occasion to consider whether a tribe “exercises
governmental power” within the meaning of IGRA,
those that have considered the question have held that
exercising governmental power requires a showing of

App. 18
both theoretical power to exercise jurisdiction over the
property and proof of actual exercise of that authority.
For example, the First Circuit in Rhode Island v. Narragansett Indian Tribe held that “[m]eeting this requirement does not depend upon the Tribe’s theoretical
authority, but upon the presence of concrete manifestations of that authority.” 19 F.3d 685, 703 (1st Cir.
1994).
In Massachusetts v. Wampanoag Tribe of Gay
Head, the First Circuit similarly concluded that a tribe
which had passed ordinances and entered into agreements with state and local governments for the provision of law enforcement and firefighting services
exercised governmental power sufficiently within the
meaning of IGRA. 853 F.3d 618, 625–26 (1st Cir. 2017).
The court underscored that “the achievement of
full-fledged self-governance” was not necessary—only
“merely movement in that direction.” Id. at 626.
Here, the record clearly indicates that in late 2006
the Tribe entered into “enforceable and binding” agreements with the County of Madera and the City of
Madera for the provision of law enforcement and fire
protection services at the Madera Parcel. The Tribe
also enacted a gaming ordinance in 2009 “governing
the conduct of gaming” at the Madera Parcel. The district court also took judicial notice of the fact that the
Tribe enacted an ordinance in October 2015 approving
a conservation plan for the Madera Parcel.
For these reasons, both conditions were met here.
The Tribe’s jurisdiction over the Madera Parcel

App. 19
operates as a matter of law and the Tribe clearly exercised governmental power when it entered into agreements with local governments and enacted ordinances
concerning the property.
3
Plaintiffs’ final claim in support of their argument
that the Secretarial Procedures were issued in violation of IGRA—that the Tribe’s acquisition of any jurisdiction over the Madera Parcel requires the State’s
consent or cession—is also unavailing. Plaintiffs point
to the Constitution’s Enclave Clause and a federal statute, 40 U.S.C. § 3112, as the sources of those requirements.6
The Enclave Clause does not apply here. The Secretary’s acquisition of land in trust for the benefit of a
tribe does not result in the creation of a federal enclave
or violate the Enclave Clause. See, e.g., Upstate Citizens
6

In general, Congress may acquire jurisdiction from a state
through two methods: consent and cession. The first method, consent, arises from the Constitution’s Enclave Clause. Case law construing the clause instructs that state consent is needed only
when the federal government takes “exclusive” jurisdiction over
land within a state. See, e.g., Paul v. United States, 371 U.S. 245,
263 (1963). “Exclusive” jurisdiction for Enclave Clause purposes
is equivalent to the sweeping power that Congress exerts over the
District of Columbia, the first subject of the clause. Id. The second
method, cession, relates to 40 U.S.C. § 3112. Under this federal
statute, the federal government can acquire jurisdiction from a
state by filing a notice accepting the state’s jurisdiction with the
state’s governor or in such manner as may be prescribed by the
laws of the state where the lands are situated. 40 U.S.C.
§ 3112(b).

App. 20
for Equality, 841 F.3d at 571 (“When land is taken into
trust by the federal government for Indian tribes, the
federal government does not obtain such categorically
exclusive jurisdiction over the entrusted lands.”); City
of Roseville v. Norton, 219 F. Supp. 2d 130, 151 (D.D.C.
2002) (“[I]t is clear that land taken into trust for
Indians does not create an exclusive federal enclave.
Consequently, the Enclaves [sic] Clause is not implicated[.]”). “State jurisdiction is . . . only reduced, and
not eliminated, when the federal government takes
land into trust for a tribe. Because federal and Indian
authority do not wholly displace state authority over
land taken into trust pursuant to § 5 of the IRA, the
Enclave Clause poses no barrier to the entrustment
that occurred here.” Upstate Citizens for Equality, 841
F.3d at 572.
Section 3112 also does not apply. By its own terms,
the statute sets forth requirements for the federal government’s acceptance of jurisdiction over land. See, e.g.,
40 U.S.C. § 3112(b) (“[The federal government] shall
indicate acceptance of jurisdiction . . . by filing a notice
of acceptance with the Governor of the State[.]”) Here,
the federal government is not accepting jurisdiction
“from the State.” In other words, the jurisdiction at issue here—which was created by operation of law, as
noted above—was not granted by the State to the federal government, or taken by the federal government
from the State. See, e.g., Kleppe v. New Mexico, 426 U.S.
529, 541–43 (1976) (noting the distinction between
Congress’ constitutional powers and its derivative legislative powers acquired from a state, and noting that

App. 21
where Congress acts pursuant to a non-derivative constitutional power, federal legislation preempts conflicting state law). The federal government’s power under
IRA to acquire the Madera Parcel in trust for the benefit of the Tribe is derived from Congress’ broad general power, pursuant to the Indian Commerce Clause,
to legislate with respect to Indian tribes—power which
has been consistently described as “plenary and exclusive” power over Indian affairs. United States v. Lara,
541 U.S. 193, 200 (2004); see also Cotton Petroleum
Corp. v. New Mexico, 490 U.S. 163, 192 (1989) (“[T]he
central function of the Indian Commerce Clause is to
provide Congress with plenary power to legislate in the
field of Indian affairs[.]”). Therefore, when Congress so
acts, the federal legislation necessarily overrides conflicting state laws under the Supremacy Clause. See
Kleppe, 426 U.S. at 543.
Thus, Plaintiffs’ claim that the Tribe’s acquisition
of any jurisdiction over the Madera Parcel requires the
State’s consent or cession fails.
B
Plaintiffs also contend that to the extent IRA creates tribal jurisdiction upon the Secretary’s acquisition
of land in trust for the benefit of the Tribe, it violates
the Tenth Amendment.7 Plaintiffs assert that “tak[ing]
sovereignty from a State without that State’s consent
or permission” violates the Tenth Amendment, as
7

Plaintiffs have standing to bring this claim pursuant to
Bond v. United States, 564 U.S. 211, 220–21 (2011).

App. 22
“[t]erritorial jurisdiction is a fundamental component
of State sovereignty.”
The authority to regulate Indian affairs is among
the enumerated powers of the federal government. U.S.
Const. art. I, § 8, cl. 3; Cotton Petroleum Corp., 490 U.S.
at 192; Morton v. Mancari, 417 U.S. 535, 551 (1974)
(noting that Congress has plenary power “to deal with
the special problems of Indians,” including the power
to legislate on their behalf ). “With the adoption of the
Constitution, Indian relations became the exclusive
province of federal law.” Cty. of Oneida v. Oneida Indian Nation of New York, 470 U.S. 226, 234 (1985); see
also United States v. Forty-Three Gallons of Whiskey,
93 U.S. 188, 194 (1876) (“Congress now has the exclusive and absolute power to regulate commerce with the
Indian tribes[.]”).
The Tenth Amendment to the Constitution reserves to the states those powers not expressly delegated to the federal government. The powers delegated
to the federal government and those reserved to the
states by the Tenth Amendment are mutually exclusive. “If a power is delegated to Congress in the Constitution, the Tenth Amendment expressly disclaims
any reservation of that power to the States[.]” New
York v. United States, 505 U.S. 144, 156 (1992).
Because Congress has plenary authority to regulate Indian affairs, contrary to Plaintiffs’ argument,
IRA does not offend the Tenth Amendment. See, e.g.,
Carcieri v. Kempthorne, 497 F.3d 15, 39–40 (1st Cir.
2007) (en banc) (emphasizing that powers expressly

App. 23
delegated to Congress do not implicate the Tenth
Amendment), rev’d on other grounds sub nom. Carcieri
v. Salazar, 555 U.S. 379 (2009); see also Gila River Indian Cmty. v. United States, 729 F.3d 1139, 1154 (9th
Cir. 2013), as amended (July 9, 2013) (holding that a
federal statute “was well within congressional power
under the Indian Commerce Clause and is not
trumped by the Tenth Amendment”).
C
Plaintiffs also raise two arguments for the first
time on appeal. First, Plaintiffs claim the Secretarial
Determination that gaming would be in the best interest of the Tribe and would not be detrimental to the
surrounding community did not reflect sufficiently robust consultation with “appropriate State and local officials” pursuant to section 2719(b)(1)(A) of IGRA
because some local authorities opposed the Tribe’s request for gaming on off-reservation lands. Second,
Plaintiffs claim that the Governor’s 2012 concurrence
in the Secretarial Determination was unauthorized as
a matter of state law8 and, alternatively, was revoked

8

The California Supreme Court has granted review of two
related cases involving the following legal question: “May the
Governor concur in a decision by the Secretary of the Interior to
take off-reservation land in trust for purposes of tribal gaming
without legislative authorization or ratification, or does such an
action violate the separation of powers provisions of the state
Constitution?” United Auburn Indian Cmty. of the Auburn
Rancheria v. Brown, No. S238544 (review granted Jan. 25, 2017);
Stand Up for California! v. State, No. S239630 (review granted

App. 24
before the issuance of the Secretarial Procedures. Neither of these arguments were presented to the district
court.
“Absent exceptional circumstances, we generally
will not consider arguments raised for the first time on
appeal, although we have discretion to do so.” El Paso
City v. Am. W. Airlines, Inc. (In re Am. W. Airlines, Inc.),
217 F.3d 1161, 1165 (9th Cir. 2000). Plaintiffs have
failed to address any of the exceptions to the general
rule that an argument raised for the first time on appeal is waived. See United States v. Carlson, 900 F.2d
1346, 1349 (9th Cir. 1990) (discussing the limited circumstances where the Court may consider an issue
raised for the first time on appeal, which include when
there are “exceptional circumstances” why the issue
was not raised in the trial court, when the new issue
arose while the appeal was pending because of a
change in the law, and when the issue presented is
purely one of law and the opposing party will not suffer
prejudice as a result of the failure to raise the issue in
the trial court).
Accordingly, Plaintiffs have waived these arguments.

Mar. 22, 2017) (briefing deferred pending decision in United Auburn).

App. 25
V
In summary, the Tribe’s jurisdiction over the
Madera Parcel operates as a matter of law and the
Tribe clearly exercised governmental power when it
entered into agreements with local governments and
enacted ordinances concerning the property. Because
neither the Enclave Clause nor 40 U.S.C. § 3112 are
implicated here, neither the State’s consent nor cession
is required for the Tribe to acquire any jurisdiction
over the Madera Parcel. Finally, IRA does not offend
the Tenth Amendment because Congress has plenary
authority to regulate Indian affairs. As such, we conclude that the Secretary’s actions were not “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A); Alaska Oil
& Gas, 815 F.3d at 554.
AFFIRMED.

App. 26
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CLUB ONE CASINO, INC.,
dba CLUB ONE CASINO;
GLCR, INC., dba
THE DEUCE LOUNGE
AND CASINO,
Plaintiffs,
v.
UNITED STATES DEPARTMENT OF THE INTERIOR;
RYAN ZINKE, in his official
capacity as Secretary of the
Interior; and MIKE BLACK
in his official capacity as
Acting Assistant Secretary of
the Interior – Indian Affairs,

CASE NO. 1:16-cv01908-AWI-EPG
ORDER DENYING
PLAINTIFFS’ MOTION FOR SUMMARY JUDGMENT
(Doc. 36)
ORDER GRANTING
DEFENDANTS’
MOTION FOR
SUMMARY JUDGMENT (Doc. 37)
ORDER CLOSING
THE CASE
(Filed Jul. 13, 2018)

Defendants.
I.

Introduction

Plaintiffs Club One Casino and The Deuce Lounge
(collectively “Plaintiffs” or “Club One”) bring the instant Administrative Procedures Act (“APA”) challenge
to the issuance of Secretarial Procedures by the United
States Department of the Interior, the Secretary of the
Interior, and the Assistant Secretary for Indian Affairs
(collectively “DOI” or “Federal Defendants”) permitting
the North Fork Rancheria of Mono Indians (“North
Fork”) to conduct tribal gaming on a 305.49 acre parcel

App. 27
of land in Madera County, California (the “Madera
Site”). Complaint, Doc. 1 (“Compl.”) at ¶ 1. The substance of the APA challenge is directed at whether
the Federal Defendants adequately considered whether
North Fork had jurisdiction over the Madera Site for
purposes of the Indian Gaming Regulatory Act
(“IGRA”), 29 U.S.C. § 2701, et seq.
The parties have filed cross motions for summary
judgment. Plaintiffs’ argument is twofold. First they
contend that “the Secretarial Procedures [offend the
APA] because defendants . . . never considered . . .
whether the North Fork Tribe actually possesses territorial jurisdiction over the proposed casino site.” Doc.
36-1 at 12. The Federal Defendants respond that North
Fork necessarily has jurisdiction over the proposed
gaming site as a result of the fee-to-trust determination conducted pursuant to the Indian Reorganization
Act (“IRA”), taking that land into trust for the Tribe.
Second, Plaintiffs argue, assuming that the fee-to-trust
determination does shift some jurisdiction from the
state to the Tribe, the IRA violates of the Tenth
Amendment.
For the following reasons, Plaintiffs’ motion will be
denied and the Federal Defendants’ motion will be
granted.
II.

Background

Although the background surrounding the proposed gaming facility at the Madera Site is extensive,
the Court limits this section to the information

App. 28
relevant to, or addressed in, Plaintiffs’ challenge to the
Secretary’s issuance of Secretarial Procedures.
A. Plaintiffs – Club One Casino and The Deuce
Lounge
Club One Casino and The Deuce Lounge are both
cardrooms licensed by the State of California. Declaration of Kyle Kirkland, Doc. 36-3 (“Kirkland Decl.”) at
¶¶ 2, 6. Club One operates in Fresno, California and is
licensed by the City of Fresno. Id at ¶ 2. The Deuce
Lounge is located in Goshen, California and licensed
by the County of Tulare. Id. at ¶ 6. Both Club One and
The Deuce Lounge are limited in the kinds of games
that they may offer. For instance, both operate poker,
baccarat, and blackjack games but neither is permitted
to operate slot machines or banking card games where
the player bets against the house. Id. at ¶¶ 2, 6.
The Madera Site is roughly 25 miles from Club
One and 65 miles from The Deuce Lounge. Kirkland
Decl. at ¶¶ 3, 7. The Secretarial Procedures permit
North Fork to operate slot machines and banking card
games that Plaintiffs cannot operate. See Administrative Record (“AR”) at AR00002202 (North Fork is permitted under the Secretarial Procedures to operate
“Gaming Devices,” i.e., slot machines, and “banking or
percentage card games,” among other things.) Both
Club One and The Deuce Lounge contend that their
businesses will suffer if North Fork is permitted to conduct Class III gaming at the Madera Site. Kirkland
Decl. at ¶¶ 5, 9.

App. 29
B. The North Fork Rancheria of Mono Indians
The North Fork is a federally recognized Indian
tribe. AR00000241; see generally Stand Up for California! v. United States Department of the Interior, 204
F.Supp.3d 212, 228-231 (D.D.C. Sept. 6, 2016) aff ’d 879
F.3d 1177 (D.C. Cir. Jan. 12, 2018) rehrg. en bank denied (Apr. 10, 2018).1 “In 1916, pursuant to appropriations acts authorizing the Secretary to purchase land
in California for Indians, see Act of May 18, 1916, ch.
125, § 3, 39 Stat. 62, . . . the DOI purchased what became the North Fork Rancheria, comprised of 80 acres
of land near the town of North Fork, for the use and
benefit of approximately 200 landless Indians belonging to the North Fork band.” Stand Up for California!,
204 F.Supp.3d at 229. That 80-acre plot of land is approximately 4 miles east of the town of North Fork in
Madera County. AR 00000245. “The land, which was
‘poorly located[,] . . . absolutely worthless as a place
to build homes on’ and ‘lack[ed] . . . water for [both]
1

The administrative record contains many of the orders issued in actions related to the proposed Class III gaming at the
Madera Site. See, e.g., AR00000456-00000498, 0000134800001363, 00001366-00001388, 00001542-00001552. To name a
few, the record contains court orders from Stand Up For California! v. State of California, Madera Superior Court Case No.
MCV062850 (June 26, 2014), North Fork Rancheria of Mono Indians v. California, Case No. 15-cv-419-AWI-SAB, 2015 WL
11438206 (E.D. Cal. Nov. 13, 2015), and Stand Up For California!
v. United States Department of the Interior, Case No. 12-cv-2039BAH, 204 F.Supp.3d 212 (D. D.C. 2016). For the sake of clarity
and accessibility, the Court uses the reporter citations for those
cases rather than citing to their location in the administrative
record in this Court’s CM/ECF system.

App. 30
domestic purposes and . . . irrigation,’ was essentially
uninhabitable.” Stand Up for California!, 204
F.Supp.3d at 229 (citing a 1920 survey of landless nonreservation Indians in California). Additionally, that
reservation was “ ‘on environmentally sensitive lands
within the Sierra National Forest, . . . near Yosemite
National Park. . . .’ ” Id. at 231 (citing the Bureau of Indian Affairs, Record of Decision, finding that the
Madera Site should be gaming-eligible pursuant to 25
U.S.C. § 2719(b)(1) (Sept. 1, 2011)).
The United States also holds in trust for the Tribe
a 61.5-acre tract of land “ ‘located on a steep hillside . . .
in . . . North Fork.’ ” Stand Up for California!, 204
F.Supp.3d at 231. (citation omitted). “The tract contains a community center, basic infrastructure (i.e.,
roads, water, sewer), pads for nine single-family homes,
and the North Fork Tribe’s ‘current government headquarters.’ ” Id. (citation omitted).
C. The Madera Site Acquisition
The Madera Site is a 305.49-acre plot of land in
Madera County, California, approximately 15 miles
north of the city limits of the City of Fresno on Avenue
17, just west of the intersection with State Route 99.
AR00002299-00002300; Doc. 37-2 at 3. The Madera
Site is about 38 miles from North Fork’s Rancheria
lands and about 36 miles from its 61.5 acre tract which
is used for housing. AR00000245; Stand Up for California, 204 F.Supp.3d at 231; Doc. 37-2 at 3.

App. 31
In March of 2005, North Fork submitted an application to the Bureau of Indian Affairs (“BIA”) to have
the Madera Site taken into trust for the purpose of operating a Class III gaming facility (“fee-to-trust application”). Doc. 37-2 at 5; AR00000240. In the same
month, North Fork also requested that the Secretary
make the two-part after-acquired lands determination2
pursuant to 25 U.S.C. § 2719(b)(1)(A) (“2719 application”). Doc. 37-2 at 5; AR00000240; AR 00000160. On
September 1, 2011, the Secretary issued a Record of
Decision on the 2719 application (“the 2719 ROD”),
finding that gaming on the Madera Site would be in
the best interest of North Fork and not detrimental
to the surrounding community. Doc. 37-2 at 6;
AR00000240. The Governor of the State of California
(“the Governor”) concurred with that determination on
August 31, 2012. Doc. 32-7 at 7; AR 0000031700000318.
On November 26, 2012, the Assistant Secretary—
Indian Affairs issued a Record of Decision approving
the fee-to-trust application (“the IRA ROD”). Doc. 37-2
at 7; AR00000159-00000227. The Madera Site was acquired in trust by the United States for the benefit of
North Fork in 2013. North Fork Rancheria of Mono
Indians of California v. State of California, 2015 WL
11438206, *2 (E.D. Cal. Nov. 13, 2015) (“North Fork v.
California”); Doc. 37-2 at 3. Prior to the acquisition of
2

That determination sought is regularly referred to as the
“two-part” determination. E.g., Cachil Dehe Band of Wintun Indians of Colusa Indian Community v. Zinke, ___ F.3d ___, 2018
WL 2033762, *3 (9th Cir. May 2, 2018).

App. 32
the Madera Site in trust for North Fork, the land was
privately owned. Doc. 37-2 at 4; Doc. 30 at 3. Jurisdiction over the land was not reserved by the United
States when California was admitted to the Union in
1850. Doc. 37-2 at 4. The State of California has never
taken express steps to cede territorial jurisdiction over
the land to the United States or North Fork and the
United States has never issued a written acceptance of
cession of jurisdiction in connection with the Madera
Site. Doc. 37-2 at 4.
D. Tribal-State Compact Negotiation History
On August 31, 2012, the Governor concluded a
compact with North Fork to conduct Class III gaming
at the Madera Site. Doc. 37-2 at 7; AR0000032000000438. That compact was concluded on the same
date as the Governor’s concurrence with the Secretary’s
two-part determination and before the IRA ROD issued or the land was taken into trust for North Fork.
The Governor’s office then forwarded the compact to the
California Legislature for ratification. Doc. 37-2 at 7;
North Fork v. California, 2015 WL 11438206 at *2. On
June 27, 2013, the California Legislature ratified the
compact by means of Assembly Bill 277 (“AB 277”), and
the Governor signed the bill on July 3, 2013. Doc. 37-2
at 8. The California Secretary of State forwarded the
compact to the Secretary of the Interior on July 16, 2013,
with the notation that the effective date of the compact
would be January 1, 2014, unless a referendum

App. 33
measure qualified for the ballot. AR0000043900000440.3 The Secretary of State made clear that if
the referendum measure qualified for the ballot, AR
277 would not take effect until the voters had voted on
it.
Notice of the completed compact was published in
the Federal Register on October 22, 2013, stating that
the compact was “approved” and was taking effect to
“the extent it was consistent with IGRA.” 78 Fed.Reg.
62649-01 (Oct. 22, 2013). On November 20, 2013, the
Secretary of State informed the Secretary of the Interior that a veto referendum on AR 277 qualified for the
ballot (“Proposition 48”) and that the measure would
go before voters at the November 3, 2014 general election. AR00000455. Sixty one percent of California voters voted against the legislative ratification of the
compact. Doc. 37-2 at 8.4
On January 2, 2015, North Fork requested that
the State of California enter into negotiations for a
new compact for Class III gaming on the Madera Site.
Doc. 37-2 at 8-9; North Fork v. California, 2015 WL
11438206 at *7. The State refused, indicating that negotiations for a compact regarding gaming at the

3

The Governor’s office sent a separate letter on July 9, 2013,
indicating that the State of California had entered into a compact
with North Fork. AR00000441.
4
See Index of California Referenda located at
http://www.sos.ca.gov/elections/ballot-measures/referendum/ (last
accessed on July 11, 2018).

App. 34
Madera Site would be “futile” given the result of the
referendum. Id.
E. The Good Faith Litigation, the Remedial Process,
and Issuance of Secretarial Procedures
On March 17, 2015, North Fork filed suit against
California pursuant to 25 U.S.C. § 2710(d)(7), seeking
a determination that the State of California did not negotiate in good faith toward an enforceable compact.
Doc. 37-2 at 9; see generally North Fork v. California,
2015 WL 11438206. On November 13, 2015, the Court
held that by refusing to negotiate, California failed to
negotiate in good faith to conclude a Tribal-State compact within the meaning of 25 U.S.C. § 2710(d)(7)(B)(iiiii). Id. at *8. On that basis, the Court ordered North
Fork and California to conclude a compact within 60
days of the date of that order. Id. at *8, 12 (citing 25
U.S.C. § 2710(d)(7)(B)(iii)).
North Fork and California did not conclude a compact within the 60-day period allowed. Doc. 37-2 at 9.
On January 25, 2016, the Court appointed a mediator
and directed North Fork and California to submit
their last best offers. Doc. 37-2 at 9; see 25 U.S.C.
§ 2710(d)(7)(B)(iv). The mediator was directed to select
from the two proposed compacts the one which best
comported with IGRA, other Federal law, and the findings and order of the Court. Doc. 37-2 at 9; see 25 U.S.C.
§ 2710(d)(7)(B)(vii). On February 11, 2016, the mediator determined that the proposed compact submitted
by North Fork best met the Court’s direction. Doc.37-2

App. 35
at 9; AR00000002-AR00000003. From the date that
the mediator returned the selected compact to the California, California was permitted to sixty days to consent to the selected compact or decline to do so. 25
U.S.C. § 2710(d)(7)(B)(vi). California did not consent to
the compact within the time permitted. Doc. 37-2 at 10;
AR00000001. In conformity with the requirements of
IGRA and the order of the Court, the mediator forwarded the selected compact to the Secretary of the
Interior to prescribe procedures under which North
Fork could conduct Class III gaming at the Madera
Site. Doc. 37-2 at 10; AR00000001; see 25 U.S.C.
2710(d)(7)(B)(vii).
On July 29, 2016, the Secretary issued Secretarial
Procedures permitting the Tribe to conduct Class III
gaming without a Tribal-State compact. AR0000218600002325. In issuing those procedures, the Secretary
did not make any express finding regarding whether
North Fork had jurisdiction over the Madera Site or
whether it was Indian land. Doc. 37-2 at 10;
AR00002186-00002325.
The administrative record contains no evidence
that any governmental entity had affirmatively concluded that North Fork had territorial jurisdiction over
the Madera Site. Doc. 37-2 at 10-11. However, in resolving the cross-motions for judgment on the pleadings
in North Fork v. California, 2015 WL 11438206 at *8,
the Court explained that it was “undisputed” between
North Fork and California that “the Madera [Site] [is]
gaming-eligible Indian land[ ] within the meaning of
25 U.S.C. §§ 2703(4) and 2719(b)(1)(A).” See also North

App. 36
Fork v. California, 2016 WL 4208452, *5 (E.D. Cal. Aug.
16, 2016) (subsequent determination) (The Court emphasized that the State of California admitted that
North Fork “exercises jurisdiction over the Madera
Parcel, which constitutes ‘Indian lands’ under IGRA.”)5
F. North Fork Tribal Council Action With Respect to
the Madera Site6
On October 16, 2015, the North Fork Tribal Council passed Resolution No. 15-58 approving a general
policy for permitting of Indian agricultural lands and
a conservation plan for the Madera Site. Declaration of
Steven Miskinis, Doc. 37-3 (“Miskinis Decl.”) at 1-6.
G. This Court’s Decision Denying Supplementation
of the Administrative Record
Club One filed a motion, seeking to supplement
the administrative record compiled by the Secretary.
Doc. 22. Club One argued that consideration of the
ownership history of the Madera Site is relevant to
whether North Fork had jurisdiction over that land. Id.
at 5-6, 8-10. Therefore, Club One argued, supplementation of the record was necessary to determine
whether the Secretary had considered all factors

5

No order in that action expressly considered whether there
could be Indian lands over which a tribe did not have jurisdiction.
6
Plaintiffs object to consideration of this evidence on the
bases that it is irrelevant and falls outside of the administrative
record.

App. 37
relevant to the prescribing of Secretarial Procedures
for Class III gaming. Id. at 5.
In order to determine whether to permit supplementation of the administrative record, it was “necessary [for the Court] to determine” what it means for
“an Indian tribe [to] exercise jurisdiction over land” for
purposes of IGRA. Doc. 33 at 6.7 To that end, the Court
permitted the parties to submit supplemental briefing
on that issue. Doc. 30 at 8. Mirroring their present positions, Club One argued that a State must cede jurisdiction over land to a tribe or the United States in
order for a tribe to have jurisdiction over that land for
purposes of IGRA; whereas, the Secretary argued that
jurisdiction over land, for purposes of IGRA, is conferred to a tribe when the land is taken into trust by
the United States for the benefit of that tribe.
The Court made the following limited determination:
When the Secretary takes land into trust for
an Indian tribe, some but not all jurisdiction
is transferred from the State to the Indian
tribe and the Federal Government. The fee-totrust determination does not result in the
Federal Government or an Indian tribe holding exclusive jurisdiction over the land.[fn]
However, IGRA does not require a tribe to
7

In prior orders the Court has interchangeably referred to
“having” and “exercising” jurisdiction over land. Because it now
addresses “having jurisdiction” for purposes of § 2710(d)(3)(A),
(d)(7)(B)(vii) and “exercising governmental power” for purposes of
2703(4), the Court ceases the former imprecision.

App. 38
exercise exclusive jurisdiction over land.[fn]. . . .
[W]hen the Secretary . . . takes land into trust
for an Indian tribe, that Indian tribe certainly
has jurisdiction over that land for purposes of
IGRA.
Doc. 33 at 9-10. Because the parties were (and are) in
agreement that the Madera Site was held in trust by
the United States for North Fork at the time the Secretary prescribed gaming procedures (and Club One is
not challenging the fee-to-trust determination), the
Court found that the material relating to the ownership history of the Madera Site was irrelevant to the
Secretarial determination in question here—the prescribing of gaming procedures.
III.

Legal Standard

Summary judgment is an appropriate mechanism
for reviewing agency decisions under the APA. Turtle
Island Restoration Network v. United States Dept. of
Commerce, 878 F.3d 727, 732 (9th Cir. 2017); City &
County of San Francisco v. United States, 130 F.3d 873,
877 (9th Cir.1997); Occidental Engineering Co. v. Immigration & Naturalization Service, 753 F.2d 766,
769–70 (9th Cir.1985). However, courts do not utilize
the standard analysis for determining whether a genuine issue of material fact exists. See Occidental, 753
F.2d at 769–70; Academy of Our Lady of Peace v. City
of San Diego, 835 F.Supp.2d 895, 902 (S.D. Cal. 2011);
California RSA No. 4 v. Madera Cnty., 332 F.Supp.2d
1291, 1301 (E.D. Cal. 2003). A court “is not required to
resolve any facts in a review of an administrative

App. 39
proceeding.” Occidental, 753 F.2d at 769; California
RSA, 332 F.Supp.2d at 1301. Instead, in reviewing an
agency action, the relevant legal question for a court
reviewing a factual determination is “whether the
agency could reasonably have found the facts as it did.”
San Francisco, 130 F.3d at 877; Occidental, 753 F.2d at
769.
The Court’s review in resolving an APA challenge
to an agency action is circumscribed: the court will only
set aside agency action if its “ ‘findings[ ] and conclusions [are] found to be . . . arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law,’ ‘in excess of statutory jurisdiction’ or ‘without observance of procedure required by law.” Turtle
Island, 878 F.3d at 732 (quoting 5 U.S.C. § 706(2)(A),
(C)-(D)). Agency action is arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law “only if the agency relied on factors Congress
did not intend it to consider, entirely failed to consider
an important aspect of the problem, or offered an explanation that runs counter to the evidence before the
agency or is so implausible that it could not be ascribed
to a difference in view or the product of agency expertise.” Defs. Of Wildlife v. Zinke, 856 F.3d 1248, 12561257 (9th Cir. 2017) (citation omitted); see Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto Ins.
Co., 463 U.S. 29, 43 (1983) (An “agency must examine
the relevant data and articulate a satisfactory explanation for its action.”) This standard is “highly deferential, presuming the agency action to be valid and
affirming the agency action if a reasonable basis exists

App. 40
for its decision.” Ranchers Cattlemen Action Legal
Fund United Stockgrowers of Am. v. U.S. Dep’t of Agric.,
499 F.3d 1108, 1115 (9th Cir. 2007) (quoting Indep.
Acceptance Co. v. California, 204 F.3d 1247, 1251 (9th
Cir. 2000)). Review under this standard is narrow,
and the court may not substitute its judgment for that
of the agency. Morongo Band of Mission Indians v. Fed.
Aviation Admin., 161 F.3d 569, 573 (9th Cir. 1988).
Nevertheless, the court must “engage in a substantial
inquiry . . . a thorough, probing, in-depth review.” Native Ecosys. Council v. U.S. Forest Serv., 418 F.3d 953,
960 (9th Cir. 2005) (citation and internal quotations
omitted).
Assuming an error was made, the Court considers
whether it was harmless. 5 U.S.C. § 706. In the context
of agency review, the role of harmless error is constrained. The doctrine may be employed only “when a
mistake of the administrative body is one that clearly
had no bearing on the procedure used or the substance
of decision reached.” Buschmann v. Schweiker, 676 F.2d
352, 358 (9th Cir.1982).
IV.

Discussion

Plaintiffs’ motion indicates that it presents two
issues: (1) whether the Secretary violated IGRA when
he issued Secretarial Procedures “authorizing North
Fork . . . to operate a casino on off-reservation land
that is still under state jurisdiction?”;8 and (2) “[d]oes
8

Plaintiffs also dispute whether North Fork exercised governmental power over the Madera Site such that it is

App. 41
it violate the Tenth Amendment if the Federal Government unilaterally diminishes a state’s territorial jurisdiction and shifts it to an Indian tribe?” Doc. 36-1 at
10. Plaintiffs present a third argument: (3) the Secretarial Procedures “are not consistent with state law”
because no compact is in effect and they therefore violate IGRA. Doc. 36-1 at 47.
The Court will resolve the first issue: No, because
the land was taken into trust by the United States for
North Fork, North Fork had jurisdiction over that land
for purposes of IGRA and therefore IGRA was not violated by Secretary prescribing Secretarial Procedures.
Next, the Court will not resolve the second issue
because the agency action that purportedly violates
the Tenth Amendment—the fee-to-trust determination
made pursuant to the IRA—is not challenged in this
action therefore the question is not properly before the
Court. Insofar as Plaintiffs seek to vindicate the State
of California’s partial divestment of jurisdiction by operation of the IRA, it is well settled in this Circuit
that they lack standing to do so. Oregon v. Legal Servs.
Corp., 552 F.3d 965, 972 (9th Cir. 2009) (citing Tenn.
Elec. Power Co. v. Tenn Valley Auth, 306 U.S. 118, 144
(1939); Stop The Casino 101 Coalition v. Salazar, 384
Fed.Appx. 546, 548 (9th Cir. 2010); see City of Roseville
v. Norton, 219 F.Supp.2d 130, 146-148 (D.D.C. 2002).

appropriately considered “Indian land.” See 25 U.S.C. § 2703(4)(B);
25 C.F.R. § 502.12(b). The Court will address that argument as
well.

App. 42
Finally, the court will resolve the third issue: Secretarial Procedures are not inconsistent with California law merely because a compact does not exist.
A. IGRA—Jurisdiction Over Land and Governmental
Power Requirements
In the final stage of the IGRA remedial process,
the Secretary must prescribe gaming procedures under which Class III gaming may be conducted “on the
Indian lands over which the Indian tribe has jurisdiction.” 25 U.S.C. § 2710(d)(7)(B)(vii)(II); see also 25
U.S.C. 2710(d)(3)(A). Courts, including this Court, have
read that section as imposing two requirements.9 See
Massachusetts v. Wampanoag Tribe of Gay Head, 853
F.3d 618, 624 (1st Cir. 2017) cert. denied, 138 S.Ct. 639.
9

The Court would note that the language of
§ 2710(d)(7)(B)(vii)(II) could be just as easily read to require three
showings as two: (1) Indian lands, over which (2) the Indian tribe
(3) exercises jurisdiction. Indeed, in the context of § 2710(d)(3)(A),
courts have found those three prerequisites. See Mechoopda Indian Tribe of Chico Rancheria v. Schwarzenegger, 2004 WL
1103021, *5 (E.D. Cal. Mar. 12, 2004) (citing Match-E-Be-NashShe-Wish Band of Pottawatomi Indians v. Engler, 304 F.3d 616
(6th Cir. 2002) However, the Ninth Circuit made clear that challenges to a tribe’s status as an Indian tribe is a collateral attack,
not appropriately raised in the IGRA context. See Big Lagoon
Rancheria v. California, 789 F.3d 947, 953-954 (9th Cir. 2015) (en
banc) (Asserting that a tribe lacks “standing to invoke . . .
IGRA,”—in that situation, whether or not the tribe is an Indian
tribe, see § 2710(d)(3)(A)—“necessarily argues that the [Bureau of
Indian Affairs] exceeded its authority when it took” land into
trust for the tribe pursuant to the IRA. “The proper vehicle to
make such a challenge is a petition to review [the IRA entrustment decision] pursuant to the APA.”)

App. 43
The first requirement is that an Indian tribe “have jurisdiction” over the gaming site. Wampanoag Tribe,
853 F.3d at 624; Upstate Citizens for Equality, Inc. v.
United States, 841 F.3d 556, 566 (2nd Cir. 2016) cert.
denied, 2017 WL 5660979 (Nov. 27, 2017) (quoting
Citizens Against Casino Gambling in Erie County v.
Chaudhuri, 802 F.3d 267, 279 (2nd Cir. 2015)); Miami
Tribe of Oklahoma v. United States, 656 F.3d 1129,
1144 (10th Cir. 2011); Club One Casino, Inc. v. United
States Dept. of Interior, 2017 WL 5877033, *4 (E.D. Cal.
Nov. 29, 2017). In its last order, the Court expressly declined to set out the precise contours of what it means
for an Indian tribe to “have jurisdiction” over a particular piece of land. Club One, 2017 WL 5877033 at *6.
The second requirement, arising from the definition of “Indian land,” is that the tribe “exercise governmental power” over the land. 25 U.S.C. § 2703(4)(B); see
Wampanoag Tribe, 853 F.3d at 624-626 (citing, inter
alia, State of R.I. v. Narragansett Indian Tribe, 19 F.3d
685, 702 (1st Cir. 1994)); Chaudhuri, 802 F.3d at 286.
In short, an Indian tribe must exercise governmental power over land held in trust by the United
States for the tribe for the land to be Indian land. 25
U.S.C. § 2703(4)(B). In order to conduct gaming on that
Indian land (or demand that a state negotiate toward
an enforceable compact), the Indian tribe conducting
that gaming must be the tribe that has jurisdiction
over that land.10
10

The Secretary challenges whether he must independently
verify that those requirements are met prior to issuing secretarial

App. 44
B. Having Jurisdiction Over Indian Land
Plaintiffs begin their argument by quoting the
portion of this Court’s November 29, 2017 order that
framed the issue then before the Court: “Legally, the
parties are in agreement that, at least in the ordinary
case, acquisition of an ownership interest in land by
the United States only impacts title to that land; it
does not divest the State of jurisdiction over that land.
[citation omitted] . . . The parties disagree regarding
the jurisdictional impact of the Secretary taking the
Madera Site into trust for North Fork through the authority delegated to the Secretary by the IRA.” Doc. 361 at 10 (quoting Doc. 33 at 5). It is not until much later
in Plaintiffs’ argument that they recognize that the
Court resolved that question in its November 29, 2017
order. See Doc. 36-1 at 44. In the interim, Plaintiffs’ argument reiterates (albeit in more depth) the argument
submitted in response to this Court’s authorization for
supplemental briefing in resolving Plaintiffs’ motion to
supplement the administrative record. Compare Doc.
32 with Doc. 36-1.
procedures in light of the fact that those same requirements were
necessary in order for North Fork to initiate its good faith negotiation litigation against the State to begin with. Compare 25
U.S.C. § 2710(d)(3)(A) with 25 U.S.C. § 2710(d)(7)(B)(vii)(II). This
Court shares the Secretary’s doubts regarding whether the Secretary is required by § 2710(d)(7)(B)(vii)(II) to verify that the
same requirements for a tribe to institute a good faith negotiation
action have been met. Although the Secretary’s position offers the
appeal of eliminating the risk of inconsistent findings that IGRA
does not appear to anticipate, because the Court finds that both
the “having jurisdiction” and “exercising governmental power” requirements are met, the court does not resolve that question.

App. 45
In both iterations of Plaintiffs’ argument, the reasoning is as follows: IGRA requires “territorial jurisdiction” over any land where Class III gaming is to be
conducted; California has territorial jurisdiction over
all land within its borders, including the Madera Site;
transfer of title to real property does not impact territorial jurisdiction over that real property; in order for
an Indian tribe to acquire jurisdiction over land sufficient for purposes of IGRA, the State in which the land
lies must expressly cede jurisdiction to the tribe or the
United States; no express cession of jurisdiction by
California has taken place with respect to the Madera
Site and the United States has not expressly accepted
jurisdiction of the Madera Site; therefore North Fork
does not have jurisdiction over the Madera Site and
the Secretary erred in issuing Secretarial Procedures.
To Plaintiffs’ motion to supplement and motion for
summary judgment, the Secretary has responded that
North Fork’s jurisdiction over the Madera Site, for purposes of IGRA, arose through the act of placing the
land in trust for the tribe. The Court agreed with the
Secretary’s position in denying Plaintiffs’ motion to
supplement the administrative record and the Court
remains in agreement now.
i. The fee-to-trust determination shifts some jurisdiction from a State to an Indian tribe.
As a starting point, Congress has the power to
regulate commerce with the Indian tribes. U.S. Const.
art. I, § 8, cl. 3 (conferring upon Congress the power

App. 46
“[t]o regulate commerce . . . with the Indian tribes.”)
The Supreme Court has described Congressional authority under the Indian Commerce Clause as “plenary.” Cotton Petroleum Corp. v. New Mexico, 490 U.S.
163, 192 (1989); Morton v. Mancari, 417 U.S. 535, 551
(1974) (noting that Congress has plenary power “to
deal with the special problems of Indians,” including
the power to legislate); South Dakota v. Yankton Sioux
Tribe, 522 U.S. 329, 343 (1998). The IRA was enacted,
at least in part, pursuant to that authority. See Upstate
Citizens, 841 F.3d at 568; South Dakota v. United
States Department of the Interior, 787 F.Supp.2d 981,
992 (D. S.D. 2011).
The United States Supreme Court has been clear
that § 5 of the IRA “provides the proper avenue for” an
Indian tribe “to reestablish sovereign authority over
territory. . . .” City of Sherrill, N.Y. v. Oneida Indian
Nation of New York, 544 U.S. 197, 221 (2005) (citing
25 U.S.C. § 465, now codified at 25 U.S.C. § 5108); see
Carcieri v. Kempthore, 497 F.3d 15, 36 (1st Cir. 2007)
rev’d on other grounds 555 U.S. 379 (Regardless of how
an Indian tribe lost “aboriginal title or ancient sovereignty” over land—even if it is fully extinguished—§ 5
is appropriate to “establish[ ] tribal sovereignty over
land.”); Alaska v. Native Village of Venetie Tribal Government, 522 U.S. 520, 531 n.6 (1998) (suggesting
that action by Congress or an executive agency acting
under delegated authority can create or recognize Indian rights with respect to property). However, the
Supreme Court did not detail the precise ways that
taking land into trust for an Indian tribe impact the

App. 47
share of jurisdiction between an Indian tribe, a State,
and the Federal Government. See Sherrill, 544 U.S. at
220-221 (The implementing regulations for § 5 of the
IRA are “sensitive to the complex interjurisdictional
concerns that arise when a tribe seeks to regain sovereign control over territory.”) The Ninth Circuit has indicated that § 5 of the IRA is designed to allow the
Secretary hold such lands “in the legal manner and
condition in which trust lands were held under the . . .
court decisions [existing before enactment of the IRA,
i.e.,] free of state regulation.”11 Santa Rosa Band of Indians v. Kings County, 532 F.2d 655, 666 (9th Cir.
1975); see Chaudhuri, 802 F.3d at 285-286; Cf. Guidville Band of Pomo Indians v. NGV Gaming, Ltd., 531
F.3d 767, 777 (9th Cir. 2008) (The DOI gives state governments an opportunity to object to the fee-to-trust
determination by demonstrating “why taking the land
into trust would ‘impact [ ] their jurisdiction. . . .”) (citing, inter alia, 25 C.F.R. § 151.11(d)). Under Ninth Circuit authority, this Court should treat land placed in
trust for a tribe pursuant to § 5 of the IRA in the same
manner as land held in trust for tribes prior to enactment of the IRA in 1934. Santa Rosa, 532 F.2d at 666;
see also Rice v. Olson, 324 U.S. 786, 789 (1945) (“The
policy of leaving Indians free from state jurisdiction
and control is deeply rooted in the Nation’s history.”)
“Rather than reading the omission of a provision exempting the lands [taken into trust pursuant to § 5 of
11

This Court does not read Santa Rosa for the proposition
that Indian jurisdiction over land is entirely exclusive of state
jurisdiction. See 18 U.S.C. § 1151.

App. 48
the IRA] from state regulation as evidencing a congressional intent to allow state regulation, [the Ninth Circuit] read the omission as indicating that Congress
simply took it for granted that the states were without
such power, and that an express provision was unnecessary; i.e., that the exemption was implicit in the
grant of trust lands under existing legal principals.”
Santa Rosa, 532 F.2d at 666 n. 17.
Other circuits share a similar understanding. The
Second Circuit held in Upstate Citizens, 841 F.3d at
569, that “[w]hen the federal government takes land
into trust for an Indian tribe, the state that previously
exercised jurisdiction over the land cedes some of its
authority to the federal and tribal governments.” Accord Chaudhuri, 802 F.3d at 284 (finding in dicta that
lands taken into trust pursuant to § 5 of the IRA are
subject to tribal jurisdiction). See also, Upstate Citizens
for Equality, Inc. v. United States, ___ S.Ct. ___, 2017
WL 5660979, *1, 3 (Nov. 27, 2017) (Thomas, J., dissenting from denial of cert.) (The Supreme Court’s reading
of the IRA in Sherrill and the Second Circuit’s reading
of the IRA in Upstate Citizens permit the Secretary “to
take any state land and strip the State of almost all
sovereign power over it ‘for the purpose of providing
land for the Indians.’ ”) The Court agrees with the
Second Circuit that use of the fee-to-trust provision of
§ 5 of the IRA shifts at least some jurisdiction from the
State to a tribe and the federal government.
The cases cited by Plaintiffs do not undermine
that conclusion.

App. 49
ii. The shift of jurisdiction to an Indian tribe resulting from a fee-to-trust determination is
enough to satisfy the “having jurisdiction over”
Indian lands requirement of § 2710(d)(1)(A)(i).
IGRA does not define what it means to have jurisdiction over Indian land. The answers that Courts
have given to this question are varied. The Second Circuit has indicated that “ ‘[j]urisdiction,’ in this context,
means ‘tribal jurisdiction’—‘a combination of tribal
and federal jurisdiction over land,’ to the exclusion
(with some exceptions) of state jurisdiction.” Upstate
Citizens, 841 F.3d at 566 (quoting Chaudhuri, 802 F.3d
at 279-280)); see Mechoopda Indian Tribe of Chico
Rancheria v. Schwarzenegger, 2014 WL 1103021, *7
(E.D. Cal. 2004). The Second Circuit also explained
that lands over which tribal jurisdiction exist “have
historically been referred to as ‘Indian country.’ ”
Chaudhuri, 802 F.3d at 280; see 18 U.S.C. § 1151; accord HRI, Inc. v. EPA, 198 F.3d 1224, 1250 (10th Cir.
2000) (quoting Mustang Prod. Co. v. Harrison, 94 F.3d
1382, 1384 (10th Cir. 1996) (“In order to determine
whether the Tribes have [tribal] jurisdiction [over a
specific plot of land] we must . . . look to whether the
land in question is Indian country.”)12
“ ‘[L]ands held in trust by the United States for the
Tribes are Indian Country within the meaning of
§ 1151(a).’ ” U.S. v. Sohappy, 770 F.2d 816, 822 (9th Cir.
12

See also Waterwheel Camp Recreational Area, Inc. v.
LaRance, 642 F.3d 802, 809 n.5 (indicating that Indian land
can exist outside of a reservation and citing to a statute involving
Indian country).

App. 50
1985) (quoting Hydro Resources, Inc v. EPA, 608 F.3d
1131); accord State of Ariz. V. EPA, 151 F.3d 1205, 1214
(9th Cir. 1998); HRI, Inc. 198 F.3d at 1254; Citizens
Against Casino Gambling in Erie County v. Hogen,
2008 WL 2746566 at *34 (collecting cases). For purposes of determining whether land is Indian country,
the Supreme Court does not differentiate between
lands taken into trust prior to statehood of the State in
which the lands lie and those lands taken into trust
after. See U.S. v. John, 437 U.S. 634, 649 (1978) (explaining that all doubt was removed that land was
subject to federal criminal jurisdiction when it was declared to be held in trust for a tribe); U.S. v. McGowan,
302 U.S. 535, 537-538 (1938) (finding that land taken
in trust by the United States for an Indian tribe after
Nevada’s induction into the union was Indian country
because it was validly set apart for use of the Indians).
The First Circuit appears to require a lesser showing that the Second Circuit to prove that a tribe has
jurisdiction over land for purposes of IGRA—that a
tribe possesses “that portion of jurisdiction they possess by nature of their sovereign existence as a people.”
Wampanoag Tribe, 853 F.3d at 624. The First Circuit
went on to suggest that a tribe’s possession of any jurisdiction (and a state’s possession of anything short of
exclusive jurisdiction) meets the threshold showing.
Id. at 625 n.5; accord Narragansett, 19 F.3d at 701.
In this Court’s estimation, a logical reading of the
“having jurisdiction over” language is simply that it is
a linkage requirement between the Indian tribe and
the Indian land at issue. In other words, that language

App. 51
is included to ensure that an Indian tribe in California,
for instance, does not seek authorization to conduct
Class III gaming on Indian land under the jurisdiction
of some other tribe in New York. When a tribe possesses Indian lands, that tribe necessarily has jurisdiction over those lands. Such a reading is consistent with
the language of § 2710(d)(3)(A):
Any Indian tribe having jurisdiction over the
Indian lands upon which a class III gaming
activity is being conducted, or is to be conducted, shall request the State in which such
lands are located to enter into negotiations for
the purpose of entering into a Tribal-State
compact governing the conduct of gaming activities. Upon receiving such a request, the
State shall negotiate with the Indian tribe in
good faith to enter into such a compact.
25 U.S.C. § 2710(d)(3)(A). Congress uses linking language to explain that negotiation by a tribe must be
with “the State in which [its Indian] lands are located,”
not some other State. In the same way, Congress explains that the tribe “having jurisdiction over the Indian lands upon which a class III activity . . . is to be
conducted” shall seek to negotiate with a State. That
language is not to suggest some additional jurisdictional requirement but to link the specific tribe to specific Indian lands.13

13

Other portions of IGRA suggest that any time Indian lands
exist, some tribe has jurisdiction over those lands. See 25 U.S.C.
§ 2710(d)(1)(A)(i) (In order to conduct Class III gaming activities,
those activities must be “authorized by an ordinance . . . that is

App. 52
Regardless of which standard is correct, North
Fork has jurisdiction over the Madera Site. Applying
the Second Circuit’s test from Upstate Citizens, the
land acquired in trust by the United States for the
benefit of North Fork is Indian country, set apart for
the use of the tribe and under federal superintendence.
It is therefore under North Fork’s tribal jurisdiction.
Sohappy, 770 F.2d at 822; Oklahoma Tax Comm’n, 498
U.S. at 511. Applying the First Circuit’s test from Wampanoag Tribe, the Madera Site is under North Fork’s
tribal jurisdiction because the fee-to-trust process
shifted at least some jurisdiction to the tribe. Santa
Rosa, 532 F.2d at 666 n. 17; Chaudhuri, 802 F.3d at
285. Finally, North Fork easily meets the linkage requirement that this Court would impose; North Fork is
the Indian tribe for whom the United States holds the
Madera Site.
C. Exercising Governmental Power
The term “exercising governmental power” is “undefined by IGRA and ‘the case law considering the
phrase is sparse.” Commonwealth v. Wampanoag Tribe
of Gay Head, 144 F.Supp.3d 152, 166 (D. Mass. 2015)
(quoting Miami Tribe of Okla. v. United States, 5
F.Supp.2d 1213, 1217 (D. Kan. 1998)). Indeed, many
circuit courts simply conclude that land is Indian land
when it is held in trust by the United States for the
benefit of a tribe without asking if a tribe exercises
adopted by the governing body of the Indian tribe having jurisdiction over such lands.”)

App. 53
governmental power over that land. Kansas ex rel.
Schmidt v. Zinke, 861 F.3d 1024, 1032 n.3 (10th Cir.
2017) cert. denied 138 S.Ct. 571 (“There is no question
that the Kansas land constitutes ‘Indian land’ because
the land was taken into trust for the Quapaw Tribe in
2012.”); Alabama v. PCI Gaming Authority, 801 F.3d
1278, 1290-1293 (11th Cir. 2015) (concluding that
lands are Indian lands after only finding that they
were taken into trust for the tribe by the Secretary of
the Interior); see Big Lagoon Rancheria, 789 F.3d at
953.14 See also Yankton Sioux Tribe v. Podhradsky, 606
F.3d 994, 1006, 1010-11 (8th Cir.2010) (recognizing
lands taken into trust by the BIA under § 5 of the IRA
are Indian country, and “as a general rule Indian country falls under the primary civil, criminal, and regulatory jurisdiction of the federal government and the
resident Tribe rather than the states”) That understanding seems to match best with the Ninth Circuit
and Supreme Court’s most recent explanations of “Indian land” as defined by § 2703(4)(B). Patchak v. Zinke,
14

In an unpublished decision, the Ninth Circuit has suggested that Big Lagoon Rancheria stands for the proposition that
a challenge to whether or not land is in fact Indian land can only
be challenged by way of a challenge to the IRA fee-to-trust decision. Jamul Action Committee v. Chaudhuri, 651 Fed.Appx. 689,
690 (9th Cir. 2016) (citing Big Lagoon Rancheria, 789 F.3d at
953); accord Jamul Action Committee v. Chaudhuri, 200
F.Supp.3d 1042, 1051-1052 (E.D. Cal. 2016). That understanding
comports with the Court’s conclusion that taking land into trust
for an Indian tribe renders the land Indian land for purposes of
IGRA. If some showing additional to the fee-to-trust determination was required for land to be Indian land, a challenge to
whether land is Indian land could appropriately take place outside of a challenge to the fee-to-trust determination.

App. 54
___ U.S. ___, 138 S.Ct. 879, 903 n.1 (2018) (“Federal law
allows Indian tribes to operate casinos on ‘Indian
lands,’ 25 U.S.C. § 2710, which includes lands ‘held in
trust by the United States for the benefit of any Indian
tribe,’ ” § 2703(4)(B).”); Arizona v. Tohono O’odham Nation, 818 F.3d 549, 554 n.2 (9th Cir. 2016) (Albeit in a
slightly different context, the Ninth Circuit explained
that “Section 2703(4) defines ‘Indian lands’ as ‘all lands
within the limits of any Indian reservation; and any
lands title to which is . . . held in trust by the United
States for the benefit of any Indian tribe.’ ”) Neither the
Supreme Court nor the Ninth Circuit found the “exercise of governmental power” clause analytically significant enough to merit mention. On that basis, the
Court holds that the Madera Site is Indian land because it is in trust for North Fork.
That said, the other circuit courts suggests a need
for actual use of the jurisdictional authority over the
land; some showing of “concrete manifestations of that
authority.” Wampanoag Tribe, 853 F.3d at 625 (quoting
State of Rhode Island v. Narragansett Indian Tribe, 19
F.3d 685, 703 (1st Cir. 1994)). In Wampanoag Tribe, the
First Circuit explained that the tribe need not have
achieved “full-fledged self-governance, but merely
movement in that direction . . . to evince that the Tribe
exercises . . . enough governmental power to satisfy”
that requirement. 853 F.3d at 625-626. Any doubt in
resolving whether a tribe exercises sufficient governmental power is “to be resolved in favor of Indians.” Id.
at 826 (quoting, inter alia, Rosebud Sioux Tribe v.
Kneip, 430 U.S. 584, 586-587 (1977)).

App. 55
The Second Circuit in Wampanoag Tribe and in
Narragansett had no problem determining that the
Tribes exercised governmental power. The Wampanoag
Tribe “established a housing program,” “entered into
an intergovernmental agreement with the EPA,” “operat[ed] a health care clinic,” offered social services and
public safety services, passed ordinances, and employed a judge. Wampanoag Tribe, 853 F.3d at 626. The
Narragansett Tribe had “established a housing authority,” had government-to-government relations with the
EPA, and took “advantage of the Indian Self-Determination and Education Assistance Act.” Narragansett,
19 F.3d at 703. See also Chaudhuri, 802 F.3d at 286
(noting in dicta that a tribe exercised governmental
power over land where it policed, fenced, posted signs
on, and enacted ordinances relating to that land).
Even assuming the First and Second Circuits are
correct, there is sufficient evidence in the administrative record such that it was not arbitrary or capricious
for the Secretary to conclude that North Fork exercised
governmental power over the Madera Site.
In this case, the Secretary was procedurally in a
different position than in Wampanoag Tribe and Narragansett. Here, a determination had already been
made that the Madera Site is Indian land. In North
Fork v. California, 2015 WL 11438206 at *8, where this
Court resolved cross motions for judgment on the
pleadings between North Fork and California, the
Court made clear that “it [was] undisputed [between
California and North Fork] that . . . the Madera [Site
is] gaming-eligible Indian land[ ] within the meaning

App. 56
of 25 U.S.C. § 2703(4) and 2719(b)(1)(A).” Accord North
Fork v. California, 2016 WL 4208452 (E.D. Cal. Aug. 10,
2016). Indeed, that order was considered by the courtappointed mediator in selecting a proposed compact
which, in turn, was considered by the Secretary in prescribing the gaming procedures at issue in this action.
That decision is part of the administrative record upon
which the Secretary was permitted to rely.
Next, even assuming the Secretary was required
to delve beyond the Court’s determination, the evidence available to the Secretary in the time before the
Secretarial Procedures were issued indicated that
North Fork had enacted an ordinance with respect the
Madera Site. Miskinis Decl., Doc. 37-2 at 4-6.15 If the
Court remanded the action to the Secretary for consideration of whether North Fork exercised governmental
power over the Madera Site, the Secretary could only
conclude that North Fork exercised governmental
power over that site by legislating with respect to it.
D. Consistency with California Law
At the final stage of the remedial process, the
Secretary must prescribe gaming procedures “which
are consistent with the proposed compact selected by
the mediator . . . , the provisions of [IGRA], and the
15

The Court takes judicial notice of North Fork’s Tribal Ordinance, designated Resolution No. 15-58, enacted on October 16,
2015. North County Community Alliance, Inc. v. Salazar, 573
F.3d 738, 746 (9th Cir. 2009) (taking judicial notice of a tribal
ordinance.)

App. 57
relevant provisions of the laws of the State.” 25 U.S.C.
§ 2710(d)(7)(B)(vii)(II). Plaintiffs argue in their motion (and abandon the argument in their reply) that
the Secretarial Procedures are inconsistent with California law because no Compact exists governing
Class III gaming. Plaintiffs are mistaken.
As a preliminary matter, Secretarial Procedures
cannot be issued if a valid compact governing Class III
gaming on an Indian tribe’s Indian lands exists. See 25
U.S.C. §§ 2710(d)(3)(A), 2710(d)(7)(B)(vi-vii). To be
clear, it is Plaintiffs’ position that Secretarial Procedures, if issued to permit an Indian tribe in California
to conduct Class III gaming, will always violate IGRA.
For that proposition, Plaintiffs direct the Court to Article IV, sections 19(e) and 19(f ) of the California Constitution which, collectively, preclude Nevada style
gaming except by Indian tribes conducting such gaming pursuant to tribal-state compacts. Cal. Const., art.
IV, § 19(e-f ). Plaintiffs reason that Secretarial Procedures are not a compact and therefore gaming at the
Madera Site under such procedures is inconsistent
with the California Constitution. Plaintiffs cite no case
authority for this proposition and it is undercut by the
California Supreme Court’s decision in Hotel Employees and Restaurant Employees Intern. Union v. Davis,
21 Cal.4th 585 (1999). In Hotel Employees the California Supreme Court addressed, inter alia, California’s
statutory wavier of immunity enacted in response to
Seminole Tribe of Fla. v. Florida, 517 U.S. 44 (1996).16
16

In Seminole Tribe, the Supreme Court held that that in
authorizing Indian tribes to sue the state pursuant to IGRA,

App. 58
Hotel Employees, 21 Cal.4th at 1010-1011. That waiver
of immunity reads, in relevant part, as follows:
[T]he State of California . . . submits to the jurisdiction of the courts of the United States in
any action brought against the state by any
federally recognized California Indian tribe
asserting any cause of action arising from the
state’s refusal to enter into negotiations with
that tribe for the purpose of entering into a
different Tribal-State compact pursuant to
IGRA or to conduct those negotiations in good
faith, the state’s refusal to enter into negotiations concerning the amendment of a TribalState compact to which the state is a party, or
to negotiate in good faith concerning that
amendment, or the state’s violation of the
terms of any Tribal-State compact to which
the state is or may become a party.
Cal. Gov’t Code § 98005. The Hotel Employees court explained that the waiver of immunity was designed to
give effect to IGRA’s remedial framework, 25 U.S.C.
§ 2710(d)(7). Hotel Employees, 21 Cal.4th at 615 (“The
[above-quoted portion] of section 98005, in providing
the state’s consent to such a suit, is obviously intended
to restore to California tribes the remedy provided in
IGRA.”) The issuance of Secretarial Procedures is the
part of the remedial process that gives it teeth. If
gaming pursuant to Secretarial Procedures was not

Congress impermissibly sought to abrogate Eleventh Amendment
immunity. 517 U.S. at 47. In order to avoid offending the Eleventh
Amendment, a State must explicitly consent to suit. Id.

App. 59
contemplated, the purpose of the remedial process—
restoring leverage to tribes to sue recalcitrant states
and thereby force them into a compact—would be
wholly eroded. U.S. v. Spokane Tribe of Indians, 139
F.3d 1297, 1299-1300 (9th Cir. 1998). The State of California did not waive jurisdiction so a tribe could bring
a claim without a remedy.
Moreover, there is good reason to treat Secretarial
Procedures issued pursuant to § 2710(d)(7)(A)(vii) as
equivalent to a Tribal-State compact for purposes of
IGRA and therefore also for purposes of the relevant
portions of California law designed to mirror IGRA.
Section 2710(d)(1) makes clear that “[c]lass III gaming
activities shall be lawful on Indian lands only if such
activities are,” among other things, “conducted in conformance with a Tribal-State compact entered into by
the Indian tribe and the State under paragraph (3)
that is in effect.” If Secretarial Procedures prescribed
pursuant to section 2710(d)(7)(A)(vii) are not treated
as equivalent to a Tribal-State compact for purposes of
IGRA, then the remedial process would be meaningless. Secretarial Procedures could never be issued because Secretarial Procedures—necessarily issued in
the absence of a compact that is in effect—would always be “[in]consistent with . . . the provisions of
[IGRA]. . . .” 25 U.S.C. § 2710(d)(7)(B)(vii)(I). The Court
will not read IGRA to have created (or the State of
California to have waived immunity as to) an empty
remedial process. Such an outcome must be rejected.

App. 60
E. Conclusion
The Secretary’s issuance of Secretarial Procedures
was not arbitrary, capricious, or otherwise not in accordance with law for any of the reasons identified by
Plaintiffs. Again, the Court does not address the alleged unconstitutionality of the jurisdictional shift
caused by the fee-to-trust determination as that determination is not properly before this Court, as described
above.
III.

Order

Based on the foregoing, IT IS HEREBY ORDERED that the Plaintiffs’ motion for summary judgment is DENIED and the Federal Defendants’ motion
for summary judgment is GRANTED.
The Clerk of the Court is respectfully directed to enter
judgment and close this case.
IT IS SO ORDERED.
Dated: July 13, 2018

/s/ Anthony W. Ishii
SENIOR DISTRICT JUDGE

App. 61
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
CLUB ONE CASINO, INC.,
ET AL.,
v.
SALLY M. JEWELL, ET AL.,

JUDGMENT IN
A CIVIL CASE
CASE NO:
1:16−CV−01908−
AWI−EPG

XX −− Decision by the Court. This action came to
trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT’S ORDER FILED ON 7/13/18
Marianne Matherly
Clerk of Court
ENTERED:

July 13, 2018
by: /s/ S. Martin−Gill
Deputy Clerk

App. 62
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
CLUB ONE CASINO, INC.,
DBA Club One Casino; GLCR,
INC., DBA The Deuce Lounge
and Casino,
Plaintiffs-Appellants,
v.

No. 18-16696
D.C. No.
1:16-cv-01908 -AWIEPG Eastern District
of California, Fresno
ORDER

DAVID BERNHARDT;
(Filed Aug. 3, 2020)
MIKE BLACK, Acting Assistant
Secretary of the Interior Indian Affairs; U.S. DEPARTMENT OF THE INTERIOR,
Defendants-Appellees.
Before: COLE,* GOULD, and MURGUIA, Circuit
Judges.
The panel has voted to deny the petition for panel
rehearing. Judges Gould and Murguia voted to deny
the petition for rehearing en banc, and Judge Cole recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing and rehearing en banc and no judge has

* The Honorable R. Guy Cole, Jr., United States Chief Circuit Judge for the U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

App. 63
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED (Doc. 50).

App. 64
[LOGO] United States Department of the Interior
OFFICE OF THE SECRETARY
Washington, DC 20240
JUL 29 2016
The Honorable Maryann McGovran
Chairwoman, North Fork Rancheria
of Mono Indians of California
P.O. Box 929
North Fork, California 93643
Dear Chairwoman McGovran:
On April 28, 2016, the Department of the Interior (Department) received a letter, order, and proposed compact from the court-appointed mediator (Mediator) in
North Fork Rancheria of Mono Indians of California v.
California 1:15-cv-00419-AWJ-SAB (E.D. Cal. 2015)
that initiated the process for the Department’s issuance of Class III gaming procedures consistent with 25
U.S.C. § 2710(d)(7)(B)(vii). The Mediator took this action because the State of California (State) failed to
consent to a mediator-selected compact under the process set forth in the Indian. Gaming Regulatory Act
(IGRA).1 After more than 90 days of review by the Department of the Mediator’s submission, I am issuing
the enclosed procedures under which the North Fork

1

25 U.S.C. §2710(d)(7)(B). This is not the first time that a
court-appointed mediator has taken such action because the State
failed to negotiate a compact in good faith. In 2013, the Department issued procedures governing Class III gaming by the Rincon
Band of Luiseno Indians.

App. 65
Rancheria of Mono Indians (Tribe) may conduct Class
III gaming consistent with IGRA.
It is important to note that the issuance of these procedures is the result of the State’s actions after a State
referendum overturned the legislative ratification of
the Tribe’s 2012 Compact. First, the State failed to negotiate a Class III compact in good faith. A Federal
court expressly found that the State violated IGRA requirement for states to negotiate a compact in good
faith. Second, the State further refused to consent to a
compact selected by the Mediator. The State’s consistent failure to comply with the law triggered the
Secretary of the Interior’s (Secretary) duty under
IGRA to prescribe Class III gaming procedures.3
The Secretary’s duty to issue procedures is one of
IGRA’s fundamental safeguards of tribal sovereignty.
In IGRA, Congress expressly reaffirmed that tribes
maintain their pre-existing sovereign reserved right to
conduct gaming. This reserved tribal right, confirmed
by the Supreme Court in Cabazon,4 endures throughout IGRA’s framework. While Congress provided states
a limited role to negotiate a tribal-state compact governing Class III gaming activities, Congress did not
eviscerate tribal sovereignty. Recognizing the underlying tribal reserved right, Congress expressly provided
that, when a state does not negotiate a tribal-state
compact in good faith and does not agree with a
3

25 U.S.C. § 2710(d)(7)(B)(vii).
California v. Cabazon Band of Mission Indians, 480 U.S.
202 (1987).
4

App. 66
Federal court-appointed mediator’s compact, tribes retain the sovereign right to conduct Class III gaming
pursuant to Federal procedures issued by the Secretary.5 The Department’s action here upholds that tribal
sovereign right.
Under IGRA, states are required to negotiate gaming
compacts “in good faith” with tribes and address issues
that are specific to each individual tribe. Tribes may
enforce this good faith obligation by filing suit in Federal court6.
In 2012, the Governor and the Tribe executed a compact (2012 Compact) governing Class III gaming. On
May 2, 2013, the California Legislature passed AB 277,
which ratified the 2012 Compact.7 In compliance with
the requirements of 25 C.F.R. Part 293, the California
Secretary of State submitted the 2012 Compact to the
Secretary for review and approval. On October 22,
2013, the Assistant Secretary – Indian Affairs published notice in the Federal Register that the 2012
Compact between the State and the Tribe was approved and in effect to the extent that it was consistent
with IGRA.8
In a November 4, 2014 referendum, California voters
opted to overturn AB277, the legislative ratification of
the 2012 Compact. Following the 2014 referendum, the
5

25 U.S.C. § 2710 (d); see also 25 C.F.R. Part 291.
25 U.S.C. § 2710(d)(7)(A).
7
Cal. Govt. Code § 12012.59.
8
Notice of Tribal-State Class III Gaming Compact taking effect, 78 Fed. Reg. 62649 (Oct. 22, 2013).
6

App. 67
State refused to recognize the validity of the 2012
Compact or to enter into further negotiations with the
Tribe for a new Tribal-State compact.
The Tribe filed suit in Federal district court challenging the State’s refusal to negotiate. The State raised
several defenses, including sovereign immunity. On
November 13, 2015, the Federal District Court for the
Eastern District of California held that the State failed
to negotiate in good faith with the Tribe after the 2014
referendum. The Court ordered the State and Tribe to
reach an agreement within 60 days.9
The parties failed to reach an agreement within 60
days, and the Court appointed a mediator, as required
by IGRA. The Tribe and State subsequently each submitted a respective “last best offer” proposed compact
to the Mediator. The Mediator determined that the
Tribe’s proposed compact best comported with the
terms of IGRA, any other applicable Federal law, and
the findings and order of the Court.10 The Mediator notified the Tribe and State of her selection and gave the
State 60 days to consent to the compact. The State
failed to consent to the Mediator’s selected compact
and, as noted above, the Mediator submitted her selection to us on April 28, 2016.
We note the Mediator’s selected compact contemplated
that, in addition to the North Fork Tribal Gaming
Commission’s role as a regulator of the Tribe’s gaming
9
10

25 U.S.C. § 2710(d)(7)(B)(iii).
25 U.S.C. § 2710 (d)(7)(B)(iv).

App. 68
activities, the State would also have regulatory responsibilities largely consistent with the State’s regulatory
role in Class III gaming under numerous existing compacts with tribes in the State. Since the State did not
consent to the selected compact within the 60 day period set forth in IGRA, the State may not be willing to
fulfill such regulatory responsibilities. Accordingly,
Section 8.2 provides a 60 day “opt-in” period for the
State to provide written notice that it agrees to perform the State Gaming Agency’s regulatory responsibilities set forth in the procedures. If the State does not
opt-in, the National Indian Gaming Commission has
agreed to perform such responsibilities pursuant to a
Memorandum of Understanding with the Tribe.
The IGRA requires the Secretary to prescribe procedures after receiving notice that a state has not consented to a mediator’s selected compact. After
government-to-government consultations with the
Tribe, the procedures are to be consistent with a mediator’s selected compact, IGRA, and the relevant provisions of state law.11 We find that the procedures meet
those requirements. We note, however, that the procedures we issue today do not draw bright lines for future
compacts. Through this process, we have purposely refrained from changing regulatory provisions in deference to the Mediator’s submission to the Department
and the Tribe’s specific request that we change that
submission as little as possible. In many respects, we
understand that the Mediator’s submission to the
11

25 U.S.C. § 2710 (d)(7)(B)(vii).

App. 69
Department reflects compromises the Tribe agreed to
make rather than compromises that the Tribe was required to make under IGRA.
Finally, we note that this action to issue procedures is
separate from the Departmental decision made years
ago requesting the Governor’s concurrence to allow
gaming on the subject parcel as well as the subsequent
decision made in 2012 to accept that parcel into
trust.
By this letter we hereby notify the Tribe and the State
that the attached Secretarial Procedures for the conduct of Class III gaming on the Tribe’s Indian lands are
prescribed and in effect.
Sincerely,
/s/ Lawrence S. Roberts
Lawrence S. Roberts
Acting Assistant Secretary –
Indian Affairs
cc: Governor of California
National Indian Gaming Commission
Enclosure

App. 70
SECRETARIAL PROCEDURES
FOR THE
NORTH FORK RANCHERIA
OF
MONO INDIANS
TABLE OF CONTENTS
PREAMBLE

1

Sec. 1.0.

Purpose and Objectives.

5

Sec. 2.0.

Definitions.

6

Sec. 3.0.

Scope of Class III Gaming Authorized.

11

Sec. 3.1.

Authorized Class III Gaming.

11

Sec. 4.0.

Authorized Location of Gaming Facility,
Number of Gaming Devices, Cost Reimbursement, and Mitigation.
12

Sec. 4.1.

Authorized Number of Gaming Devices. 12

Sec. 4.2.

Authorized Gaming Facility.

12

Sec. 4.3.

Special Distribution Fund.

12

Sec. 4.3.1. Use of Special Distribution Funds.
Sec. 4.4.

14

Quarterly Payments and Quarterly
Contribution Report.

15

Sec. 4.5.

Exclusivity.

18

Sec. 5.0.

Revenue Sharing With Non-Gaming and
Limited-Gaming Tribes.
19

Sec. 5.1.

Definitions.

19

App. 71
Sec. 5.2.

Payments to the Revenue Sharing Trust
Fund or the Tribal Nation Grant Fund. 21

Sec. 6.0.

Licensing.

23

Sec. 6.1.

Gaming Ordinance and Regulations.

23

Sec. 6.2.

Tribal Ownership, Management, and Control of Gaming Operation.
23

Sec. 6.3.

Prohibitions Regarding Minors.

24

Sec. 6.4.

Licensing Requirements and Procedures.

24

Sec. 6.4.1. Summary of Licensing Principles.

24

Sec. 6.4.2. Gaming Facility.

24

Sec. 6.4.3. Gaming Employees.

28

Sec. 6.4.4. Gaming Resource Suppliers.

30

Sec. 6.4.5. Financial Sources.

33

Sec. 6.4.6. Processing Tribal Gaming License
Applications.

37

Sec. 6.4.7. Suitability Standard Regarding
Gaming Licenses.

38

Sec. 6.4.8. Background Investigations of Applicants.

39

Sec. 6.4.9. Temporary Licensing of Gaming
Employees.

41

Sec. 6.5.0. Tribal Gaming License Issuance.

42

Sec. 6.5.1. Denial, Suspension, or Revocation of
Licenses.

42

Sec. 6.5.2. Renewal of Licenses; Extensions;
Further Investigation.

43

App. 72
Sec. 6.5.3. Identification Cards.

43

Sec. 6.5.4. Fees for Tribal Gaming License.

44

Sec. 6.5.5. Suspension of Tribal Gaming License.

44

Sec. 6.5.6. State Determination of Suitability
Process.

44

Sec. 6.6.

Submission of New Application.

47

Sec. 7.0.

Approval and Testing of Gaming
Devices.

48

Sec. 7.1.

Gaming Device Approval.

48

Sec. 7.2.

Gaming Test Laboratory Selection.

49

Sec. 7.3.

Maintenance of Records of Testing
Compliance.

49

Sec. 7.4.

State Gaming Agency Inspections.

50

Sec. 7.5.

Technical Standards.

51

Sec. 7.6.

Transportation of Gaming Devices.

51

Sec. 8.0.

Inspections.

52

Sec. 8.1.

Investigation and Sanctions.

52

Sec. 8.2.

Assistance by State Gaming Agency.

52

Sec. 8.3.

Access to Premises by State Gaming
Agency; Notification; Inspections.

53

Inspection, Copying and Confidentiality
of Documents.

53

Sec. 8.5.

NIGC Audit Reports.

56

Sec. 8.6.

Cooperation with Tribal Gaming
Agency.

56

Secretarial Procedures Compliance
Review.

56

Sec. 8.4.

Sec. 8.7.

App. 73
Sec. 9.0.

Rules and Regulations for the Operation
and Management of the Gaming
Operation and Facility.
57

Sec. 9.1.

Adoption of Regulations for Operation
and Management; Minimum Standards.

57

Sec. 9.1.1. Minimum Internal Control Standards
(MICS).

60

Sec. 9.2.

Program to Mitigate Problem Gambling.

63

Sec. 9.3.

Enforcement of Regulations.

64

Sec. 9.4.

State Civil and Criminal Jurisdiction.

64

Sec. 9.5.

Tribal Gaming Agency Members.

64

Sec. 9.6.

Uniform Tribal Gaming Regulations.

67

Sec. 10.0. Patron Disputes.

69

Sec. 11.0. Off-Reservation Environmental and
Economic Impacts.

71

Sec. 11.1. Tribal Environmental Impact Report.

71

Sec. 11.2. Notice of Preparation of Draft TEIR.

73

Sec. 11.3. Notice of Completion of Draft TEIR.

74

Sec. 11.4. Issuance of Final TEIR.

75

Sec. 11.5. Cost Reimbursement to County.

75

Sec. 11.6. Failure to Prepare Adequate TEIR.

76

Sec. 11.7. Intergovernmental Agreement.

76

Sec. 11.8. Arbitration.

78

Sec. 11.9. State Designated Agency Review.

79

Sec. 12.0. Public and Workplace Health, Safety,
and Liability.

81

Sec. 12.1. General Requirements.

81

App. 74
Sec. 12.2. Tobacco Smoke.

81

Sec. 12.3. Health and Safety Standards.

81

Sec. 12.4. Tribal Gaming Facility Standards
Ordinance.

88

Sec. 12.5. Insurance Coverage and Claims.

89

Sec. 12.6. Participation in State Programs
Related to Employment.

92

Sec. 12.7. Emergency Services Accessibility.

95

Sec. 12.8. Alcoholic Beverage Service.

95

Sec. 12.9. Possession of Firearms.

95

Sec. 12.10. Labor Relations.

95

Sec. 13.0. Dispute Resolution Provisions.

95

Sec. 13.1. Voluntary Resolution; Court Resolution.

95

Sec. 13.2. Arbitration Rules for the Tribe and the
State
97
Sec. 13.3. No Waiver or Preclusion of Other
Means of Dispute Resolution.

97

Sec. 13.4. Limited Waiver of Sovereign Immunity. 98
Sec. 14.0. Effective Date and Term of Secretarial
Procedures

99

Sec. 14.1. Effective Date.

99

Sec. 14.2. Term of Secretarial Procedures;
Termination.

99

Sec. 15.0. Amendments; Renegotiations.

100

Sec. 15.1. Amendment by Agreement.

100

Sec. 15.2. Negotiations for a New Secretarial
Procedures.

100

App. 75
Sec. 15.3

Requests to Negotiate a New Compact. 100

Sec. 16.0. Notices.

101

Sec. 17.0. Changes to IGRA.

101

Sec. 18.0. Miscellaneous.

101

Sec. 18.1. Third Party Beneficiaries.

101

Sec. 18.2. Complete Agreement.

101

Sec. 18.3. Construction.

102

Sec. 18.4. Successor Provisions.

102

Sec. 18.5. Ordinances and Regulations.

102

Sec. 18.6. Calculation of Time.

102

Sec. 18.7. Representations.

102

APPENDICES
A.
B.
C.

Description and Map of the Madera
Parcel

A-1

Off-Reservation Environmental Impact
Analysis Checklist

B-1

Tribal Labor Relations Ordinance

C-1

[1] CLASS III GAMING PROCEDURES
FOR THE NORTH FORK RANCHERIA
OF MONO INDIANS
PREAMBLE
In 1988, Congress enacted the Indian Gaming
Regulatory Act of 1988 (P. L. 100-497, codified at 25
U.S.C. Sec. 2701-2721,) (hereafter “IGRA”) as the federal statute governing Indian gaming in the United

App. 76
States. The purposes of IGRA are to provide a statutory basis for the operation of gaming by Indian tribes
as a means of promoting tribal economic development,
self-sufficiency, and strong tribal governments; to provide a statutory basis for regulation of Indian gaming
adequate to shield it from organized crime and other
corrupting influences; to ensure that the Indian tribe
is the primary beneficiary of the gaming operation; to
ensure that gaming is conducted fairly and honestly by
both the operator and players; and to declare that the
establishment of an independent federal regulatory
authority for gaming on Indian lands, federal standards for gaming on Indian lands, and a National Indian
Gaming Commission are necessary to meet congressional concerns.
The system of regulation of Indian gaming fashioned by Congress in IGRA rests on an allocation of
regulatory jurisdiction among the three sovereigns involved: the federal government, the state in which a
tribe has land, and the tribe itself IGRA makes Class
III gaming activities lawful on the lands of federallyrecognized Indian tribes only if such activities are: (1)
authorized by a tribal ordinance, (2) located in a state
that permits such gaming for any purpose by any person, organization or entity, and (3) conducted in conformity with a gaming compact entered into between
the Indian tribe and the state and approved by the Secretary of the Interior or, alternatively, in conformity
with Class III gaming procedures issued by the Secretary pursuant to the remedial provisions of IGRA, 25
U.S.C. Sec. 2710 (d)(7).

App. 77
The Secretary, as requested by the mediator appointed by the United States District Court for the
Eastern District of California in North Fork Rancheria
of Mono Indians v. California, Case No. 1:15-cv-00419AWI-SAB, and as mandated by IGRA, 25 U.S.C. § 2710
(d)(7)(B)(vii), and in consultation with the North Fork
Rancheria of Mono Indians of California (“Tribe”), a
federally recognized Indian tribe, hereby promulgates
these Class III gaming Secretarial Procedures (“Secretarial Procedures”).
[2] SECTION 1.0. PURPOSES AND OBJECTIVES.
The terms of these Secretarial Procedures are designed and intended to:
(a) Enhance and implement a means of regulating Class III Gaming to ensure its fair and
honest operation in a way that protects the interests of the Tribe, the State, its citizens, and
local communities in accordance with IGRA,
and through that regulated Class III Gaming,
enable the Tribe to develop self-sufficiency,
promote tribal economic development, and
generate jobs and revenues to support the
Tribe’s government and its governmental services and programs.
(b) Promote ethical practices in conjunction with
Class III Gaming, through the licensing and
control of persons and entities employed in, or
providing goods and services to, the Gaming
Operation, protect against the presence or
participation of persons whose criminal

App. 78
backgrounds, reputations, character, or associations make them unsuitable for participation in gaming, thereby maintaining a high
level of integrity in tribal government gaming,
and protect the patrons and employees of the
Gaming Operation and the local communities.
(c) Achieve the objectives set forth in the preamble.
SECTION 2.0. DEFINITIONS.
Sec. 2.1. “Applicable Codes” means the California
Building Code and the California Public Safety Code
applicable to the County, as set forth in titles 19 and
24 of the California Code of Regulations, as those regulations may be amended during the term of these Secretarial Procedures, including, but not limited to, codes
for building, electrical, energy, mechanical, plumbing,
fire and safety. Nothing in this Section 2.1 shall be interpreted to grant the State of California (State) or any
of its political subdivisions, their agents, employees, or
assigns, any authority to enforce the California Code
of Regulations on the Indian lands of the Tribe. Additionally, nothing in this section shall be interpreted as
waiver of the Tribe’s sovereign immunity as to the
State or any other person, organization, or entity, for
purposes of any claims whatsoever against the Tribe.
[3] Sec. 2.2. “Applicant” means an individual or
entity that applies for a tribal gaming license or for a
State Gaming Agency determination of suitability.

App. 79
Sec. 2.3. “Association” means an association of
California tribal and state gaming regulators, the
membership of which comprises up to two (2) representatives from each tribal gaming agency of those
tribes with whom the State has a gaming compact under IGRA, and up to two (2) delegates each from the
state Department of Justice, Bureau of Gambling Control and the California Gambling Control Commission.
Sec. 2.4. “Class III Gaming” means the forms of
class III gaming defined as such in 25 U.S.C. § 2703(8)
and by regulations of the National Indian Gaming
Commission.
Sec. 2.5. “Commission” means the California
Gambling Control Commission, or any successor
agency of the State.
Sec. 2.6. “County” means the County of Madera,
California, a political subdivision of the State.
Sec. 2.7. “County MOU” means the Memorandum
of Understanding entered into between the Tribe and
the County on August 16, 2004.
Sec. 2.8. “Financial Source” means any person or
entity who, directly or indirectly, extends financing to
the Gaming Facility or Gaming Operation.
Sec. 2.9. “Gaming Activity” or “Gaming Activities”
means the Class III Gaming activities authorized under these procedures.
Sec. 2.10. “Gaming Device” means any slot machine within the meaning of article IV, section 19,

App. 80
subdivision (f ) of the California Constitution. For purposes of calculating the number of Gaming Devices,
each player station or terminal on which a game is
played constitutes a separate Gaming Device, irrespective of whether it is part of an interconnected system
to such terminals or stations. “Gaming Device” includes, but is not limited to, video poker, but does not
include electronic, computer, or other technological
aids that qualify as class II gaming (as defined under
IGRA).
[4] Sec. 2.11. “Gaming Employee” means any natural person who (a) conducts, operates, maintains, repairs, accounts for, or assists in any Gaming Activities,
or is in any way responsible for supervising such Gaming Activities or persons who conduct, operate, maintain, repair, account for, assist, or supervise any such
Gaming Activities, (b) is in a category under federal or
tribal gaming law requiring licensing, (c) is an employee of the Tribal Gaming Agency with access to confidential information, or (d) is a person whose
employment duties require or authorize access to areas of the Gaming Facility in which any activities related to Gaming Activities are conducted but that are
not open to the public.
Sec. 2.12. “Gaming Facility” or “Facility” means
any building in which Gaming Activities or any Gaming Operations occur, or in which the equipment, Gaming Devices, business records, receipts, or funds of the
Gaming Operation are maintained (excluding offsite
facilities primarily dedicated to storage of those records and financial institutions),.Nothing herein shall

App. 81
be construed in a manner that (a) does not directly relate to the operation of Gaming Activities or (b) prevents the conduct of class II gaming (as defined under
IGRA) therein.
Sec. 2.13. “Gaming Operation” means the business enterprise that offers and operates Gaming Activities, whether exclusively or otherwise.
Sec. 2.14. “Gaming Ordinance” means a tribal ordinance or resolution duly authorizing the conduct of
Gaming Activities on the Tribe’s Indian lands in California and approved under IGRA.
Sec. 2.15. “Gaming Resources” means any goods
or services provided or used in connection with Gaming Activities, whether exclusively or otherwise, including, but not limited to, equipment, furniture,
Gaming Devices and ancillary equipment, implements
of Gaming Activities such as playing cards, furniture
designed primarily for Gaming Activities, maintenance or security equipment and services, and Class
III Gaming consulting services. “Gaming Resources”
does not include professional accounting and legal services.
Sec. 2.16. “Gaming Resource Supplier” means any
person or entity who, directly or indirectly, does, or is
deemed likely to, manufacture, distribute, supply,
vend, lease, purvey, or otherwise provide, to the Gaming Operation or Gaming Facility at least twenty-five
thousand dollars ($25,000) in Gaming Resources in
any twelve (12)-month period, or who, directly or indirectly, receives, or is deemed likely to receive, in

App. 82
connection with the Gaming Operation or Gaming Facility, at least twenty-five thousand dollars ($25,000) in
any consecutive twelve (12)-month [5] period, provided
that the Tribal Gaming Agency may exclude a purveyor of equipment or furniture that is not specifically
designed for, and is distributed generally for use other
than in connection with, Gaming Activities, if, but for
the purveyance, the purveyor is not otherwise a Gaming Resource Supplier as described herein, the compensation received by the purveyor is not grossly
disproportionate to the value of the goods or services
provided, and the purveyor is not otherwise a person
who exercises a significant influence over the Gaming
Operation.
Sec. 2.17. “Gross Gaming Revenue” means the
win from Gaming Activities, which is the difference between gaming wins and losses before deducting costs
and expenses or deducting incentives or adjusting for
changes in progressive jackpot liability accruals. Generally, the difference between patron wagers and the
payouts made on winning wagers.
Sec. 2.18. “IGRA” means the Indian Gaming Regulatory Act of 1988 (P. L. 100-497, codified at 25 U.S.C.
Sec. 2701-2721), and any amendments thereto, as interpreted by all regulations promulgated thereunder.
Sec. 2.19. “Interested Persons” means (a) all local,
state, and federal agencies, which, if a Project were not
taking place on Indian lands, would have responsibility for approving the Project or would exercise authority over the natural resources that may be affected by

App. 83
the Project, (b) any incorporated city in Madera
County, and (c) persons, groups, or agencies that request in writing a notice of preparation of a draft tribal
environmental impact report described in section 11.0,
or have commented on the Project in writing to the
Tribe or the County.
Sec. 2.20. “Madera Parcel” means the approximately three hundred five (305) acres of Indian lands
held in trust by the United States government for the
Tribe in Madera County, California, as legally described in the Federal Register notice (77 Fed. Reg.
71611-12 (Dec. 3, 2012)) and represented on the map
at Appendix A hereto.
Sec. 2.21. “Management Contractor” means any
Gaming Resource Supplier with whom the Tribe has
contracted for the management of any Gaming Activity
or Gaming Facility, including, but not limited to, any
person who would be regarded as a management contractor under IGRA.
Sec. 2.22. “NIGC” means the National Indian
Gaming Commission.
[6] Sec. 2.23. “Preferred Alternative” means the
construction of the Tribe’s initial Gaming Facility,
whether constructed singularly or in phases, identified
as Alternative A in the final environmental impact
statement prepared by the Bureau of Indian Affairs of
the United States Department of the Interior pursuant
to the National Environmental Policy Act of 1969 for
the acquisition of 305.49 acres of land located in
Madera County, California, in trust for the Tribe for a

App. 84
casino and hotel project, noticed on August 6, 2010 (75
Fed. Reg. 47621-22), together with Attachment II to the
Record of Decision approving the proposed action on
November 26, 2012, and noticed on December 3, 2012
(77 Fed. Reg. 71611-12).
Sec. 2.24. “Procedures” means these Secretarial
Class III Gaming Procedures.
Sec. 2.25. “Project” means any activity on the reservation directly related to the operation of Gaming
Activities or the Gaming Operation that may cause a
Significant Effect on the Off-Reservation Environment, including (a) the construction of a new Gaming
Facility, or (b) the renovation, expansion or modification of an existing Gaming Facility. For purposes of this
definition, section 11.0, and Appendix B, “reservation”
refers to the Madera Parcel.
Sec. 2.26. “Significant Effect(s) on the Off-Reservation Environment” is the same as “Significant Effect(s) on the Environment” and occur(s) if any of the
following conditions exist:
(a) A proposed Project has the potential to degrade the quality of the off-reservation environment, curtail the range of the environment, or
achieve short-term, to the disadvantage of
long-term, environmental goals.
(b) The possible effects of a Project on the offreservation environment are individually limited but cumulatively considerable. As used
herein, “cumulatively considerable” means
that the incremental effects of an individual

App. 85
Project are considerable when viewed in connection with the effects of past projects, the
effects of other current projects, and the effects of probable future projects.
(c) The off-reservation environmental effects of a
Project will cause substantial adverse effects
on human beings, either directly or indirectly.
[7] For purposes of this definition, “reservation” refers
to the Madera Parcel.
Sec. 2.27. “State” means the State of California or
an authorized official or agency thereof designated by
these Secretarial Procedures or by the Governor.
Sec. 2.28. “State Gaming Agency” means the entities authorized to investigate, approve, regulate and license gaming pursuant to the Gambling Control Act
(California Business and Professions Code, division 8,
chapter 5 (section 19800 et seq.), or any successor statutory scheme, and any entity or entities in which that
authority may hereafter be vested.
Sec. 2.29. “State Designated Agency” means the
entity or entities designated or to be designated by the
Governor to exercise rights and fulfill responsibilities
established by these Secretarial Procedures, but only
if the State agrees to do so under the provisions of Section 8.2, below.
Sec. 2.30. “Tribe” means the North Fork Rancheria
of Mono Indians, a federally recognized Indian tribe
listed in the Federal Register as the Northfork

App. 86
Rancheria of Mono Indians of California, or an authorized official or agency thereof.
Sec. 2.31. “Tribal Chair” or “Tribal Chairperson”
means the person duly elected or selected under the
Tribe’s constitution or governing documents to perform the duties specified therein, including serving as
the Tribe’s official representative.
Sec. 2.32. “Tribal Gaming Agency” means the person, agency, board, committee, commission, or council
designated under tribal law, including, but not limited
to, an intertribal gaming regulatory agency approved
to fulfill those functions by the NIGC, primarily responsible for carrying out the Tribe’s regulatory responsibilities under IGRA and the Tribe’s Gaming
Ordinance. No person employed in, or in connection
with, the management, supervision, or conduct of any
Gaming Activity may be a member or employee of the
Tribal Gaming Agency.
SECTION 3.0. SCOPE OF CLASS III GAMING
AUTHORIZED.
Sec. 3.1. Authorized Class III Gaming.
[8] (a) The Tribe is hereby authorized and permitted to operate only the following Gaming
Activities under the terms and conditions set
forth in these Secretarial Procedures:
(1) Gaming Devices.
(2) Any banking or percentage card games.

App. 87
(3) Any devices or games that are authorized
under state law to the California State
Lottery, provided that the Tribe will not
offer such games through use of the Internet unless others in the state not affiliated with or licensed by the California
State Lottery are permitted to do so under state and federal law.
(b) Nothing herein shall be construed to preclude
the Tribe from offering class II gaming or preclude the negotiation of a separate compact
governing the conduct of off-track wagering at
the Tribe’s Gaming Facility.
(c) Nothing herein shall be construed to authorize or permit the operation of any Class III
Gaming that the State lacks the power to authorize or permit under article IV, section 19,
subdivision (f ), of the California State Constitution.
(d) The Tribe shall not engage in Class III Gaming that is not expressly authorized in these
Secretarial Procedures.
SECTION 4.0. AUTHORIZED LOCATION OF
GAMING FACILITY, NUMBER OF GAMING DEVICES, COST REIMBURSEMENT, AND MITIGATION.
Sec. 4.1. Authorized Number of Gaming Devices.
(a) Pursuant to the conditions set forth in section
3.1 and sections 4.2 through and including
section 5.2, the Tribe is entitled to operate up
to a total of two thousand (2,000) Gaming

App. 88
Devices during the first two (2) years in which
Gaming Activities occur, and thereafter the
Tribe is entitled to operate up to a total of two
thousand five hundred (2,500) Gaming Devices.
[9] (b) The Tribe may request that the Secretary
consider increasing the authorized number of
Gaming Devices that the Tribe is entitled to
operate under these Secretarial Procedures,
provided that such request is made any time
after the first seven (7) years in which Gaming Activities occur. The Secretary is not obligated to accept a request by the Tribe to
reopen negotiations under this subdivision (b)
unless the State has authorized another federally recognized Indian tribe to operate in excess of two thousand five hundred (2,500)
Gaming Devices at any location within a sixty
(60)-mile radius of the Madera Parcel, in
which case the Secretary shall consider but
not be required to accept the Tribe’s request
under this subdivision (b) and the Secretary
may address other issues to negotiate related
to the proposed increase in the number of
Gaming Devices.
Sec. 4.2. Authorized Gaming Facility.
The Tribe may establish and operate not more
than two (2) Gaming Facilities and engage in Class III
Gaming only on eligible Indian lands held in trust
for the Tribe, located within the boundaries of the
Madera Parcel, as those boundaries exist as of the execution date of these Secretarial Procedures, as legally

App. 89
described in and represented on the map at Appendix
A, and on which Class III Gaming may lawfully be conducted under IGRA.
Sec. 4.3. Special Distribution Fund.
(a) The Tribe shall pay to the State on a pro rata basis
the State’s 25 U.S.C. § 2710(d)(3)(C) costs incurred
for purposes consistent with IGRA, including the
performance of all its duties under these Secretarial Procedures and funding for the Office of Problem Gambling, as determined by the monies
appropriated in the annual Budget Act each fiscal
year to carry out those purposes (“Appropriation”).
The Appropriation and the maximum number of
Gaming Devices operated by all federally recognized tribes in California pursuant to tribal-state
gaming compacts in operation during the previous
State fiscal year shall be reported annually by
the State Gaming Agency to the Tribe on December 15. The term “operated” or “operation” as used
in these Secretarial Procedures in relation to
Gaming Devices describes each and every Gaming
Device available to patrons (including slot contestants) for play at any given time. For purposes
of this section 4.3, “tribal-state gaming compacts”
refers to tribal-state class III gaming compacts under IGRA and procedures prescribed by the Secretary pursuant to 25 U.S.C. § [10] 2710(d)(7)(B)(vii)
of IGRA for which the State has assumed regulatory responsibilities for the conduct of Class III
Gaining. The Tribe’s pro rata share of the State’s
25 U.S.C. § 2710(d)(3)(C) regulatory costs in any
given year these Secretarial Procedures are in effect shall be calculated by the following equation:

App. 90
The maximum number of Gaming Devices operated in the Tribe’s Gaming Facility during
the previous State fiscal year as determined
by the State Gaming Agency, divided by the
maximum number of Gaming Devices operated by all federally recognized tribes in
California pursuant to tribal-state gaming
compacts during the previous State fiscal
year, multiplied by the Appropriation, equals
the Tribe’s pro rata share.
(1) Beginning the first full quarter after Class III
Gaming commences under these Secretarial
Procedures, the Tribe shall pay its pro rata
share to the State Gaining Agency for deposit
into the Indian Gaming Special Distribution
Fund established by the Legislature (Special
Distribution Fund). The payment shall be
made in four (4) equal quarterly installments
due on the thirtieth (30th) day following the
end of each calendar quarter, (i.e., by April 30
for the first quarter, July 30 for the second
quarter, October 30 for the third quarter, and
January 30 for the fourth quarter); provided,
however, that in the event these Secretarial
Procedures becomes effective during a calendar quarter, payment shall be prorated for the
number of days remaining in that initial quarter, in addition to any remaining full quarters
in the first calendar year of operation to obtain a full year of full quarterly payments of
the Tribe’s pro rata share specified above. A
payment year will run from January through
December. If any portion of the Tribe’s quarterly pro rata share payment is overdue, the
Tribe shall pay to the State for purposes of

App. 91
deposit into the Special Distribution Fund,
the amount overdue plus interest accrued
thereon at the rate of one percent (1%) per
month or the maximum rate permitted by
state law for delinquent payments owed to the
State, whichever is less. All quarterly payments shall be accompanied by the Quarterly
Contribution Report specified in section 4.5,
subdivision (b).
(2) If the Tribe objects to the State’s determination of the Tribe’s pro rata share, or to the
amount of the Appropriation as including
matters not consistent with IGRA, the matter
shall be [11] resolved in accordance with the
dispute resolution provisions of section 13.0.
Any State determination of the Tribe’s pro
rata share challenged by the Tribe shall govern and must be paid by the Tribe to the State
when due.
(3) The foregoing payments have been negotiated
between the State and the Tribe as a fair and
reasonable contribution, based upon the
State’s costs of regulating and mitigating certain impacts of tribal Class III Gaming Activities, as well as the Tribe’s market conditions,
its circumstances, and the rights afforded and
consideration provided by these Secretarial
Procedures.

App. 92
Sec. 4.3.1. Use of Special Distribution Funds.
Revenue placed in the Special Distribution Fund
shall be available for appropriation by the Legislature
for the following purposes:
(a) Grants, including any administrative costs,
for programs designed to address and treat
gambling addiction;
(b) Grants, including any administrative costs
and environmental review costs, for the support of State and local government agencies
impacted by tribal government gaming;
(c) Compensation for regulatory costs incurred
by the State in connection with the implementation and administration of Class III Gaming
compacts in California; and
(d) Any other purposes specified by the Legislature that are consistent with IGRA.
Sec. 4.4. Quarterly Payments and Quarterly
Contribution Report.
(a) (1) The Tribe shall remit quarterly to the
State Gaming Agency (i) the payments
described in section 4.3, for deposit into
the Special Distribution Fund and (ii) the
payments described in section 5.2, for deposit into the Revenue Sharing Trust
Fund or the Tribal Nation Grant Fund.
[12] (2)
If the Gaming Activities authorized by these Secretarial Procedures commence during a calendar quarter, the first

App. 93
payment shall be due on the thirtieth
(30th) day following the end of the first
full quarter of the Gaming Activities and
shall cover the period from the commencement of the Gaming Activities to
the end of the first full calendar quarter.
(3) All quarterly payments shall be accompanied by the certification specified in subdivision (b).
(b) At the time each quarterly payment is due, regardless of whether any monies are owed, the
Tribe shall submit to the State Gaming
Agency a certification (the “Quarterly Contribution Report”) that specifies the following:
(1) calculation of the maximum number of
Gaming Devices operated in the Gaming
Facility for each day during the given
quarter;
(2) the Gross Gaming Revenue calculation
reflecting the quarterly Gross Gaming
Revenue from the operation of all Gaming
Devices in the Facility;
(3) the amount due pursuant to section 4.3;
(4) calculation of the amount due pursuant
to section 5.2; and
(5) the total amount of the quarterly payment paid to the State.
The Quarterly Contribution Report shall be
prepared or attested to by the chief financial
officer of the Gaming Operation.

App. 94
(c) (1) At any time after the fourth quarter, but
in no event later than April 30 of the following calendar year, the Tribe shall provide to the State Gaming Agency an
audited annual certification of its Gross
Gaming Revenue calculation from the operation of Gaming Devices. The audit
shall be conducted in accordance with
generally accepted auditing standards, as
applied to audits for the gaming industry,
by an independent certified public accountant who is not employed by the
Tribe, the Tribal [13] Gaming Agency, the
Management Contractor, or the Gaming
Operation, is only otherwise retained by
any of these entities to conduct regulatory audits or independent audits of the
Gaming Operation, and has no financial
interest in any of these entities. The auditor used by the Tribe for this purpose
shall be approved by the State Gaming
Agency, or other State Designated
Agency, but the State shall not unreasonably withhold its consent.
(2) If the audit shows that the Tribe made an
overpayment from its Gross Gaming Revenue to the State during the year covered
by the audit, the Tribe’s next quarterly
payment may be reduced by the amount
of the overage. If the audit shows that the
Tribe made an underpayment to the
State during the year covered by the audit, the Tribe’s next quarterly payment
shall be increased by the amount of the
underpayment.

App. 95
(3) The State Gaming Agency shall be authorized to confer with the auditor at the
conclusion of the audit process and to review all of the independent certified public accountant’s final work papers and
documentation relating to the audit. The
Tribal Gaming Agency shall be notified of
and provided the opportunity to participate in and attend any such conference or
document review.
(d) The State Gaming Agency may audit the calculations in subdivision (b) and Gross Gaming
Revenue calculations specified in the audit
provided pursuant to subdivision (c). The
State Gaming Agency shall have access to
all records deemed necessary by the State
Gaming Agency to verify the calculations in
subdivision (b) and Gross Gaming Revenue
calculations, including access to the Gaming
Device accounting systems and server-based
systems and software, and to the data contained therein on a read only basis. If the
State Gaming Agency determines that the
Gross Gaming Revenue is understated or the
deductions overstated, it will promptly notify
the Tribe and provide a copy of the audit. The
Tribe within twenty (20) days will either accept the difference or provide reconciliation
satisfactory to the State Gaming Agency. If
the Tribe accepts the difference or does not
provide a reconciliation satisfactory to the
State Gaming Agency, the Tribe must immediately pay the amount of the resulting [14]
deficiency, plus accrued interest thereon at
the rate of one percent (1%) per month or the

App. 96
maximum rate permitted by state law for delinquent payments owed to the State, whichever is less. If the Tribe does not accept the
difference but does not provide a reconciliation satisfactory to the State Gaming Agency,
the Tribe may commence dispute resolution
under section 13.0. The parties expressly
acknowledge that the Quarterly Contribution
Reports provided for in subdivision (b) are
subject to section 8.4, subdivision (h).
(e) Notwithstanding anything to the contrary in
section 13.0, any failure of the Tribe to remit
the payments referenced in subdivision (a), in
a timely manner shall be deemed a material
breach of these Secretarial Procedures.
(f ) If any portion of the payments under subdivision (a) of this section is overdue after the
State Gaming Agency has provided written
notice to the Tribe of the overdue amount with
an opportunity to cure of at least fifteen (15)
business days, and if more than sixty (60) calendar days have passed from the due date,
and the Tribe has not commenced dispute resolution under section 13.0, then the Tribe
shall be deemed to be in material breach of
these Secretarial Procedures.
Sec. 4.5. Exclusivity.
In recognition of the Tribe’s agreement to make
the payments specified in sections 4.3 and 5.2, the
Tribe shall have the following rights:

App. 97
(a) In the event the exclusive right of Indian
tribes to operate Gaming Devices in California is abrogated by the enactment, amendment, or repeal of a State statute or
constitutional provision, or the conclusive and
dispositive judicial construction of a statute or
the State Constitution by a California appellate court after the effective date of these Secretarial Procedures that Gaming Devices may
lawfully be operated by another person, organization, or entity (other than an Indian
tribe) within California, the Tribe shall have
the right to exercise one of the following options:
(1) Terminate these Secretarial Procedures,
in which case the Tribe will lose the right
to operate Gaming Devices and other
Class III Gaming authorized by these
Secretarial Procedures; or
[15] (2)
Continue under these Secretarial
Procedures with an entitlement to a reduction of the rates specified in section
5.2 following the conclusion of negotiations, to provide for: (A) compensation to
the State for the costs of regulation, as set
forth in section 4.3; (B) reasonable payments to local governments impacted by
tribal government gaming, the amount
to be determined based upon any intergovernmental agreement entered into
pursuant to section 11.7; (C) grants for
programs designed to address and treat
gambling addiction; and (D) such assessments as authorized at such time under

App. 98
federal law. The negotiations shall commence within thirty (30) days after receipt of a written request by a party to
enter into negotiations, unless both parties agree in writing to an extension of
time. If the Tribe and the State fail to
reach agreement on the amount of reduction of such payments within sixty (60)
days following commencement of the negotiations specified in this section, the
amount shall be determined by arbitration pursuant to section 13.2.
(b) Nothing in this section is intended to preclude
the California State Lottery from offering any
lottery games or devices that are currently or
may hereafter be authorized by state law.
SECTION 5.0. REVENUE SHARING WITH NONGAMING AND LIMITED-GAMING TRIBES.
Sec. 5.1. Definitions.
For purposes of this section 5.0, the following definitions apply:
(a) The “Revenue Sharing Trust Fund” is a fund
created by the Legislature and administered
by the State Gaming Agency that, as limited
trustee, is not a trustee subject to the duties
and liabilities contained in the California Probate Code, similar state or federal statutes,
rules or regulations, or under state or federal
common law or equitable principles, and has
no duties, responsibilities, or obligations
hereunder except for the receipt, deposit, and

App. 99
distribution of monies paid by gaming tribes
for the benefit of Non-Gaming Tribes and
Limited-Gaming Tribes. The State Gaming
Agency shall allocate and disburse the Revenue Sharing Trust Fund monies on a quarterly basis [16] as specified by the Legislature.
Each eligible Non-Gaming Tribe and LimitedGaming Tribe in the State shall receive the
sum of one million one hundred thousand dollars ($1,100,000) per year from the Revenue
Sharing Trust Fund. In the event there are insufficient monies in the Revenue Sharing
Trust Fund to pay one million one hundred
thousand dollars ($1,100,000) per year to
each eligible Non-Gaming Tribe and LimitedGaming Tribe, any available monies in that
fund shall be distributed to eligible NonGaming Tribes and Limited-Gaming Tribes
in equal shares. Monies deposited into the
Revenue Sharing Trust Fund in excess of the
amount necessary to distribute one million
one hundred thousand dollars ($1,100,000) to
each eligible Non-Gaming Tribe and LimitedGaming Tribe shall remain in the Revenue
Sharing Trust Fund available for disbursement in future years and shall not be diverted
to any non-Revenue Sharing Trust Fund or
any non-Tribal Nation Grant Fund use or any
purpose. In no event shall the State’s general
fund be obligated to make up any shortfall in
the Revenue Sharing Trust Fund or to pay
any unpaid claims connected therewith, and,
notwithstanding any provision of law, including any existing provision of law implementing the State Gaming Agency’s obligations

App. 100
related to the Revenue Sharing Trust Fund
under any Class III Gaming compact, NonGaming Tribes and Limited-Gaming Tribes
are not third-party beneficiaries of these
Secretarial Procedures and shall have no
right to seek any judicial order compelling disbursement of any Revenue Sharing Trust
Fund monies to them.
(b) The “Tribal Nation Grant Fund” is a fund created by the Legislature to make discretionary
distribution of funds to Non-Gaming Tribes
and Limited-Gaming Tribes upon application
of such tribes for purposes related to effective
self-governance, self-determined community,
and economic development. The fiscal operations of the Tribal Nation Grant Fund are administered by the State Gaming Agency,
which acts as a limited trustee, not subject to
the duties and liabilities contained in the California Probate Code, similar state or federal
statutes, rules or regulations, or under state
or federal common law or equitable principles,
and with no duties or obligations hereunder
except for the receipt, deposit, and distribution of monies paid by gaming tribes for the
benefit of Non-Gaming Tribes and LimitedGaming Tribes, as those payments are directed by a State Designated Agency. The
State Gaming Agency shall allocate and disburse the Tribal Nation Grant [17] Fund monies as specified by a State Designated Agency
to one or more eligible Non-Gaming and Limited-Gaming Tribes upon a competitive application basis. The State Gaming Agency shall
exercise no discretion or control over, nor bear

App. 101
any responsibility arising from, the recipient
tribes’ use or disbursement of Tribal Nation
Grant Fund monies. The State Designated
Agency shall perform any necessary audits to
ensure that monies awarded to any tribe are
being used in accordance with their disbursement in relation to the purpose of the Tribal
Nation Grant Fund. In no event shall the
State’s general fund be obligated to pay any
monies into the Tribal Nation Grant Fund or
to pay any unpaid claims connected therewith, and, notwithstanding any provision of
law, including any existing provision of law
implementing the State’s obligations related
to the Tribal Nation Grant Fund or the Revenue Sharing Trust Fund under any Class III
Gaming compact, Non-Gaming Tribes and
Limited-Gaming Tribes are not third-party
beneficiaries of these Secretarial Procedures
and shall have no right to seek any judicial
order compelling disbursement of any Tribal
Nation Grant Fund monies to them.
(c) A “Non-Gaming Tribe” is a federally recognized tribe in California, with or without a
tribal-state Class III Gaming compact, that
has not engaged in, or offered, class II gaming
or Class III Gaming in any location whether
within or without California, as of the date of
distribution to such tribe from the Revenue
Sharing Trust Fund or the Tribal Nation
Grant Fund, or during the immediately preceding three hundred sixty-five (365) days.
(d) A “Limited-Gaming Tribe” is a federally recognized tribe in California that has a Class III

App. 102
Gaming compact with the State but is operating fewer than a combined total of three hundred fifty (350) Gaming Devices in all of its
gaming operations wherever located, or does
not have a Class III Gaming compact but is
engaged in class II gaming, whether within or
without California, during the immediately
preceding three hundred sixty-five (365) days.
Sec. 5.2. Payments to the Revenue Sharing
Trust Fund or the Tribal Nation Grant Fund.
[18] (a) In recognition of the predevelopment expenses incurred by the Tribe, the needs of the
Tribe’s more than 2,000 tribal citizens and the
existence of binding and enforceable agreements with the County, the City of Madera,
and the Madera Irrigation District providing
for mitigation and other investments in the local community, during the first seven (7) years
in which Gaming Activities occur the Tribe
shall have no obligation to pay any amount to
the State Gaming Agency for deposit into the
Revenue Sharing Trust Fund or the Tribal
Nation Grant Fund. After the first seven (7)
years in which Gaming Activities occur, if the
Tribe operates more than three hundred fifty
(350) Gaming Devices at any time in a given
calendar year, it shall pay to the State Gaming Agency, for deposit into the Revenue Sharing Trust Fund or the Tribal Nation Grant
Fund, two percent (2.0%) of its Gross Gaming
Revenue from the operation of Gaming Devices in excess of three hundred fifty (350)
commencing on the first day of the first

App. 103
calendar quarter of the eighth (8th) calendar
year in which Gaming Activities occur. While
the Tribe and the County, the City of Madera,
and the Madera Irrigation District shall have
the discretion to amend their existing agreements to address evolving needs and circumstances in a manner that is mutually
beneficial, the Tribe’s obligation to contribute
to the Revenue Sharing Trust Fund or the
Tribal Nation Grant Fund as specified in this
section shall be subject to renegotiation if the
Tribe’s obligation to make payments to the
County, the City of Madera, or the Madera Irrigation District pursuant to a binding enforceable agreement is no longer in effect.
(b) The Tribe shall remit the payments referenced in subdivision (a) to the State Gaming
Agency in quarterly payments, which payments shall be due thirty (30) days following
the end of each calendar quarter (i.e., by April
30 for the first quarter, July 30 for the second
quarter, October 30 for the third quarter, and
January 30 for the fourth quarter).
(c) The quarterly payments referenced in subdivision (b) required by subdivision (a) and (b),
as appropriate, shall be determined by first
determining the total number of all Gaming
Devices operated by the Tribe during a given
quarter (Quarterly Device Base). The Quarterly Device Base is equal to the sum total of
the maximum number of Gaming Devices in
operation for each day of the calendar quarter
divided by the number of days in the calendar
quarter that the Gaming [19] Operation

App. 104
operates any Gaming Devices during the
given calendar quarter.
(d) If any portion of the payments under subdivision (b) is overdue after the State Gaming
Agency has provided written notice to the
Tribe of the overdue amount with an opportunity to cure of at least fifteen (15) business
days, and if more than sixty (60) calendar
days have passed from the due date, then the
Tribe shall cease operating all of its Gaming
Devices until full payment is made.
(e) All payments made by the Tribe to the State
Gaming Agency pursuant to subdivision (b)
shall be deposited into the Revenue Sharing
Trust Fund and the Tribal Nation Grant Fund
in a proportion to be determined by the Legislature, provided that if there are insufficient
monies in the Revenue Sharing Trust Fund to
pay one million one hundred thousand dollars
($1,100,000) per year to each eligible NonGaming Tribe and Limited-Gaming Tribe, the
State Gaming Agency shall deposit all payments into the Revenue Sharing Trust Fund.
[20] SECTION 6.0. LICENSING.
Sec. 6.1. Gaming Ordinance and Regulations.
(a) All Gaming Activities conducted under these
Secretarial Procedures shall, at a minimum,
comply (i) with a Gaming Ordinance duly
adopted by the Tribe and approved in accordance with IGRA, (ii) with all rules, regulations,
procedures, specifications, and standards duly

App. 105
adopted by the NIGC, the Tribal Gaming
Agency, and the State Gaming Agency, and
(iii) with the provisions of these Secretarial
Procedures.
(b) The Tribal Gaming Agency shall transmit a
copy of the Gaming Ordinance, and all of its
rules, regulations, procedures, specifications,
ordinances, or standards applicable to the
Gaming Activities and Gaming Operation, to
the State Gaming Agency within twenty (20)
days following issuance of these Secretarial
Procedures, or within twenty (20) days following their adoption or amendment, whichever
is later.
(c) The Tribe and the Tribal Gaming Agency
shall make available an electronic or hard
copy of the following documents to any member of the public upon request and in the manner requested: the Gaming Ordinance; the
rules of each Class III game operated by the
Tribe; the Tribe’s constitution or other governing document(s) to the extent they impact the
public in relation to the Gaming Activities or
Gaming Operation; the tort ordinance specified in section 12.5, subdivision (b); the employment discrimination complaint ordinance
specified in section 12.3, subdivision (f ); the
regulations promulgated by the Tribal Gaming Agency concerning patron disputes pursuant to section 10.0; and the NIGC minimum
internal control standards and these Secretarial Procedures, including all appendices
hereto, in the event they are not available on

App. 106
the NIGC’s or the State Gaming Agency’s
website(s).
Sec. 6.2. Tribal Ownership, Management, and
Control of Gaming Operation.
The Gaming Operation authorized under these
Secretarial Procedures shall be owned solely by the
Tribe.
[21] Sec. 6.3. Prohibitions Regarding Minors.
(a) The Tribe shall prohibit persons under the
age of twenty-one (21) years to be present in
any room or area in which Gaming Activities
are being conducted unless the person is en
route to a non-gaming area of the Gaming Facility, or is employed at the Gaming Facility in
a capacity other than as a Gaming Employee.
(b) If the Tribe permits the consumption of alcoholic beverages in the Gaming Facility, the
Tribe shall prohibit persons under the age of
twenty-one (21) years from purchasing, consuming, or possessing alcoholic beverages.
The Tribe shall also prohibit persons under
the age of twenty-one (21) years from being
present in any room or area in which alcoholic
beverages may be consumed, except to the extent permitted by the State Department of Alcoholic Beverage Control for other commercial
establishments serving alcoholic beverages.

App. 107
Sec. 6.4. Licensing Requirements and Procedures.
Sec. 6.4.1. Summary of Licensing Principles.
All persons in any way connected with the Gaming
Operation or Gaming Facility who are required to be
licensed or to submit to a background investigation under IGRA, and any others required to be licensed under
these Secretarial Procedures, including, without limitation, all Gaming Employees, Gaming Resource Suppliers, Financial Sources, and any other person having
a significant influence over the Gaming Operation,
must be licensed by the Tribal Gaming Agency and
cannot have had any determination of suitability denied or revoked by the State Gaming Agency. The parties intend that the licensing process provided for in
these Secretarial Procedures shall involve joint cooperation between the Tribal Gaming Agency and the
State Gaming Agency, as more particularly described
herein.
Sec. 6.4.2. Gaming Facility.
(a) The Gaming Facility authorized by these Secretarial Procedures shall be licensed by the
Tribal Gaming Agency in conformity with the
[22] requirements of these Secretarial Procedures, the Tribe’s Gaming Ordinance, IGRA,
and any applicable regulations adopted by the
NIGC. The license shall be reviewed and renewed every two (2) years thereafter. Verification that this requirement has been met shall
be provided by the Tribe to the State by

App. 108
sending a copy of the initial license and each
renewal license to the State Gaming Agency
within twenty (20) days after issuance of
the license or renewal. The Tribal Gaming
Agency’s certification that the Gaming Facility is being operated in conformity with these
requirements shall be posted in a conspicuous
and public place in the Gaming Facility at all
times.
(b) To assure the protection of the health and
safety of all Gaming Facility patrons, guests,
and employees, the Tribe shall adopt, or has
already adopted, and shall maintain throughout the term of these Secretarial Procedures,
an ordinance that requires any Gaming Facility construction to meet or exceed the Applicable Codes. The Gaming Facility and
construction, expansion, improvement, modification, or renovation will also comply with
the federal Americans with Disabilities Act, P.
L. 101-336, as amended, 42 U.S.C. § 12101 et
seq. Notwithstanding the foregoing, the Tribe
need not comply with any standard that specifically applies in name or in fact only to
tribal facilities. Without limiting the rights
of the State under this section, reference to
Applicable Codes is not intended to confer jurisdiction upon the State or its political subdivisions. For purposes of this section, the
terms “building official” and “code enforcement agency” as used in titles 19 and 24 of the
California Code of Regulations mean the
Tribal Gaming Agency or such other tribal
government agency or official as may be designated by the Tribe’s law.

App. 109
(c) To assure compliance with the Applicable
Codes, in all cases where those codes would
otherwise require a permit, the Tribe shall
employ for any Gaming Facility construction
qualified plan checkers or review firms. To be
qualified as a plan checker or review firm for
purposes of these Secretarial Procedures, plan
checkers or review firms must be either California licensed architects or engineers with
relevant experience, or California licensed architects or engineers on the list, if any, of approved plan checkers or review firms provided
by the city or county in which the Gaming Facility is located. The Tribe shall also employ
qualified project inspectors. To be qualified
as a project inspector for purposes of these
Secretarial Procedures, project [23] inspectors
must possess the same qualifications and certifications as project inspectors utilized by the
county in which the Gaming Facility is located. The plan checkers, review firms, and
project inspectors shall hereinafter be referred to as “Inspector(s).” The Tribe shall require the Inspectors to report in writing any
failure to comply with the Applicable Codes to
the Tribal Gaming Agency and the State
Gaming Agency.
(d) The Tribe shall cause the design and construction calculations, and plans and specifications that form the basis for the
construction (the “Design and Building
Plans”) to be available to the State Gaming
Agency for inspection and copying by the
State Gaming Agency upon its request.

App. 110
(e) In the event that material changes to a structural detail of the Design and Building Plans
will result from contract change orders or any
other changes in the Design and Building
Plans, such changes shall be reviewed by the
qualified plan checker or review firm and field
verified by the Inspectors for compliance with
the Applicable Codes.
(f ) The Tribe shall maintain during construction
all other contract change orders for inspection
and copying by the State Gaming Agency
upon its request.
(g) The Tribe shall maintain the Design and
Building Plans depicting the as-built Gaming
Facility, which shall be available to the State
Gaming Agency for inspection and copying by
the State Gaming Agency upon its request, for
the term of these Secretarial Procedures.
(h) Upon final certification by the Inspectors that
the Gaming Facility meets the Applicable
Codes, the Tribal Gaming Agency shall forward the Inspectors’ certification to the State
Gaming Agency within ten (10) days of issuance. If the State Gaming Agency objects to
that certification, the Tribe shall make a good
faith effort to address the State’s concerns,
but if the State Gaming Agency does not withdraw its objection, the matter will be resolved
in accordance with the dispute resolution provisions of section 13.0.
(i)

Any failure to remedy within a reasonable period of time any material and timely raised
deficiency shall be deemed a violation of these

App. 111
[24] Secretarial Procedures, and furthermore,
any deficiency that poses a serious or significant risk to the health or safety of any occupant shall be grounds for the State Gaming
Agency to prohibit occupancy of the affected
portion of the Gaming Facility pursuant to a
court order until the deficiency is corrected.
The Tribe shall not allow occupancy of any
portion of the Gaining Facility that is constructed or maintained in a manner that endangers the health or safety of the occupants.
(j)

The Tribe shall also take all necessary steps
to reasonably ensure the ongoing availability
of sufficient and qualified fire suppression services to the Gaming Facility, and to reasonably ensure that the Gaming Facility satisfies
all requirements of titles 19 and 24 of the California Code of Regulations applicable to similar facilities in the County as set forth
below:
(1) Not less than thirty (30) days before the
commencement of the Gaining Activities,
and not less than biennially thereafter,
and upon at least ten (10) days’ notice to
the State Gaming Agency, the Gaming
Facility shall be inspected, at the Tribe’s
expense, by an independent expert for
purposes of certifying that the Gaming
Facility meets a reasonable standard of
fire safety and life safety.
(2) The State Gaming Agency shall be entitled to designate and have a qualified
representative or representatives, which

App. 112
may include local fire suppression entities, present during the inspection. During
such inspection, the State’s representative(s) shall specify to the independent
expert any condition which the representative(s) reasonably believes would
preclude certification of the Gaming Facility as meeting a reasonable standard of
fire safety and life safety.
(3) The independent expert shall issue to the
Tribal Gaming Agency and the State
Gaming Agency a report on the inspection
within fifteen (15) days after its completion, or within thirty (30) days after commencement of the inspection, whichever
first occurs, identifying any deficiency in
fire safety or life safety at the Gaming Facility or in the ability of the Tribe to meet
reasonably expected fire suppression
needs of the Gaming Facility.
[25] (4)
Within twenty-one (21) days after
the issuance of the report, the independent expert shall also require and approve
a specific plan for correcting deficiencies,
whether in fire safety or life safety, at the
Gaming Facility or in the Tribe’s ability
to meet the reasonably expected fire suppression needs of the Gaming Facility, including those identified by the State
Gaming Agency’s representatives. A copy
of the report shall be delivered to the
State Gaming Agency and the Tribal
Gaming Agency.

App. 113
(5) Immediately upon correction of all deficiencies identified in the report, the independent expert shall certify in writing to
the Tribal Gaming Agency and the State
Gaming Agency that all deficiencies have
been corrected.
(6) Any failure to correct all deficiencies
identified in the report within a reasonable period of time shall be a violation of
these Secretarial Procedures and any
failure to promptly correct those deficiencies that pose a serious or significant risk
to the health or safety of any occupants
shall be a violation of these Secretarial
Procedures and grounds for the State
Gaming Agency to request that the NIGC
prohibit occupancy of the affected portion
of the Gaming Facility until the deficiency is corrected.
(7) Consistent with its obligation to ensure
the safety of those within the Gaming Facility, the Tribe shall promptly notify the
State Gaming Agency of circumstances
that pose a serious and significant risk to
the health or safety of occupants and take
prompt action to correct such circumstances. Any failure to remedy within a
reasonable period of time any serious and
significant risk to public safety shall be
deemed a violation of this these Secretarial Procedures, and furthermore, any circumstance that poses a serious or
significant risk to the health or safety of
any occupant shall be grounds for the

App. 114
State Gaming Agency to prohibit occupancy of the affected portion of the Gaming Facility pursuant to a court order
until the deficiency is corrected.
[26] Sec. 6.4.3. Gaming Employees.
(a) Every Gaming Employee shall obtain, and
thereafter maintain current, a valid tribal
gaming license, and except as provided in
subdivision (b), shall obtain, and thereafter
maintain current, a State Gaming Agency determination of suitability, which license and
determination shall be subject to biennial renewal; provided that in accordance with section 6.4.9, those persons may be employed on
a temporary or conditional basis pending completion of the licensing process and the State
Gaming Agency determination of suitability.
(b) A Gaming Employee who is required to obtain
and maintain current a valid tribal gaming license under subdivision (a) is not required to
obtain or maintain a State Gaming Agency
determination of suitability if any of the following applies:
(1) The employee is subject to the licensing
requirement of subdivision (a) solely because he or she is a person who conducts,
operates, maintains, repairs, or assists in
Gaming Activities, provided that this exception shall not apply if he or she supervises Gaming Activities or persons who
conduct, operate, maintain, repair, assist,
account for or supervise any such Gaming

App. 115
Activity, and is empowered to make discretionary decisions affecting the conduct
of the Gaming Activities.
(2) The employee is subject to the licensing
requirement of subdivision (a) solely because he or she is a person whose employment duties require or authorize access to
areas of the Gaming Facility that are not
open to the public, provided that this exception shall not apply if he or she supervises Gaming Activities or persons who
conduct, operate, maintain, repair, assist,
account for or supervise any such Gaming
Activity, and is empowered to make discretionary decisions affecting the conduct
of the Gaming Activities.
(3) The State Gaming Agency, in consultation with the Tribal Gaming Agency, exempts the Gaming Employee from the
requirement to obtain or maintain current a State Gaming Agency determination of suitability.
[27] (c) Notwithstanding subdivision (b), where
the State Gaming Agency determines it is reasonably necessary, the State Gaming Agency
is authorized to review the tribal license application, and all materials and information
received by the Tribal Gaming Agency in connection therewith, for any person whom the
Tribal Gaming Agency has licensed, or proposes to license, as a Gaming Employee. If the
State Gaming Agency determines that the
person would be unsuitable for issuance of a

App. 116
license or permit for a similar level of employment in a gambling establishment subject to
the jurisdiction of the State, it shall notify the
Tribal Gaming Agency of its determination
and the reasons supporting its determination.
The Tribal Gaming Agency shall thereafter
conduct a hearing, in accordance with section
6.5.5, to reconsider issuance of the tribal gaming license and shall immediately notify the
State Gaming Agency of its determination after the hearing, which shall be final unless
made the subject of dispute resolution pursuant to section 13.0 within thirty (30) days of
such notification.
(d) The Tribe shall not employ, or continue to employ, any person whose application to the
State Gaming Agency for a determination of
suitability or for a renewal of such a determination has been denied, or whose determination of suitability has expired without
renewal.
(e) At any time after five (5) years following the
effective date of this these Secretarial Procedures, the Tribe may request that the Secretary consider adjusting the scope of coverage
of subdivision (b) or (c).
(f ) This section shall not apply to members of the
Tribal Gaming Agency.
Sec. 6.4.4. Gaming Resource Suppliers.
(a) Every Gaming Resource Supplier shall be licensed by the Tribal Gaming Agency prior to

App. 117
the sale, lease, or distribution, or further sale,
lease, or distribution, of any Gaming Resources to or in connection with the Tribe’s
Gaming Operation or Facility. Unless the
Tribal Gaming Agency licenses the Gaming
Resource Supplier pursuant to subdivision
(d), the Gaming Resource Supplier shall also
apply to, and the Tribe shall require it to apply to, the State Gaming Agency for a determination of suitability at least thirty (30) days
prior to the sale, lease, or distribution, or further sale, lease, or distribution, of any Gaming
Resources to or in connection with the Tribe’s
Gaming [28] Operation or Facility, except that
for Gaming Devices the period specified under
section 7.1, subdivision (a)(1), shall govern.
The period during which a determination of
suitability as a Gaming Resource Supplier is
valid expires on the earlier of (i) the date two
(2) years following the date on which the determination is issued, unless a different expiration date is specified by the State Gaming
Agency, or (ii) the date of its revocation by the
State Gaming Agency. If the State Gaming
Agency denies or revokes a determination of
suitability, the Tribal Gaming Agency shall
immediately deny or revoke the license and
shall not reissue any license to that Gaming
Resource Supplier unless and until the State
Gaming Agency makes a determination that
the Gaming Resource Supplier is suitable.
The license and determination of suitability
shall be reviewed at least every two (2) years
for continuing compliance. For purposes of
section 6.5.2, such a review shall be deemed to

App. 118
constitute an application for renewal. In connection with such a review, the Tribal Gaming
Agency shall require the Gaming Resource
Supplier to update all information provided in
the previous application.
(b) Any agreement between the Tribe and a
Gaming Resource Supplier shall include a
provision for its termination without further
liability on the part of the Tribe, except for the
bona fide payment of all outstanding sums
(exclusive of interest) owed as of, or payment
for services or materials received up to, the
date of termination, upon revocation or nonrenewal of the Gaming Resource Supplier’s license by the Tribal Gaming Agency based on
a determination of unsuitability by the State
Gaming Agency. Except as set forth above, the
Tribe shall not enter into, or continue to make
payments to a Gaming Resource Supplier pursuant to, any contract or agreement for the
provision of Gaming Resources with any person or entity whose application to the State
Gaming Agency for a determination of suitability has been denied or revoked or whose determination of suitability has expired without
renewal.
(c) Notwithstanding subdivision (a), the Tribal
Gaming Agency may license a Management
Contractor for a period of no more than seven
(7) years, but the Management Contractor
must still apply for renewal of a determination of suitability by the State Gaming Agency
at least every two (2) years, and where the
State Gaming Agency denies or revokes a

App. 119
determination of suitability, the Tribal Gaming Agency [29] shall immediately deny or revoke the license and shall not reissue any
license to that Management Contractor unless and until the State Gaming Agency
makes a determination that the Management
Contractor is suitable. Except where the State
Gaming Agency has denied or revoked its determination of suitability, nothing in this subdivision shall be construed to bar the Tribal
Gaming Agency from issuing additional new
licenses to the same Management Contractor
following the expiration of a seven (7)-year license.
(d) The Tribal Gaming Agency may elect to license a person or entity as a Gaming Resource
Supplier without requiring it to apply to the
State Gaming Agency for a determination of
suitability under subdivision (a) if the Gaming Resource Supplier has already been issued a determination of suitability that is
then valid. In that case, the Tribal Gaming
Agency shall immediately notify the State
Gaming Agency of its licensure of the person
or entity as a Gaming Resource Supplier, and
shall identify in its notification the State
Gaming Agency determination of suitability
on which the Tribal Gaming Agency has relied
in proceeding under this subdivision (d). Subject to the Tribal Gaming Agency’s compliance
with the requirements of this subdivision, a
Gaming Resource Supplier licensed under
this subdivision may, during and only during
the period in which the determination of suitability remains valid, engage in the sale,

App. 120
lease, or distribution of Gaming Resources to
or in connection with the Tribe’s Gaming Operation or Facility, without applying to the
State Gaming Agency for a determination of
suitability. The issuance of a license under
this subdivision is in all cases subject to any
later determination by the State Gaming
Agency that the Gaming Resource Supplier is
not suitable or to a tribal gaming license suspension or revocation pursuant to section
6.5.1, and does not extend the time during
which the determination of suitability relied
on by the Tribal Gaming Agency is valid. A license issued under this subdivision expires
upon the revocation or expiration of the determination of suitability relied on by the Tribal
Gaming Agency. Nothing in this subdivision
affects the obligations of the Tribal Gaming
Agency, or of the Gaming Resource Supplier,
under section 6.5.2 and section 6.5.6 of these
Secretarial Procedures.
(e) Except where subdivision (d) applies, within
twenty-one (21) days of the issuance of a license to a Gaming Resource Supplier, the
Tribal [30] Gaming Agency shall transmit to
the State Gaming Agency a copy of the license
and a copy of all tribal license application materials and information received by it from the
Applicant which is not otherwise prohibited
or restricted from disclosure under applicable
federal law or regulation.

App. 121
Sec. 6.4.5. Financial Sources.
(a) Subject to subdivision (g) of this section 6.4.5, each
Financial Source shall be licensed by the Tribal
Gaming Agency prior to the Financial Source extending financing in connection with the Tribe’s
Gaming Facility or Gaming Operation.
(b)

Every Financial Source required to be licensed by
the Tribal Gaming Agency shall, contemporaneously with the filing of its tribal license application, apply to the State Gaming Agency for a
determination of suitability. In the event the State
Gaming Agency denies the determination of suitability, the Tribal Gaming Agency shall immediately deny or revoke the license.

(c)

A license issued under this section 6.4.5 shall be
reviewed at least every two (2) years for continuing compliance. In connection with such a review,
the Tribal Gaming Agency shall require the Financial Source to update all information provided
in the Financial Source’s previous application. For
purposes of this section 6.5.2, that review shall be
deemed to constitute an application for renewal.

(d)

Any agreement between the Tribe and a Financial
Source shall include, and shall be deemed to include, a provision for its termination without further liability on the part of the Tribe, except for the
bona fide repayment of all outstanding sums (including accrued interest) owed as of the date of termination upon revocation or non-renewal of the
Financial Source’s license by the Tribal Gaming
Agency based on a determination of unsuitability
by the State Gaming Agency. The Tribe shall not

App. 122
enter into, or continue to make payments pursuant to, any contract or agreement for the provision
of financing with any person whose application to
the State Gaming Agency for a determination of
suitability has been denied or revoked or expired
without renewal.
[31] (e) A Gaming Resource Supplier who provides financing exclusively in connection with the provision, sale, or lease of Gaming Resources obtained
from that Gaming Resource Supplier may be licensed solely in accordance with the licensing procedures applicable, if at all, to Gaming Resource
Suppliers, and need not be separately licensed as
a Financial Source under this section.
(f ) Within twenty-one (21) days of the issuance of a
license to a Financial Source, the Tribal Gaming
Agency shall transmit to the State Gaming Agency
a copy of the license. Upon issuance of a license,
the Tribal Gaming Agency shall direct the Financial Source licensee to transmit to the State Gaming Agency within twenty-one (21) days a copy of
all license application materials and information
submitted to the Tribal Gaming Agency.
(g)(1)

The Tribal Gaming Agency may, at its discretion, exclude from the licensing requirements
of this section the following Financial Sources
under the circumstances stated:
(A) A federally-regulated or state-regulated
bank, savings and loan association, or
other federally- or state-regulated lender
and any fund or other investment vehicle,
including, without limitation, a bond indenture or syndicated loan, which is

App. 123
administered or managed by any such entity.
(B) An entity identified by Regulation CGCC2, subdivision (f ) (as in effect on the date
the parties execute these Secretarial Procedures) of the Commission, when that
entity is a Financial Source solely by reason of being (i) a purchaser or a holder of
debt securities or other forms of indebtedness issued directly or indirectly by the
Tribe for a Gaming Facility or for the
Gaming Operation or (ii) the owner of a
participation interest in any amount of
indebtedness for which a Financial
Source described in subdivision (e)(1)(A),
or any fund or other investment vehicle
which is administered or managed by any
such Financial Source, is the creditor.
[32] (C) An investor who, alone or together
with any person(s) controlling, controlled
by or under common control with such investor, holds less than ten percent (10%)
of all outstanding debt securities issued
directly or indirectly by the Tribe for a
Gaming Facility or for the Gaming Operation.
(D)

An agency of the federal, state or local
government providing financing, together
with any person purchasing any debt securities or other forms of indebtedness of
the agency to provide such financing.

(E) A real estate investment trust (as defined
in 26 U.S.C. § 856(a)) that is publicly

App. 124
traded on a stock exchange, registered
with the Securities and Exchange Commission, and subject to regulatory oversight of the Securities and Exchange
Commission.
(F) An entity or category of entities that the
State Gaming Agency and the Tribal
Gaming Agency jointly determine can be
excluded from the licensing requirements
of this section 6.4.5 without posing a
threat to the public interest or the integrity of the Gaming Operation.
(2) In any case where the Tribal Gaming Agency
elects to exclude a Financial Source from the
licensing requirements of this section 6.4.5,
the Tribal Gaming Agency shall give immediate notice to the State Gaming Agency of any
extension of financing by the Financial Source
in connection with the Tribe’s Gaming Operation or Facility, and upon request of the State
Gaming Agency, shall provide it with all documentation supporting the Tribal Gaming
Agency’s exclusion of the Financial Source
from the licensing requirements of this section 6.4.5. The Tribal Gaming Agency and the
State Gaming Agency shall confer and make
good faith efforts to promptly resolve any dispute regarding the Tribal Gaming Agency’s
decision to exclude a Financial Source from
the licensing requirements of this section
6.4.5.
[33] (3) Notwithstanding subdivision (g)(1), the
State Gaming Agency continues to have the

App. 125
right to find a Financial Source unsuitable.
The Tribal Gaming Agency and the State
Gaming Agency shall work collaboratively to
resolve any reasonable concerns regarding
the initial or ongoing excludability of an individual or entity as a Financial Source. If the
State Gaming Agency finds that an investigation of any Financial Source is warranted, the
Financial Source shall be required to submit
an application for a determination of suitability to the State Gaming Agency and shall pay
the costs and charges incurred in the investigation and processing of the application, in accordance with the provisions set forth in
California Business and Professions Code sections 19867 and 19951. Any dispute between
the Tribal Gaming Agency and the State
Gaming Agency pertaining to the excludability of an individual or entity as a Financial
Source shall be resolved by the Dispute Resolution provisions in section 13.0.
(4)

The following are not Financial Sources for
purposes of this section 6.4.5.
(A) An entity identified by Regulation CGCC2, subdivision (h) (as in effect on the date
the parties execute these Secretarial Procedures) of the Commission.
(B) A person or entity whose sole connection
with a provision or extension of financing
to the Tribe is to provide loan brokerage
or debt servicing for a Financial Source at
no cost to the Tribe or the Gaming Operation, provided that no portion of any

App. 126
financing provided is an extension of
credit to the Tribe or the Gaming Operation by that person or entity.
(C) A person or entity that the State
Gaming Agency has determined does not
require licensure pursuant to any process
the State Gaming Agency deems necessary due to the nature of financing services provided, the existence of current
and effective federal or state agency oversight or licensure, attenuated interests of
the person or entity as passive investors
without the ability to exert significant
[34] influence over the Gaming Operation, or other grounds which the State
Gaming Agency determines appropriate,
subject to its responsibilities under state
law.
(h) In recognition of changing financial circumstances, this section shall be subject to revision by
the Secretary after five (5) years from the effective
date of these Secretarial Procedures upon the request of the Tribe; provided such renegotiation
shall not retroactively affect transactions that
have already taken place where the Financial
Source has been excluded or exempted from licensing requirements.
Sec. 6.4.6. Processing Tribal Gaming License
Applications.
(a) Each Applicant for a tribal gaming license shall
submit the completed application along with the

App. 127
required information and an application fee, if required, to the Tribal Gaming Agency in accordance
with the rules and regulations of that agency.
(b) At a minimum, the Tribal Gaming Agency shall require submission and consideration of all information required under IGRA, including part 556.4
of title 25 of the Code of Federal Regulations, for
licensing primary management officials and key
employees.
(c) For Applicants that are business entities, these licensing provisions shall apply to the entity as well
as: (i) each of its officers, members, and directors;
(ii) each of its principal management employees,
including any chief executive officer, chief financial
officer, chief operating officer, and general manager; (iii) each of its owners or partners, if an unincorporated business; (iv) each of its shareholders
who owns more than ten percent (10%) of the
shares of the corporation, if a corporation, or who
has a direct controlling interest in the Applicant;
and (v) each person or entity (other than a Financial Source that the Tribal Gaming Agency has determined does not require a license under section
6.4.5) that, alone or in combination with others,
has provided financing in connection with any
Gaming Operation or Class III Gaming authorized
under these Secretarial Procedures, if that person
or entity provided more than ten percent (10%) of
either the start-up capital or the operating capital,
or of a combination thereof, over a twelve (12)month period. For purposes of this subdivision,
where there is any commonality of the [35] characteristics identified in this section 6.4.6, subdivisions (c)(i) through (c)(v), inclusive, between any

App. 128
two (2) or more entities, those entities may be
deemed to be a single entity. For purposes of this
subdivision, a direct controlling interest in the Applicant referred to in subdivision (c)(iv) excludes
any passive investor or anyone who has an indirect or only a financial interest and does not have
ability to control, manage, or direct the management decisions of the Applicant.
(d) Nothing herein precludes the Tribe or Tribal Gaming Agency from requiring more stringent licensing requirements.
Sec. 6.4.7. Suitability Standard Regarding
Gaming Licenses.
(a) In reviewing an application for a tribal gaming license, and in addition to any standards set forth
in the Tribe’s Gaming Ordinance, the Tribal Gaming Agency shall consider whether issuance of the
license is inimical to public health, safety, or welfare, and whether issuance of the license will undermine public trust that the Tribe’s Gaming
Operation is free from criminal and dishonest elements and would be conducted honestly.
(b)

A license may not be issued unless, based on all
information and documents submitted, the Tribal
Gaming Agency is satisfied that the Applicant,
and in the case of an entity, each individual identified in section 6.4.6, meets all the following requirements:
(1) The person is of good character, honesty, and
integrity.

App. 129
(2) The person’s prior activities, criminal record
(if any), reputation, habits, and associations
do not pose a threat to the public interest or
to the effective regulation and control of gaming, or create or enhance the dangers of unsuitable, unfair, or illegal practices, methods,
or activities in the conduct of gaming, or in the
carrying on of business and financial arrangements incidental thereto.
(3) The person is in all other respects qualified to
be licensed as provided, and meets the criteria
established in these Secretarial Procedures,
IGRA, NIGC regulations, the Tribe’s Gaming
Ordinance, and any other criteria adopted by
the Tribal Gaming [36] Agency or the Tribe;
provided, however, an Applicant shall not be
found to be unsuitable solely on the ground
that the Applicant was an employee of a tribal
gaming operation in California that was conducted prior to May 16, 2000.
Sec. 6.4.8. Background Investigations of Applicants.
(a) The Tribal Gaming Agency shall conduct or cause
to be conducted all necessary background investigations reasonably required to determine that the
Applicant is qualified for a gaming license under
the standards set forth in section 6.4.7, and to fulfill all requirements for licensing under IGRA,
NIGC regulations, the Tribe’s Gaming Ordinance,
and these Secretarial Procedures. The Tribal
Gaming Agency shall not issue a gaming license,
other than a temporary license pursuant to section

App. 130
6.4.9, until a determination is made that those
qualifications have been met.
(b) In lieu of completing its own background investigation, and to the extent that doing so does not
conflict with or violate IGRA or the Tribe’s Gaming
Ordinance, the Tribal Gaming Agency may contract with the State Gaming Agency for the conduct of background investigations, may rely on a
State determination of suitability previously issued under a Class III Gaming compact involving
another tribe and the State, or may rely on a State
Gaming Agency license previously issued to the
Applicant, to fulfill some or all of the Tribal Gaming Agency’s background investigation obligations.
(c) If the Tribal Gaming Agency contracts with the
State Gaming Agency for the conduct of background investigations, then an Applicant for a
tribal gaming license shall be required to provide
releases to the State Gaming Agency to make
available to the Tribal Gaming Agency background information regarding the Applicant. The
State Gaming Agency shall cooperate in furnishing to the Tribal Gaming Agency that information,
unless doing so would violate state or federal law,
would violate any agreement the State Gaming
Agency has with a source of the information other
than the Applicant, or would impair or impede a
criminal investigation, or unless the Tribal Gaming Agency cannot provide sufficient safeguards to
assure the State Gaming Agency that the information will remain confidential.

App. 131
[37] (d) In lieu of obtaining summary criminal
history information from the NIGC, the Tribal
Gaming Agency may, pursuant to the provisions in subdivisions (d) through (i), obtain
such information from the California Department of Justice. If the Tribe adopts an ordinance confirming that article 6 (commencing
with section 11140) of chapter 1 of title 1 of
part 4 of the California Penal Code is applicable to members, investigators, and staff of the
Tribal Gaming Agency, and those members,
investigators, and staff thereafter comply
with that ordinance, then, for purposes of carrying out its obligations under this section,
the Tribal Gaming Agency shall be eligible to
be considered an entity entitled to request
and receive state summary criminal history
information, within the meaning of subdivision (b)(13) of section 11105 of the California
Penal Code.
(e) The information received shall be used by the
requesting agency solely for the purpose for
which it was requested and shall not be reproduced for secondary dissemination to any
other employment or licensing agency. The
unauthorized access and misuse of criminal
offender record information may affect an individual’s civil rights. Additionally, any person
intentionally disclosing information obtained
from personal or confidential records maintained by a state agency or from records
within a system of records maintained by a
government agency may be subject to prosecution.

App. 132
(f ) The Tribal Gaming Agency shall submit to the
California Department of Justice fingerprint
images and related information required by
the California Department of Justice of all
Gaming Employees, as defined by section
2.12, for the purposes of obtaining information as to the existence and content of a
record of state or federal convictions and state
or federal arrests and also information as to
the existence and content of a record of state
or federal arrests for which the Department of
Justice establishes that the person is free on
bail or on his or her recognizance pending
trial or appeal.
(g) When received, the California Department of
Justice shall forward to the Federal Bureau of
Investigation requests for federal summary
criminal history information received pursuant to this section. The California Department
of Justice shall review the information returned from [38] the Federal Bureau of Investigation and compile and disseminate a
response to the Tribal Gaming Agency.
(h) The California Department of Justice shall
provide a state or federal level response to the
Tribal Gaming Agency pursuant to Penal
Code section 11105, subdivision (p)(1).
(i)

The Tribal Gaming Agency shall request from
the California Department of Justice subsequent notification service, as provided pursuant to section 11105.2 of the Penal Code, for
persons described in subdivision (f ) above.

App. 133
Sec. 6.4.9. Temporary Licensing of Gaming
Employees.
(a) If the Applicant has completed a license application in a manner satisfactory to the Tribal
Gaming Agency, and that agency has conducted a preliminary background investigation, and the investigation or other information held by that agency does not indicate
that the Applicant has a criminal history or
other information in his or her background
that would either automatically disqualify the
Applicant from obtaining a tribal gaming license or cause a reasonable person to investigate further before issuing a license, or that
the Applicant is otherwise unsuitable for licensing, the Tribal Gaming Agency may issue
a temporary tribal gaming license and may
impose such specific conditions thereon pending completion of the Applicant’s background
investigation, as the Tribal Gaming Agency in
its sole discretion shall determine.
(b) Special fees may be required by the Tribal
Gaming Agency to issue or maintain a temporary tribal gaming license.
(c) A temporary tribal gaming license shall remain in effect until suspended or revoked, or
a final determination is made on the application, or for a period of up to one (1) year,
whichever comes first.
(d) At any time after issuance of a temporary
tribal gaming license, the Tribal Gaming
Agency shall or may, as the case may be, suspend or revoke it in accordance with the

App. 134
provisions of sections 6.5.1 or 6.5.5, [39] and
the State Gaming Agency may request suspension or revocation before making a determination of unsuitability.
(e) Nothing herein shall be construed to relieve
the Tribe of any obligation under part 558 of
title 25 of the Code of Federal Regulations.
Sec. 6.5.0. Tribal Gaming License Issuance.
Upon completion of the necessary background investigation, the Tribal Gaming Agency may issue a
tribal gaming license on a conditional or unconditional
basis. Nothing herein shall create a property or other
right of an Applicant in an opportunity to be licensed,
or in a tribal gaming license itself, both of which shall
be considered to be privileges granted to the Applicant
in the sole discretion of the Tribal Gaming Agency.
Sec. 6.5.1. Denial, Suspension, or Revocation of Licenses.
(a) Any Applicant’s application for a tribal gaming license may be denied, and any license issued may be revoked, if the Tribal Gaming
Agency determines that the application is incomplete or deficient, or if the Applicant is determined to be unsuitable or otherwise
unqualified for a tribal gaming license.
(b) Pending consideration of revocation, the
Tribal Gaming Agency may suspend a tribal
gaming license in accordance with section
6.5.5.

App. 135
(c) All rights to notice and hearing shall be governed by tribal law and comport with federal
procedural due process by, at a minimum,
providing the employee with notice reasonably calculated to apprise the employee of the
pendency of the determination, access to the
materials upon which the charge is based, and
an opportunity to be heard. The Applicant
shall be notified in writing of the hearing and
given notice of any intent to suspend or revoke
the tribal gaming license.
(d) Notwithstanding anything to the contrary
herein, upon receipt of notice that the State
Gaming Agency has determined that a person
would be unsuitable for licensure in a gambling establishment subject [40] to the jurisdiction of the State Gaming Agency, the Tribal
Gaming Agency shall deny that person a
tribal gaming license and promptly, and in no
event more than thirty (30) days from the
State Gaming Agency notification, revoke any
tribal gaming license that has theretofore
been issued to that person; provided that the
Tribal Gaming Agency may, in its discretion,
reissue a tribal gaming license to the person
following entry of a final judgment reversing
the determination of the State Gaming
Agency in a proceeding in state court conducted pursuant to section 1085 of the California Code of Civil Procedure.

App. 136
Sec. 6.5.2. Renewal of Licenses; Extensions;
Further Investigation.
(a) Except as provided in section 6.4.4, subdivision (c), the term of a tribal gaming license
shall not exceed two (2) years, and application
for renewal of a license must be made prior to
its expiration. Applicants for renewal of a license shall provide updated material, as requested, on the appropriate renewal forms,
but, at the discretion of the Tribal Gaming
Agency, may not be required to resubmit historical data previously submitted or which is
otherwise available to the Tribal Gaming
Agency. At the discretion of the Tribal Gaming
Agency, an additional background investigation may be required at any time if the Tribal
Gaming Agency determines the need for further information concerning the Applicant’s
continuing suitability or eligibility for a license.
(b) Prior to renewing a license, the Tribal Gaming
Agency shall deliver to the State Gaming
Agency copies of all information and documents received in connection with the application for renewal of the tribal gaming license,
which is not otherwise prohibited or restricted
from disclosure under applicable federal law
or regulation, for purposes of the State Gaming Agency’s consideration of renewal of its
determination of suitability.
(c) At the discretion of the State Gaming Agency,
an additional background investigation may
be required if the State Gaming Agency

App. 137
determines the need for further information
concerning the Applicant’s continuing suitability for a license.
Sec. 6.5.3. Identification Cards.
[41] (a) The Tribal Gaming Agency shall require
that all persons who are required to be licensed wear, in plain view at all times while
in the Gaming Facility, identification badges
issued by the Tribal Gaming Agency.
(b) Identification badges must display information, including, but not limited to, a photograph and the person’s name, which is
adequate to enable members of the public and
agents of the Tribal Gaming Agency to readily
identify the person and determine the validity
and date of expiration of his or her license.
(c) Upon request, the Tribe shall provide the
State Gaming Agency with the name, badge
identification number (if any), and job title of
all Gaming Employees.
Sec. 6.5.4. Fees for Tribal Gaming License.
The fees for all tribal gaming licenses shall be set
by the Tribal Gaming Agency.
Sec. 6.5.5. Suspension of Tribal Gaming License.
The Tribal Gaming Agency shall summarily suspend the tribal gaming license of any employee if the

App. 138
Tribal Gaming Agency determines that the continued
licensing of the person could constitute a threat to the
public health or safety or may summarily suspend the
license of any employee if the Tribal Gaming Agency
determines that the continued licensing of the person
may violate the Tribal Gaming Agency’s licensing or
other standards. Any hearing in regard thereto shall
be governed by tribal law and comport with federal due
process by, at a minimum, providing the employee with
notice reasonably calculated to apprise the employee of
the pendency of the determination, access to the materials upon which the charge is based, and an opportunity to be heard.
Sec. 6.5.6. State Determination of Suitability Process.
(a) With respect to Gaming Employees, upon receipt of an Applicant’s completed license application and a determination to issue either
a temporary or permanent license, the Tribal
Gaming Agency shall transmit within twentyone (21) days to the State Gaming Agency for
[42] a determination of suitability for licensure under the California Gambling Control
Act a notice of intent to license the Applicant,
together with all of the following:
(1) A copy of all tribal license application materials and information received by the
Tribal Gaming Agency from the Applicant which is not otherwise prohibited or
restricted from disclosure under applicable federal law or regulation.

App. 139
(2) A complete set of fingerprint impressions,
rolled by a certified fingerprint roller,
which may be on a fingerprint card or
transmitted electronically.
(3) A current photograph.
(4) Except to the extent waived by the State
Gaming Agency, such releases of information, waivers, and other completed and
executed forms as have been obtained by
the Tribal Gaming Agency.
(b) Upon receipt of a written request from a Gaming Resource Supplier or a Financial Source
for a determination of suitability, the State
Gaming Agency shall transmit an application
package to the Applicant to be completed and
returned to the State Gaming Agency for purposes of allowing it to make a determination
of suitability for licensure.
(c) Investigation and disposition of applications
for a determination of suitability shall be governed entirely by State law, and the State
Gaming Agency shall determine whether the
Applicant would be found suitable for licensure in a gambling establishment subject to
the State Gaming Agency’s jurisdiction. Additional information may be required by the
State Gaming Agency to assist it in its background investigation, to the extent permitted
under State law for licensure in a gambling
establishment subject to the State Gaming
Agency’s jurisdiction.

App. 140
(d) The Tribal Gaming Agency shall require a licensee to apply for renewal of a determination
of suitability by the State Gaming Agency at
such time as the licensee applies for renewal
of a tribal gaming license.
[43] (e) Upon receipt of completed license or license renewal application information from
the Tribal Gaming Agency, the State Gaming
Agency may conduct a background investigation pursuant to state law to determine
whether the Applicant is suitable to be licensed for association with Class III Gaming
operations. While the Tribal Gaming Agency
shall ordinarily be the primary source of application information, the State Gaming
Agency is authorized to directly seek application information from the Applicant. The
Tribal Gaming Agency shall provide to the
State Gaming Agency reports of the background investigations conducted by the Tribal
Gaming Agency and the NIGC and related applications, if any, for Gaming Employees,
Gaming Resource Suppliers, and Financial
Sources. If further investigation is required to
supplement the investigation conducted by
the Tribal Gaming Agency, the Applicant will
be required to pay the application fee charged
by the State Gaming Agency pursuant to California Business and Professions Code section
19951, subdivision (a), but any deposit requested by the State Gaming Agency pursuant to section 19867 of that Code shall take
into account reports of the background investigation already conducted by the Tribal Gaming Agency and the NIGC, if any. Failure to

App. 141
provide information reasonably required by
the State Gaming Agency to complete its investigation under State law or failure to pay
the application fee or deposit can constitute
grounds for denial of the application by the
State Gaming Agency. The State Gaming
Agency and the Tribal Gaming Agency shall
cooperate in sharing as much background information as possible, both to maximize investigative efficiency and thoroughness, and to
minimize investigative costs.
(f ) Upon completion of the necessary background
investigation or other verification of suitability, the State Gaming Agency shall issue a notice to the Tribal Gaming Agency certifying
that the State has determined that the Applicant is suitable, or that the Applicant is unsuitable, for licensure in a Gaming Operation
and, if unsuitable, stating the reasons therefore. Issuance of a determination of suitability
does not preclude the State Gaming Agency
from a subsequent determination based on
newly discovered information that a person or
entity is unsuitable for the purpose for which
the person or entity is licensed. Upon receipt
of notice that the State Gaming Agency has
determined that a person or entity is or would
be [44] unsuitable for licensure, the Tribal
Gaming Agency shall deny that person or entity a license and promptly, and in no event
more than thirty (30) days from the issuance
of the State Gaming Agency notification, revoke any tribal gaming license that has theretofore been issued to that person or entity;
provided that the Tribal Gaming Agency may,

App. 142
in its discretion, reissue a tribal gaming license to the person or entity following entry
of a final judgment reversing the determination of the State Gaming Agency in a proceeding in state court conducted pursuant to
section 1085 of the California Code of Civil
Procedure.
(g) Prior to denying an application for a determination of suitability, or to issuing notice to the
Tribal Gaming Agency that a person or entity
previously determined to be suitable had been
determined unsuitable for licensure, the State
Gaming Agency shall notify the Tribal Gaming Agency and afford the Tribe an opportunity to be heard. If the State Gaming
Agency denies an application for a determination of suitability, or issues notice that a person or entity previously determined suitable
has been determined unsuitable for licensure,
the State Gaming Agency shall provide that
person or entity with written notice of all appeal rights available under state law.
(h) The Commission, or its successor, shall maintain a roster of Gaming Resource Suppliers
and Financial Sources that it has determined
to be suitable pursuant to the provisions of
this section, or through separate procedures
to be adopted by the Commission. Upon application to the Tribal Gaming Agency for a
tribal gaming license, a Gaming Resource
Supplier or Financial Source that appears on
the Commission’s suitability roster may be licensed by the Tribal Gaming Agency in the
same manner as a Gaming Resource Supplier

App. 143
under subdivision (d) of section 6.4.4, subject
to any later determination by the State Gaming Agency that the Gaming Resource Supplier or Financial Source is not suitable or to
a tribal gaming license suspension or revocation pursuant to section 6.5.1; provided that
nothing in this subdivision exempts the Gaming Resource Supplier or Financial Source
from applying for a renewal of a State determination of suitability.
[45] Sec. 6.6. Submission of New Application.
Nothing in section 6.0 shall be construed to preclude an Applicant who has been determined to be unsuitable for licensure by the State Gaming Agency, or
the Tribe on behalf of such Applicant, from submitting
a new application for a determination of suitability by
the State Gaming Agency in accordance with section
6.0, provided that the new application cannot be filed
sooner than one (1) year from when the State Gaming
Agency’s finding of unsuitability has become final under state law.

App. 144
SECTION 7.0. APPROVAL AND TESTING OF
GAMING DEVICES.
Sec. 7.1. Gaming Device Approval.
(a) No Gaming Device may be offered for play unless all the following occurs:
(1) The manufacturer or distributor which
sells, leases, or distributes such Gaming
Device (i) has applied for a determination
of suitability by the State Gaming Agency
at least fifteen (15) days before it is offered for play, (ii) has not been found to be
unsuitable by the State Gaming Agency,
and (iii) has been licensed by the Tribal
Gaming Agency;
(2) The software for the game authorized for
play on the Gaming Device has been
tested, approved and certified by an independent gaming test laboratory or state
governmental gaming test laboratory
(the “Gaming Test Laboratory”) as operating in accordance with the standards of
Gaming Laboratories International, Inc.
known as GLI-11, GLI-12, GLI-13, GLI21, and GLI-26, or the technical standards approved by the State of Nevada, or
such other technical standards as the
State Gaming Agency and the Tribal
Gaming Agency shall agree upon, which
agreement shall not unreasonably be
withheld;
(3) A copy of the certification by the Gaming
Test Laboratory, specified in subdivision

App. 145
(a)(2), is provided to the State Gaming
Agency by electronic transmission or by
mail, unless the State Gaming Agency
waives receipt of copies of the certification;
[46] (4) The software for the game authorized for play on the Gaming Device is
tested by the Tribal Gaming Agency to
ensure each game authorized for play on
the Gaming Device has the correct electronic signature prior to operation of the
Gaming Device by the public, or if already
inserted, tested prior to being made available for patron play on the gaming floor;
(5) The hardware and associated equipment
for each type of Gaming Device has been
tested by the Gaming Test Laboratory
prior to operation by the public to ensure
operation in accordance with the applicable Gaming Test Laboratory standards;
and
(6) The hardware and associated equipment
for the Gaming Device has been tested by
the Tribal Gaming Agency to ensure operation in accordance with the manufacturer’s specifications.
Sec. 7.2. Gaming Test Laboratory Selection.
(a) The Gaming Test Laboratory shall be an independent or state governmental gaming test
laboratory recognized in the gaming industry
which (1) is competent and qualified to

App. 146
conduct scientific tests and evaluations of
Gaming Devices, and (2) is licensed or approved by any of the following states: Arizona,
California, Colorado, Illinois, Indiana, Iowa,
Michigan, Missouri, Nevada, New Jersey, or
Wisconsin. The Tribal Gaming Agency shall
submit to the State Gaming Agency documentation that demonstrates the Gaming Test Laboratory satisfies (1) and (2) herein at least
thirty (30) days before the commencement of
Gaming Activities pursuant to this these Secretarial Procedures, or if such use follows the
commencement of Gaming Activities, within
fifteen (15) days prior to reliance thereon. If,
at any time, the Gaming Test Laboratory license and/or approval required by (2) herein
is suspended or revoked by any of those states
or the Gaming Test Laboratory is found unsuitable by the State Gaming Agency, then the
State Gaming Agency may reject the use of
such Gaming Test Laboratory, and upon such
rejection, the Tribal Gaming Agency shall ensure that such Gaming Test Laboratory discontinues its responsibilities under this
section.
[47] (b) The Tribe and the State Gaming Agency
shall inform the Gaming Test Laboratory in
writing that, irrespective of the source of payment of its fees, the Gaming Test Laboratory’s
duty of loyalty runs equally to the State and
the Tribe.

App. 147
Sec. 7.3. Maintenance of Records of Testing
Compliance.
The Tribal Gaming Agency shall prepare and
maintain records of its compliance with section 7.1
while any Gaming Device is on the gaming floor and
for a period of one (1) year after the Gaming Device is
removed from the gaming floor, and shall make those
records available for inspection by the State Gaming
Agency upon request.
Sec. 7.4. State Gaming Agency Inspections.
(a) The State Gaming Agency, utilizing such consultants, if any, it deems appropriate, may inspect the Gaming Devices in operation at the
Gaming Facility on a random basis not to exceed four (4) times annually to confirm that
they operate and play properly pursuant to
the manufacturer’s technical standards. The
inspections may be conducted onsite or remotely and include all Gaming Device software, hardware, associated equipment,
software maintenance records, and components critical to the operation of the Gaming
Device. The Tribal Gaming Agency shall cooperate with the State Gaming Agency’s reasonable efforts to obtain information that
facilitates the conduct of remote but effective
inspections that minimize disruption to Gaming Activities. The random inspections conducted pursuant to this subdivision shall
occur during normal business hours outside of
weekends and holidays and shall not remove
from play more than five percent (5%) of the

App. 148
Gaming Devices then in operation at the
Gaming Facility, provided that the five percent (5%) limitation on removal of Gaming
Devices shall not apply where a Gaming Device, including but not limited to a progressive
controller, makes limiting removal from play
to no more than five percent (5%) infeasible or
impossible. Whenever practicable, the State
Gaming Agency shall not require removal
from play any Gaming Device that the State
Gaming Agency determines may be fully and
adequately tested while still in play.
(b) The State Gaming Agency shall provide notice
to the Tribal Gaming Agency of such inspection at or prior to the commencement of the
[48] random inspection, and the Tribal Gaming Agency may accompany the State Gaming
Agency inspector(s).
(c) The State Gaming Agency, utilizing such consultants, if any, it deems appropriate, may
conduct additional inspections at additional
times upon reasonable belief of any irregularity and after informing and consulting with
the Tribal Gaming Agency regarding the factual basis for such belief
Sec. 7.5. Technical Standards.
The Tribal Gaming Agency shall provide to the
State Gaming Agency copies of its regulations for technical standards applicable to the Tribe’s Gaming Devices at least thirty (30) days before the
commencement of the Gaming Operation and at least

App. 149
thirty (30) days before the effective date of any revisions to the regulations.
Sec. 7.6. Transportation of Gaming Devices.
(a) Subject to the provisions of subdivision (b),
the Tribal Gaming Agency shall not permit
any Gaming Device to be transported to or
from the Tribe’s Indian lands except in accordance with procedures established by agreement between the State Gaming Agency and
the Tribal Gaming Agency and upon at least
ten (10) days’ notice to the Sheriff ’s Department for the County.
(b) Transportation of a Gaming Device from a
Gaming Facility within California is permissible only if:
(1) The final destination of the Gaming Device is a gaming facility of any tribe in
California that has a compact with the
State which makes lawful the receipt of
such Gaming Device;
(2) The final destination of the Gaming Device is any other state in which possession of the Gaming Device is made lawful
by state law or by tribal-state compact;
[49] (3) The final destination of the Gaming Device is another country, or any state or province of another country, wherein possession of
the Gaming Device is lawful; or
(4) The final destination is a location within California for testing, repair, maintenance, or

App. 150
storage by a person or entity that has been licensed by the Tribal Gaming Agency and has
been found suitable for licensure by the State
Gaming Agency.
(c) Any Gaming Device transported from or
to the Tribe’s Indian lands in violation of
this section 7.6, or in violation of any permit issued pursuant thereto, shall be considered a violation of these Secretarial
Procedures and subject to seizure by California peace officers in accordance with
California law.
SECTION 8.0. INSPECTIONS.
Sec. 8.1. Investigation and Sanctions.
(a) The Tribal Gaming Agency shall investigate
any reported violation of these Secretarial
Procedures and shall require the Gaming Operation to correct the violation upon such
terms and conditions as the Tribal Gaming
Agency determines are necessary.
(b) The Tribal Gaming Agency shall be empowered by the Gaming Ordinance to impose fines
or other sanctions within the jurisdiction of
the Tribe against gaming licensees who interfere with or violate the Tribe’s gaming regulatory requirements and obligations under
IGRA, NIGC gaming regulations, the Gaming
Ordinance, or these Secretarial Procedures as
long as the fines or sanctions comport with
federal due process by, at a minimum, providing the licensee with notice reasonably

App. 151
calculated to apprise the licensee of the pendency of the determination, access to the materials upon which the charge is based, and an
opportunity to be heard.
(c) The Tribal Gaming Agency shall report violations of these Secretarial Procedures that
pose a substantial threat to gaming integrity,
public health and safety, or the environment,
or continued violations that, if isolated might
not require reporting, but cumulatively pose a
threat to gaming integrity, public health and
safety or the environment, and any [50] failures to comply with the Tribal Gaming
Agency’s orders to the Commission and the
Bureau of Gambling Control in the California
Department of Justice within ten (10) days of
discovery.
Sec. 8.2. Assistance by State Gaming Agency.
(a) The mediator’s selected compact provides the
State Gaming Agency with authority to regulate the Tribe’s class III gaming activities. The
Secretary, however, cannot unilaterally obligate the State to carry out those regulatory
responsibilities under these Secretarial Procedures.
(b) The State may, within sixty (60) days of the
date of issuance of these Secretarial Procedures, provide written notice to the Tribe,
with copies to the Secretary and the NIGC,
that the State will assume the regulatory responsibilities vested by these Secretarial Procedures in the State Gaming Agency.

App. 152
(c) The Tribe shall acknowledge and consent to
the State’s notice of the State Gaming
Agency’s assumption of responsibilities from
NIGC by resolution of its governing body. The
Tribe shall provide a copy of its resolution to
the State, the Secretary, and the NIGC.
(d) The Tribe may request the assistance of the
State Gaming Agency whenever it reasonably
appears that such assistance may be necessary to carry out the purposes described in
section 8.1, or otherwise to protect public
health, safety, or welfare.
(e) If the State does not consent to carrying out
the regulatory responsibilities identified in
these Secretarial Procedures, or withdraws its
consent, the Tribe shall enter into a Memorandum of Understanding (MOU) with the
Chairman of the NIGC authorizing the NIGC
to regulate the class III gaming authorized by
these Secretarial Procedures.
The Tribe shall not operate any class III gaming
under these Secretarial Procedures in the absence of
either State regulatory participation or an MOU with
the Chairman of the NIGC, as described above.

App. 153
[51] Sec. 8.3. Access to Premises by State
Gaming Agency; Notification; Inspections.
(a) Notwithstanding that the Tribe and its Tribal
Gaming Agency have the primary responsibility to administer and enforce the regulatory
requirements of these Secretarial Procedures,
the State Gaming Agency, including but not
limited to any consultants retained by it, shall
have the right to inspect the Tribe’s Gaming
Facility, and all Gaming Operation or Facility
records relating to Class III Gaming as is reasonably necessary to ensure Secretarial Procedure compliance, including such records
located in off-site facilities dedicated to their
storage subject to the conditions in subdivisions (b), (c), and (d).
(b) Except as provided in section 7.4, the State
Gaming Agency may inspect public areas of
the Gaming Facility at any time without prior
notice during normal Gaming Facility business hours.
(c) Inspection of areas of the Gaming Facility not
normally accessible to the public may be made
at any time the Gaming Facility is open to the
public, immediately after the State Gaming
Agency’s authorized inspector notifies the
Tribal Gaming Agency of his or her presence
on the premises, presents proper identification, and requests access to the non-public areas of the Gaming Facility. The Tribal Gaming
Agency, in its sole discretion, may require a
member of the Tribal Gaming Agency to accompany the State Gaming Agency inspector

App. 154
at all times that the State Gaming Agency inspector is in a non-public area of the Gaming
Facility. If the Tribal Gaming Agency imposes
such a requirement, it shall require such
member to be available at all times for those
purposes and shall ensure that the member
has the ability to gain immediate access to all
non-public areas of the Gaming Facility.
(d) Nothing in these Secretarial Procedures shall
be construed to limit the State Gaming
Agency to one (1) inspector during inspections.
Sec. 8.4. Inspection, Copying and Confidentiality of Documents.
(a) Inspection and copying of Gaming Operation
papers, books, and records may occur at any
time, immediately after the State Gaming
Agency gives notice to the Tribal Gaming
Agency, during the hours [52] from 8:00 a.m.
to 5:00 p.m. Monday through Friday, and at
any other time that a Tribal Gaming Agency
employee, a Gaming Facility employee, or a
Gaming Operation employee is available onsite with physical access to offices, including
off-site facilities, where the papers, books, and
records are kept. The Tribe shall cooperate
with, and cannot refuse, the inspection and
copying, provided that the State Gaming
Agency inspectors cannot require copies of papers, books, or records in such volume that it
unreasonably interferes with the normal

App. 155
functioning of the Gaming Operation or Facility.
(b) In lieu of onsite inspection and copying of
Gaming Operation papers, books, and records
by its inspectors, the State Gaming Agency
may request in writing that the Tribal Gaming Agency provide copies of such papers,
books, and records as the State Gaming
Agency deems necessary to ensure compliance with the terms of these Secretarial Procedures. The State Gaming Agency’s written
request shall describe those papers, books,
and records requested to be copied with sufficient specificity to reasonably identify the requested documents. Within ten (10) days after
it receives the request, or such other time as
the State Gaming Agency may agree in writing, the Tribal Gaming Agency shall provide
one (1) copy of the requested papers, books,
and records to the requesting State Gaming
Agency. An electronic version of the requested
papers, books, and records may be submitted
to the State Gaming Agency in lieu of a paper
copy so long as the software required to access
the electronic version is reasonably available
to the State Gaming Agency and the State
Gaming Agency does not object.
(c) Notwithstanding any other provision of California law, any confidential information and
records, as defined in subdivision (d), that the
State Gaming Agency obtains or copies pursuant to these Secretarial Procedures shall be,
and remain, the property solely of the Tribe;
provided that such confidential information

App. 156
and records and copies may be retained by the
State Gaming Agency as is reasonably necessary to assure the Tribe’s compliance with
these Secretarial Procedures or to complete
any investigation of suspected criminal activity; and provided further that the State Gaming Agency may provide such confidential
information and records and copies to federal
law enforcement and other state agencies or
consultants that the State deems reasonably
necessary in order to assure the Tribe’s [53]
compliance with these Secretarial Procedures,
in order to renegotiate any provision thereof,
or in order to conduct or complete any investigation of suspected criminal activity in connection with the Gaming Activities or the
operation of the Gaming Facility or the Gaming Operation.
(d) For purposes of this section 8.4, “confidential
information and records” means any and all
information and documents received from the
Tribe pursuant to these Secretarial Procedures, except for information and documents
that are part of the public domain, or otherwise required to be disclosed to third parties
pursuant to these Secretarial Procedures.
(e) The State Gaming Agency and all other state
agencies and consultants to which it provides
information and records obtained pursuant to
subdivisions (a) or (b) of this section, which
are confidential pursuant to subdivision (d),
will exercise care in the preservation of the
confidentiality of such information and records and will apply the highest standards of

App. 157
confidentiality provided under California
state law to preserve such information and
records from disclosure until such time as the
information or record is no longer confidential
or release is authorized by the Tribe, by mutual agreement of the Tribe and the State, or
pursuant to the arbitration procedures under
section 13.2. The State Gaming Agency and
all other state agencies and consultants may
disclose confidential information or records as
necessary to fully adjudicate or resolve a dispute arising pursuant to these Secretarial
Procedures, in which case the State Gaming
Agency and all other state agencies and consultants agree to preserve confidentiality to
the greatest extent feasible and available. Before the State Gaming Agency provides confidential information and records to a
consultant as authorized under subdivision
(c), it shall enter into a confidentiality agreement with that consultant that meets the
standards of this subdivision.
(f ) The Tribe may avail itself of any and all remedies under State law for the improper disclosure of confidential information and records.
In the case of any disclosure of confidential information and records compelled by judicial
process, the State Gaming Agency will endeavor to give the Tribe prompt notice of the
order compelling [54] disclosure and a reasonable opportunity to interpose an objection
thereto with the court.
(g) The Tribal Gaming Agency and the State
Gaming Agency shall confer regarding

App. 158
protocols for the release to law enforcement
agencies of information obtained during the
course of background investigations.
(h) Confidential information and records received
by the State Gaming Agency from the Tribe
in compliance with these Secretarial Procedures, or information compiled by the State
Gaming Agency from those confidential records, shall be exempt from disclosure under
the California Public Records Act.
(i)

Notwithstanding any other provision of these
Secretarial Procedures, the State Gaming
Agency shall not be denied access to papers,
books, records, equipment, or places where
such access is reasonably necessary to ensure compliance with these Secretarial Procedures or to conduct or complete an
investigation of suspected criminal activity
in connection with the Gaming Activities or
the operation of the Gaming Facility or the
Gaming Operation.

Sec. 8.5. NIGC Audit Reports.
The Tribe shall provide to the State Gaming
Agency, within twenty (20) days of their submission to
the NIGC, copies of the audited financial statements of
Class III Gaming and management letter(s), if any,
provided to the NIGC. All submissions to the State
Gaming Agency made pursuant to this section 8.5 shall
be subject to the confidentiality protections and assurances set forth in section 8.4, subdivision (h) of these
Secretarial Procedures.

App. 159
Sec. 8.6. Cooperation with Tribal Gaming
Agency.
The State Gaming Agency shall meet periodically
with the Tribal Gaming Agency and cooperate in all
matters relating to the enforcement of the provisions
of these Secretarial Procedures and its Appendices.
Sec. 8.7. Secretarial Procedures Compliance Review.
The State Gaming Agency is authorized to conduct
an annual comprehensive Secretarial Procedure compliance review of the Gaming Operation, [55] Gaming
Facility, and Gaming Activities to ensure compliance
with all provisions of these Secretarial Procedures, any
appendices hereto, including, without limitation, minimum internal control standards set forth in section
9.1.1, and with all laws, ordinances, codes, rules, regulations, policies, internal controls, standards, and procedures that are required to be adopted, implemented,
or complied with pursuant to these Secretarial Procedures. Upon the discovery of an irregularity that the
State Gaming Agency reasonably determines may be a
threat to gaming integrity or public safety, and after
consultation with the Tribal Gaming Agency, the State
Gaming Agency may conduct additional periodic reviews of any part of the Gaming Operation, Gaming
Facility, and Gaming Activities and other activities
subject to these Secretarial Procedures to ensure compliance with all provisions of these Secretarial Procedures and its appendices. Nothing in this section shall
be construed to supersede any other audits,

App. 160
inspections, investigations, and monitoring authorized
by these Secretarial Procedures.
SECTION 9.0. RULES AND REGULATIONS
FOR THE OPERATION AND MANAGEMENT
OF THE GAMING OPERATION AND FACILITY.
Sec. 9.1. Adoption of Regulations for Operation and Management; Minimum Standards.
It is the responsibility of the Tribal Gaming
Agency to conduct on-site gaming regulation and control in order to enforce the terms of these Secretarial
Procedures, of IGRA, of NIGC gaming regulations, of
State Gaming Agency regulations, and of the Gaming
Ordinance, to protect the integrity of the Gaming Activities and the Gaming Operation for honesty and
fairness, and to maintain the confidence of patrons
that tribal governmental gaming in California meets
the highest standards of fairness and internal controls.
To meet those responsibilities, the Tribal Gaming
Agency shall be vested with the authority to promulgate, and shall promulgate, rules and regulations governing, at a minimum, the following subjects pursuant
to the standards and conditions set forth therein:
(a) The enforcement of all relevant laws and
rules with respect to the Gaming Activities,
Gaming Operation and Gaming Facility, and
the conduct of investigations and hearings
with respect thereto, and to any other subject
within its jurisdiction.

App. 161
(b) The physical safety of Gaming Facility patrons and employees, and any other person
while in the Gaming Facility. Except as provided in section 12.2, nothing herein shall be
construed, however, to make [56] applicable to
the Tribe any State laws, regulations, or
standards governing the use of tobacco.
(c) The physical safeguarding of assets transported to, within, and from the Gaming Facility.
(d) The prevention of illegal activity within the
Gaming Facility or with regard to the Gaming
Operation or Gaming Activities, including,
but not limited to, the maintenance of employee procedures and a surveillance system
as provided in subdivision (e).
(e) Maintenance of a closed-circuit television surveillance system consistent with industry
standards for gaming facilities of the type and
scale operated by the Tribe, which system
shall be approved by, and may not be modified
without the approval of, the Tribal Gaming
Agency. The Tribal Gaming Agency shall have
current copies of the Gaming Facility floor
plan and closed-circuit television system at all
times.
(f ) The recording of any and all occurrences
within the Gaming Facility that deviate from
normal operating policies and procedures
(hereinafter “incidents”). The regulations
shall provide that the Tribal Gaming Agency
shall immediately transmit copies of incident
reports that concern a significant or continued

App. 162
threat to public safety or gaming integrity to
the State Gaming Agency. The procedure for
recording incidents pursuant to the regulations shall also do all of the following:
(1) Specify that security personnel record all
incidents, regardless of an employee’s determination that the incident may be immaterial (all incidents shall be identified
in writing).
(2) Require the assignment of a sequential
number to each report.
(3) Provide for permanent reporting in indelible ink in a bound notebook from which
pages cannot be removed and in which
entries are made on each side of each
page and/or in electronic form, provided
the information is recorded in a manner
so that, once the information is entered, it
cannot be deleted or altered [57] and is
available to the State Gaming Agency
pursuant to sections 8.3 and 8.4.
(4) Require that each report include, at a
minimum, all of the following:
(A) The record number.
(B) The date.
(C) The time.
(D) The location of the incident.
(E) A detailed description of the incident.
(F) The persons involved in the incident.

App. 163
(G) The security department employee
assigned to the incident.
(g) The establishment of employee procedures designed to permit detection of any irregularities, theft, cheating, fraud, or the like,
consistent with industry practice.
(h) Maintenance of a list of persons permanently
excluded from the Gaming Facility who, because of their past behavior, criminal history,
or association with persons or organizations,
pose a threat to the integrity of the Gaming
Activities of the Tribe or to the integrity of
regulated gaming within the State. The Tribal
Gaming Agency shall transmit a copy of the
list to the State Gaming Agency quarterly and
shall make a copy of the current list available
to the State Gaming Agency upon request.
Notwithstanding anything in these Secretarial Procedures to the contrary, the State Gaming Agency is authorized to make the copies of
the list available to other tribal gaming agencies, to licensees of the Commission, the California Horse Racing Board, and other law
enforcement agencies. To the extent permissible under law, the State Gaming Agency may
share information about individuals permanently excluded from other tribal gaming facilities or other [58] gaming establishments
within California with the Tribal Gaming
Agency.
(i)

The conduct of an audit, at the Tribe’s expense, of the annual financial statements of
the Gaming Operation.

App. 164
(j)

Submission to, and prior approval by, the
Tribal Gaming Agency of the rules and regulations of each class III game to be operated
by the Tribe, and of any changes in those rules
and regulations. No class III game may be
played that has not received Tribal Gaming
Agency approval.

(k) The obligation of the Gaming Facility and the
Gaming Operation to maintain a copy of the
rules, regulations, and procedures for each
game as played, including, but not limited to,
the method of play and the odds and method
of determining amounts paid to winners.
(l)

Specifications and standards to ensure that
information regarding the method of play,
odds, and payoff determinations is visibly displayed or available to patrons in written form
in the Gaming Facility and to ensure that betting limits applicable to any gaming station is
displayed at that gaming station.

(m) Maintenance of a cashier’s cage in accordance
with industry standards for such facilities.
(n) Specification of minimum staff and supervisory requirements for each Gaming Activity to
be conducted.
(o) Technical standards and specifications in conformity with the requirements of these Secretarial Procedures for the operation of Gaming
Devices and other games authorized herein to
be conducted by the Tribe.

App. 165
Sec. 9.1.1. Minimum Internal Control Standards (MICS).
(a) The Tribe shall conduct its Gaming Activities
pursuant to an internal control system that
implements minimum internal control standards for Class III Gaming that are no less
stringent than those contained in [59] the
Minimum Internal Control Standards of the
NIGC (25 C.F.R. § 542), as they existed on October 10, 2006, and as they may be amended
from time to time, without regard to the
NIGC’s authority to promulgate, enforce, or
audit the standards. These standards are
posted on the State Gaming Agency website(s)
and are referred to herein as the “Compact
MICS.” This requirement is met through compliance with the provisions set forth in this
section and in section 9.1 or in the alternative
by compliance with the state-wide uniform
regulation CGCC-8, as it exists currently and
as it may be amended.
(b) Before commencement of Gaming Operations,
the Tribal Gaming Agency shall, in accordance with the Gaming Ordinance, establish
written internal control standards for the
Gaming Facility that shall: (i) provide a level
of control that equals or exceeds the minimum
internal control standards set forth in the
Compact MICS, as they exist currently and as
they may be revised; (ii) contain standards for
currency transaction reporting that comply
with title 31 Code of Federal Regulations part
103, as it exists currently and as it may be
amended; (iii) satisfy the requirements of

App. 166
section 9.1; (iv) be consistent with these Secretarial Procedures; and (v) require the Gaming Operation to comply with the internal
control standards.
(c) The Gaming Operation shall operate the
Gaming Facility pursuant to a written internal control system. The internal control system shall comply with and implement the
internal control standards established by the
Tribal Gaming Agency pursuant to subdivision (b) of this section 9.1.1. The internal control system, and any proposed changes to the
system, must be approved by the Tribal
Gaming Agency prior to implementation. The
internal control system shall be designed to
reasonably assure that: (i) assets are safeguarded and accountability over assets is
maintained; (ii) liabilities are properly recorded and contingent liabilities are properly
disclosed; (iii) financial records including records relating to revenues, expenses, assets, liabilities, and equity/fund balances are accurate
and reliable; (iv) transactions are performed in
accordance with the Tribal Gaming Agency’s
general or specific authorization; (v) access to
assets is permitted only in accordance with
the Tribal Gaming Agency’s approved procedures; (vi) recorded accountability for assets
is compared with actual assets at frequent intervals and appropriate action is taken with
respect to any discrepancies; and (vii) functions, duties and responsibilities are [60] appropriately segregated and performed in
accordance with sound practices by qualified
personnel.

App. 167
(d) The Tribal Gaming Agency shall provide a
copy of its written internal control standards
and any changes to those control standards to
the State Gaming Agency within thirty (30)
days of approval by the Tribal Gaming
Agency. The State Gaming Agency will review
and submit to the Tribal Gaming Agency written comments or objections, if any, to the internal control standards and any changes to
the standards, within thirty (30) days of receiving them, or by another date agreed upon
by the Tribal Gaming Agency and the State
Gaming Agency. The State Gaming Agency’s
review shall be for the purpose of determining
whether the internal control standards and
any changes to the standards provide a level
of control which equals or exceeds the level of
control required by the Compact MICS, as
they exist currently and as they may be revised, and are consistent with these Secretarial Procedures.
(e) The Compact MICS shall apply to all Gaming
Activities, Gaming Facilities and the Gaming
Operation; however, the Compact MICS are
not applicable to any activities not expressly
permitted in these Secretarial Procedures.
Should the terms in the Compact MICS be inconsistent with these Secretarial Procedures.,
the terms in these Secretarial Procedures
shall prevail.
(f ) The Tribal Gaming Agency shall provide the
State Gaming Agency with a copy of the
“Agreed-Upon Procedures” report prepared
annually pursuant to part 542.3, subdivision

App. 168
(f ), of the Compact MICS, as they may be revised, within thirty (30) days after the Tribal
Gaming Agency’s receipt of the report. The
“Agreed-Upon Procedures” report shall be prepared by an independent auditor, who for the
purposes of this section, shall be a certified
public accountant who is licensed in the state
of California to practice as an independent
certified public accountant or who holds a California practice privilege, as provided in the
California Accountancy Act, California Business and Professions Code, section 5000 et
seq., who is not employed by the Tribe, the
Tribal Gaming Agency, the Management Contractor, or the Gaming Operation, has no financial interest in any of these entities, and
is only otherwise retained by any of these entities [61] to conduct regulatory audits, independent audits of the Gaming Operation, or
audits under this section.
Sec. 9.2. Program to Mitigate Problem Gambling.
The Gaming Operation shall establish a program,
approved by the Tribal Gaming Agency, to mitigate
pathological and problem gambling by implementing
the following measures:
(a) It shall train Gaming Facility supervisors and
gaming floor employees on responsible gaming and to identify and manage problem gambling.

App. 169
(b) It shall make available to patrons at conspicuous locations and ATMs in the Gaming
Facility educational and informational materials which aim at the prevention of problem
gambling and that specify where to find assistance.
(c) It shall establish self-exclusion programs
whereby a self-identified problem gambler
may request the halt of promotional mailings,
the revocation of privileges for casino services,
the denial or restraint on the issuance of
credit and check cashing services, and exclusion from the Gaming Facility.
(d) It shall establish an involuntary exclusion
program that allows the Gaming Operation to
halt promotional mailings, deny or restrain
the issuance of credit and cash checking services, and deny access to the Gaming Facility
to patrons who have exhibited signs of problem gambling.
(e) It shall display at conspicuous locations and
at ATMs within the Gaming Facility signage
bearing a toll-free help-line number where patrons may obtain assistance for gambling
problems.
(f ) It shall make diligent efforts to prevent underage individuals from loitering in the area
of the Gaming Facility where the Gaming Activities take place.
(g) It shall assure that advertising and marketing of the Gaming Activities at the Gaming
Facility contain a responsible gambling

App. 170
message and a [62] toll-free help-line number
for problem gamblers, where practical, and
that it make no false or misleading claims.
(h) It shall adopt a code of conduct, derived, inter
alia, from that of the American Gaming Association, that addresses responsible gambling
and responsible advertising.
Nothing herein is intended to grant any third
party the right to sue based on a perceived violation of
these standards.
Sec. 9.3. Enforcement of Regulations.
The Tribal Gaming Agency shall ensure the enforcement of the rules, regulations, and specifications promulgated under these Secretarial
Procedures, including under section 9.1.
Sec. 9.4. State Civil and Criminal Jurisdiction.
Nothing in these Secretarial Procedures impairs
the civil or criminal jurisdiction of the State, local
law enforcement agencies and state courts under
Public Law 280 (18 U.S.C. § 1162; 28 U.S.C. § 1360)
or IGRA. Except as provided below, all State and
local law enforcement agencies and state courts
shall exercise jurisdiction to enforce the State’s
criminal laws on the Tribe’s Indian lands, including the Gaming Facility and all related structures,
in the same manner and to the same extent, and
subject to the same restraints and limitations, imposed by the laws of the State and the United

App. 171
States, as is exercised by State and local law enforcement agencies and state courts elsewhere in
the State. The Tribe hereby consents to such criminal jurisdiction. However, no Gaming Activity
conducted by the Tribe pursuant to these Secretarial Procedures may be deemed to be a civil or criminal violation of any law of the State. Except for
such Gaming Activity conducted pursuant to these
Secretarial Procedures, criminal jurisdiction to enforce State gambling laws on the Tribe’s Indian
lands, and to adjudicate alleged violations thereof,
is hereby transferred to the State pursuant to 18
U.S.C. § 1166(d).
Sec. 9.5. Tribal Gaming Agency Members.
[63] (a) The Tribe shall take all reasonable steps
to ensure that members of the Tribal Gaming
Agency are free from corruption, undue influence, compromise, and conflicting interests in
the conduct of their duties under these Secretarial Procedures; shall adopt a conflict-of-interest code to that end and shall ensure its
enforcement; and shall ensure the prompt removal of any member of the Tribal Gaming
Agency who is found to have acted in a corrupt
or compromised manner or to have a conflict
of interest.
(b) The Tribe shall conduct a background investigation on each prospective member of the
Tribal Gaming Agency, who shall meet the
background requirements of a management
contractor under IGRA; provided that if such
member is elected through a tribal election

App. 172
process, that member may not participate in
any Tribal Gaming Agency matters under
these Secretarial Procedures unless a background investigation has been concluded and
the member has been found to be suitable. If
requested by the Tribe or the Tribal Gaming
Agency, the State Gaming Agency may assist
in the conduct of such a background investigation and may assist in the investigation of
any possible corruption or compromise of a
member of the Tribal Gaming Agency.
(c) In the event that the Tribe requests the assistance of the State Gaming Agency pursuant to
subdivision (b) of this section and the State
Gaming Agency determines that a member of
the Tribal Gaming Agency is unsuitable, the
State Gaming Agency shall serve upon the
Tribe a written notice of its finding of unsuitability and request the removal of the member. Upon receipt of notice that the State
Gaming Agency has determined the member
to be unsuitable, the Tribe shall either immediately remove that member from the Tribal
Gaming Agency or demand an expedited arbitration pursuant to section 13.2.
(d) If the Tribe demands an expedited arbitration
of the State Gaming Agency’s determination
of unsuitability, the arbitrator shall make a de
novo determination as to whether the State
Gaming Agency’s determination of unsuitability is justified using the following bases for
such determination.

App. 173
(1) To be found suitable, the member must be
all of the following:
[64] (A) A person of good character, honesty, and integrity.
(B) A person whose prior activities, criminal record, if any, reputation, habits,
and associations do not pose a threat
to the public interest of the State, or
to the effective regulation and control of controlled gambling, or create
or enhance the dangers of unsuitable,
unfair, or illegal practices, methods,
and activities in the conduct of controlled gambling or in the carrying on
of the business and financial arrangements incidental thereto.
(C) A person that is in all other respects
qualified to be licensed as provided in
section 6.4.7 of these Secretarial Procedures.
(2) A member is deemed unsuitable if any of
the following apply:
(A) The person, any partner, or any officer, director, or shareholder of any
corporation in which the person has
a controlling interest, has any financial interest in any business or organization that is engaged in any
form of gambling prohibited by section 330 of the California Penal
Code, whether within or without the
State of California, unless such

App. 174
gambling is lawful within the jurisdiction in which it is being conducted.
(B) The person fails to clearly establish
eligibility and qualification in accordance with section 6.4.7 of these
Secretarial Procedures.
(C) The person fails to provide information, documentation, and assurances required by sections 6.4.7,
6.4.8, subdivision (c), or 6.5.6 of
these Secretarial Procedures or requested by the Tribal Gaming
Agency, or fails to reveal any fact
material to qualification, or supplies
information that is untrue or misleading as to a material fact pertaining to the qualification criteria.
(D) The person has been convicted of a
felony in any state or federal court,
including a conviction by a federal
court or [65] by a court in another
state for a crime that would constitute a felony if committed in California.
(E) The person has been convicted of any
misdemeanor involving dishonesty
or moral turpitude within the ten
(10)-year period immediately preceding the beginning of his or her service
on the Tribal Gaming Agency, unless
the applicant has been granted relief
pursuant to section 1203.4, 1203.4a,

App. 175
or 1203.45 of the California Penal
Code; provided, however, that the
granting of relief pursuant to section
1203.4, 1203.4a, or 1203.45 of the
California Penal Code shall not constitute a limitation on the discretion
of the arbitrator to determine the
person’s compliance with the requirements of sections 6.4.7 and 9.5,
subdivision (d)(1), of these Secretarial Procedures.
(F) The person has been associated with
criminal profiteering activity or organized crime, as defined by section
186.2 of the California Penal Code.
(G) The person has exhibited contumacious defiance of any legislative investigatory body, or other official
investigatory body of any state or of
the United States, when that body is
engaged in the investigation of
crimes relating to gambling, official
corruption related to gambling activities, or criminal profiteering activity
or organized crime, as defined by section 186.2 of the California Penal
Code.
(H) The person is less than twenty-one
(21) years of age.
In all cases, in coming to a decision, the arbitrator
must give due consideration for the proper protection
of the health, safety and welfare of the residents of the

App. 176
State, and must take into account whether membership on the Tribal Gaming Agency would undermine
public trust that the Gaming Operation is free from
criminal and dishonest elements and would be conducted honestly.
Sec. 9.6. Uniform Tribal Gaming Regulations.
[66] (a) Uniform Tribal Gaming Regulations
CGCC-1, CGCC-2, CGCC-7, and CGCC-8 (as
in effect on the date the parties execute these
Secretarial Procedures), adopted by the State
Gaming Agency and approved by the Association, shall apply to the Gaming Operation until amended or repealed, without further
action by the State Gaming Agency, the Tribe,
the Tribal Gaming Agency or the Association.
(b) Any subsequent Uniform Tribal Gaming Regulations adopted by the State Gaming Agency
and approved by the Association shall apply
to the Gaming Operation until amended or repealed.
(c) No State Gaming Agency regulation adopted
pursuant to this section 9.6 shall be effective
with respect to the Tribe’s Gaming Operation
unless it has first been approved by the Association and the Tribe has had an opportunity
to review and comment on the proposed regulation.
(d) Every State Gaming Agency regulation
adopted pursuant to this section 9.6 that is intended to apply to the Tribe (other than a

App. 177
regulation proposed or previously approved
by the Association) shall be submitted to the
Association for consideration prior to submission of the regulation to the Tribe for comment as provided in subdivision (c). A
regulation adopted pursuant to this section
9.6 that is disapproved by the Association
shall not be submitted to the Tribe for comment unless it is re-adopted by the State
Gaming Agency as a proposed regulation, in
its original or amended form, with a detailed,
written response to the Association’s objections.
(e) Except as provided in subdivision (d), no regulation of the State Gaming Agency adopted
pursuant to this section 9.6 shall be adopted
as a final regulation in respect to the Tribe’s
Gaming Operation before the expiration of 30
(thirty) days after submission of the proposed
regulation to the Tribe for comment as a proposed regulation, and after consideration of
the Tribe’s comments, if any.
(f ) In exigent circumstances (e.g., imminent
threat to public health and safety), the State
Gaming Agency may adopt a regulation that
becomes effective immediately. Any such regulation shall be accompanied by a detailed,
written description of the exigent circumstances, and shall be submitted immediately
to the Association [67] for consideration. If the
regulation is disapproved by the Association,
it shall cease to be effective, but may be readopted by the State Gaming Agency as a proposed regulation, in its original or amended

App. 178
form, with a detailed, written response to the
Association’s objections, and thereafter submitted to the Tribe for comment as provided
in subdivision (e).
(g) The Tribe may object to a State Gaming
Agency regulation adopted pursuant to this
section 9.6 on the ground that it is unnecessary, unduly burdensome, or unfairly discriminatory, and may seek repeal or amendment of
the regulation through the dispute resolution
process of section 13.0.
SECTION 10.0. PATRON DISPUTES.
The Tribal Gaming Agency shall promulgate regulations governing patron disputes over the play or operation of any game, including any refusal to pay to a
patron any alleged winnings from any Gaming Activities, which regulations must meet the following minimum standards:
(a) A patron who makes an oral or written complaint to appropriate personnel of the Gaming
Operation over the play or operation of any
game within three (3) days of the play or operation at issue shall be notified in writing of
the patron’s right to request in writing, within
fifteen (15) days of the Gaming Operation’s
written notification to the patron of that right,
resolution of the dispute by the Tribal Gaming
Agency, and if dissatisfied with the resolution,
to seek resolution in either the Tribe’s tribal
court system, once a tribal court system is established, or through binding arbitration of

App. 179
the dispute before a retired judge pursuant to
the terms and provisions in subdivision (c). If
the patron is not provided with the aforesaid
notification within thirty (30) days of the patron’s complaint, the deadlines herein shall be
removed, leaving only the relevant statutes of
limitations under California law that would
otherwise apply.
(b) Upon receipt of the patron’s written request
for a resolution of the patron’s complaint pursuant to subdivision (a), the Tribal Gaming
Agency shall conduct an appropriate investigation, shall provide to the patron a copy of its
regulations concerning patron complaints,
and shall render a decision in accordance with
industry practice extant in [68] Nevada or
New Jersey. The decision shall be issued
within sixty (60) days of the patron’s request,
shall be in writing, shall be based on the facts
surrounding the dispute, and shall set forth
the reasons for the decision.
(c) If the patron is dissatisfied with the decision
of the Tribal Gaming Agency issued pursuant
to subdivision (b), or no decision is issued
within the sixty (60)-day period, the patron
may request that the dispute be settled either
in the Tribe’s tribal court system, once a tribal
court system is established, or by binding arbitration before a JAMS arbitrator, in accordance with the Streamlined Arbitration Rules
and Procedures of JAMS (or if those rules no
longer exist, the closest equivalent) (hereafter
“JAMS Streamlined Arbitration”). The decision to choose either the tribal court system or

App. 180
JAMS Streamlined Arbitration shall be at the
patron’s sole discretion. Resolution of the patron dispute before the tribal court system
shall be at no cost to the patron (excluding patron’s attorney’s fees). The cost and expenses
of the JAMS Streamlined Arbitration shall be
initially borne equally by the Tribe and the
patron (for purposes of this section, the “parties”) and both parties shall pay their share of
the arbitration costs at the time of election of
the arbitration option, but the arbitrator shall
award to the prevailing party its costs and expenses (but not attorney’s fees).
(d) Upon a patron’s request pursuant to subdivision (c), the Tribe and its Gaming Operation
shall consent to tribal court adjudication or
JAMS Streamlined Arbitration of the matter,
and agree to abide by the decision of the tribal
court or JAMS arbitrator; provided, however,
that if any alleged winnings are found to be a
result of a mechanical, electronic or electromechanical failure and not due to the intentional acts or gross negligence of the Tribe or
its agents, the tribal court or JAMS arbitrator
shall deny the patron’s claim for the winnings
but shall award reimbursement of the amount
wagered by the patron which was lost as a result of any said failure.
(e) Any party dissatisfied with the award of the
tribal court or JAMS arbitrator issued pursuant to subdivision (c), may at the party’s election invoke the JAMS Optional Arbitration
Appeal Procedure (and if those rules no longer
exist, the closest equivalent); provided that

App. 181
the party making such election shall bear all
costs and expenses of [69] JAMS and the
JAMS arbitrators associated with the Appeal
Procedure, regardless of the outcome.
(f ) To effectuate its consent to the tribal court
system or JAMS Streamlined Arbitration and
JAMS Optional Arbitration Appeal Procedure
in this section 10.0, the Tribe shall, in the exercise of its sovereignty, waive its right to assert sovereign immunity in connection with
the tribal court jurisdiction and JAMS arbitrator’s jurisdiction and in any action to (i) enforce the Tribe’s or the patron’s obligation to
arbitrate, (ii) confirm, correct, modify, or vacate the tribal court award or the arbitral
award rendered in the arbitration, or (iii) enforce or execute a judgment based upon the
award.
SECTION 11.0. OFF-RESERVATION ENVIRONMENTAL AND ECONOMIC IMPACTS.
Sec. 11.1. Tribal Environmental Impact Report.
(a) Before the commencement of any Project as
defined in section 2.25, other than the Preferred Alternative as defined in section 2.23,
for which a comprehensive environmental review has already been prepared, the Tribe
shall cause to be prepared a comprehensive
and adequate tribal environmental impact report (TEIR), analyzing the potentially significant off-reservation environmental impacts of
the Project pursuant to the process set forth

App. 182
in this section 11.0; provided, however, that
information or data that is relevant to the
TEIR and is a matter of public record or is
generally available to the public need not be
repeated in its entirety in the TEIR, but may
be specifically cited as the source for conclusions stated therein; and provided further
that such information or data shall be briefly
described, that its relationship to the TEIR
shall be indicated, and that the source thereof
shall be reasonably available for inspection at
a public place or public building. The TEIR
shall provide detailed information about the
Significant Effect(s) on the Environment
which the Project is likely to have, including
each of the matters set forth in Appendix B,
shall list ways in which the Significant Effects
on the Environment might be minimized, and
shall include a detailed statement setting
forth all of the following:
[70] (1) A description of the physical environmental conditions in the vicinity of the
Project (the environmental setting and
existing baseline conditions), as they exist at the time the notice of preparation is
issued;
(2) All Significant Effects on the Environment of the proposed Project;
(3) In a separate section:
(A) Any Significant Effect on the Environment that cannot be avoided if
the Project is implemented;

App. 183
(B) Any Significant Effect on the Environment that would be irreversible if
the Project is implemented;
(4) Mitigation measures proposed to minimize Significant Effects on the Environment, including, but not limited to,
measures to reduce the wasteful, inefficient, and unnecessary consumption of
energy;
(5) Alternatives to the Project; provided that
the Tribe need not address alternatives
that would cause it to forgo its right to engage in the Gaming Activities authorized
by these Secretarial Procedures on its Indian lands;
(6) Whether any proposed mitigation would
be feasible;
(7) Any direct growth-inducing impacts of
the Project; and
(8) Whether the proposed mitigation would
be effective to substantially reduce the
potential Significant Effects on the Environment.
(b) In addition to the information required pursuant to subdivision (a), the TEIR shall also contain a statement indicating the reasons for
determining that various effects of the Project
on the off-reservation environment are not
significant and consequently have not been
discussed in detail in the TEIR. In the TEIR,
the direct and indirect Significant Effects on
the Environment, including each of the items

App. 184
on [71] Appendix B, shall be clearly identified
and described, giving due consideration to
both the short-term and long-term effects. The
discussion of mitigation measures shall describe feasible measures which could minimize significant adverse effects, and shall
distinguish between the measures that are
proposed by the Tribe and other measures
proposed by others. Where several measures
are available to mitigate an effect, each
should be discussed and the basis for selecting
a particular measure should be identified.
Formulation of mitigation measures should
not be deferred until some future time. The
TEIR shall also describe a range of reasonable
alternatives to the Project or to the location of
the Project, which would feasibly attain most
of the basic objectives of the Project and which
would avoid or substantially lessen any of the
Significant Effects on the Environment, and
evaluate the comparative merits of the alternatives; provided that the Tribe need not address alternatives that would cause it to forgo
its right to engage in the Gaming Activities
authorized by these Secretarial Procedures on
its Indian lands. The TEIR must include sufficient information about each alternative to
allow meaningful evaluation, analysis, and
comparison. The TEIR shall also contain an
index or table of contents and a summary,
which shall identify each Significant Effect on
the Environment with proposed measures
and alternatives that would reduce or avoid
that effect, and issues to be resolved, including the choice among alternatives and

App. 185
whether and how to mitigate the Significant
Effects on the Environment. Previously approved land use documents, including, but not
limited to, general plans, specific plans, and
local coastal plans, may be used in the cumulative impact analysis. The Tribe shall consider any recommendations from the County
concerning the person or entity to prepare the
TEIR.
Sec. 11.2. Notice of Preparation of Draft
TEIR.
(a) Upon commencing the preparation of the
draft TEIR, the Tribe shall issue a Notice of
Preparation to the State Clearinghouse in the
State Office of Planning and Research (State
Clearinghouse) and to the County for distribution to the public. The Tribe shall also post
the Notice of Preparation on its website. The
Notice of Preparation shall provide all Interested Persons, as defined in section 2.19, with
information describing the Project and its potential Significant Effects on the Environment sufficient to enable Interested Persons
to make a [72] meaningful response or comment. At a minimum, the Notice of Preparation shall include all of the following
information:
(1) A description of the Project;
(2) The location of the Project shown on a detailed map, preferably topographical, and
on a regional map; and

App. 186
(3) The probable off-reservation environmental effects of the Project.
(b) The Notice of Preparation shall also inform
Interested Persons of the preparation of the
draft TEIR and shall inform them of the opportunity to provide comments to the Tribe
within thirty (30) days of the date of the receipt of the Notice of Preparation by the State
Clearinghouse and the County. The Notice of
Preparation shall also request Interested Persons to identify in their comments the off-reservation
environmental
issues
and
reasonable mitigation measures that the
Tribe will need to have explored in the draft
TEIR.
Sec. 11.3. Notice of Completion of Draft
TEIR.
(a) Within no less than thirty (30) days following
the receipt of the Notice of Preparation by the
State Clearinghouse and the County, the
Tribe shall file a copy of the draft TEIR and a
Notice of Completion with the State Clearinghouse, the State Gaming Agency, the County,
and the California Department of Justice, Office of the Attorney General. The Tribe shall
also post the Notice of Completion and a copy
of the draft TEIR on its website. The Notice of
Completion shall include all of the following
information:
(1) A brief description of the Project;
(2) The proposed location of the Project;

App. 187
(3) An address where copies of the draft
TEIR are available; and
(4) Notice of a period of forty-five (45) days
during which the Tribe will receive comments on the draft TEIR.
[73] (b) The Tribe will submit ten (10) copies
each of the draft TEIR and the Notice of Completion to the County, which will be asked to
post public notice of the draft TEIR at the office of the County Board of Supervisors and to
furnish the public notice to the public libraries serving the County. The County shall also
be asked to serve in a timely manner the Notice of Completion to all Interested Persons,
which Interested Persons shall be identified
by the Tribe for the County, to the extent it
can identify them. In addition, the Tribe will
provide public notice by at least one of the procedures specified below:
(1) Publication at least one (1) time by the
Tribe in a newspaper of general circulation in the area affected by the Project. If
more than one (1) area is affected, the notice shall be published in the newspaper
of largest circulation from among the
newspapers of general circulation in
those areas; or
(2) Direct mailing by the Tribe to the owners
and occupants of property adjacent to, but
outside, the Indian lands on which the
Project is to be located. Owners of such
property shall be identified as shown on
the latest equalization assessment roll.

App. 188
Sec. 11.4. Issuance of Final TEIR.
The Tribe shall prepare, certify and make available to the County, the State Clearinghouse, the State
Gaming Agency, and the California Department of Justice, Office of the Attorney General, at least fifty-five
(55) days before the completion of negotiations pursuant to section 11.7 a Final TEIR, which shall consist of:
(a) The draft TEIR or a revision of the draft;
(b) Comments and recommendations received on
the draft TEIR either verbatim or in summary;
(c) A list of persons, organizations, and public
agencies commenting on the draft TEIR;
[74] (d) The responses, which shall include good
faith, reasoned analyses, of the Tribe to significant environmental points raised in the review and consultation process; and
(e) Any other information added by the Tribe.
Sec. 11.5. Cost Reimbursement to County.
The Tribe shall reimburse the County for copying
and mailing costs resulting from making the Notice of
Preparation, Notice of Completion, and draft TEIR
available to the public under this section 11.0.

App. 189
Sec. 11.6. Failure to Prepare Adequate TEIR.
The Tribe’s failure to prepare an adequate TEIR
when required shall be deemed a breach of these Secretarial Procedures.
Sec. 11.7. Intergovernmental Agreement.
(a) Before the commencement of a Project, and no
later than the issuance of the Final TEIR to
the County, the Tribe shall offer to commence
negotiations with the County, and upon the
County’s acceptance of the Tribe’s offers, shall
negotiate with the County and shall enter into
enforceable written agreements (hereinafter
“intergovernmental agreements”) with the
County with respect to the matters set forth
below:
(1) The timely mitigation of any Significant
Effect on the Environment (which effects
may include, but are not limited to, aesthetics, agricultural resources, air quality,
biological resources, cultural resources,
geology and soils, hazards and hazardous
materials, water resources, land use, mineral resources, traffic, noise, utilities and
service systems, and cumulative effects),
where such effect is attributable, in whole
or in part, to the Project unless the parties agree that the particular mitigation
is infeasible, taking into account economic, environmental, social, technological, or other considerations.

App. 190
[75] (2) Compensation for law enforcement,
fire protection, emergency medical services and any other public services to be
provided by the County and its special
districts to the Tribe for the purposes of
the Gaming Operation, including the
Gaming Facility, as a consequence of the
Project.
(3) Reasonable compensation for programs
designed to address and treat gambling
addiction.
(4) Mitigation of any effect on public safety
attributable to the Project, including any
compensation to the County as a consequence thereof
(5) Mitigation of any effects attributable to
the Project within or upon the City of
Madera not otherwise mitigated.
(b) The Tribe shall not commence a Project until
the intergovernmental agreements specified
in subdivisions (a) and (c) are executed by the
parties or are effectuated pursuant to section
11.8.
(c) If the Final TEIR identifies traffic impacts to
the state highway system or facilities that are
directly attributable in whole or in part to the
Project, then before the commencement of the
Project, the Tribe shall negotiate an intergovernmental agreement with the California Department of Transportation that provides for
timely mitigation of all traffic impacts on the
state highway system and facilities directly

App. 191
attributable to the Project, and payment of
the Tribe’s fair share of cumulative traffic impacts. Alternatively, the California Department of Transportation may agree in writing
that the Tribe may negotiate and conclude,
prior to commencement of the Project, an intergovernmental agreement with the County
that mitigates the traffic impacts to the state
highway system or facilities.
(d) Nothing in this section 11.7 requires the Tribe
to enter into any other intergovernmental
agreements with a local governmental entity
other than as set forth in subdivisions (a) and
(c).
(e) To the extent that the Project remains within
the scope of the Preferred Alternative, the
County MOU, the Tribe’s agreement with the
City of Madera dated October 18, 2006, and
the Tribe’s agreement [76] with the Madera
Irrigation District dated December 19, 2006,
as amended on May 5, 2015, as each of those
agreements may be amended from time to
time, satisfy the requirements for an intergovernmental agreement with the County under
this section 11.7 and the Tribe accepts its obligation to implement the applicable off-reservation mitigation measures as prescribed in
the “Final Environmental Impact Statement,
North Fork Casino, North Fork Rancheria of
Mono Indians Fee-to-Trust and Casino/Hotel
Project,” dated February 2009, prepared by
the Bureau of Indian Affairs of the United
States Department of the Interior pursuant to
the National Environmental Policy Act of

App. 192
1969 for the acquisition of 305.49 acres of land
located in Madera County, California, in trust
for the Tribe, noticed on August 6, 2010
(“FEIS”) and the Record of Decision related
thereto, including all attachments, dated November 26, 2012.
Sec. 11.8. Arbitration.
To foster good government-to-government relationships and to assure that the Tribe is not unreasonably prevented from commencing a Project and
benefiting therefrom, if an intergovernmental agreement with the County, or the California Department of
Transportation if required by section 11.7, subdivision
(c), is not entered within seventy-five (75) days of the
submission of the Final TEIR, or such further time as
the Tribe and the County, or the Tribe and the California Department of Transportation if required by section 11.7, subdivision (c) (for purposes of this section
“the parties”) may agree in writing, any party may demand binding arbitration before a JAMS arbitrator
pursuant to JAMS Comprehensive Arbitration with respect to any remaining disputes arising from, connected with, or related to the negotiation:
(a) The arbitration shall be conducted as follows:
Each party shall exchange with each other
within five (5) days of the demand for arbitration its last, best written offer made during
the negotiation pursuant to section 11.7. The
arbitrator shall schedule a hearing to be
heard within thirty (30) days of his or her appointment unless the parties agree to a longer

App. 193
period. The arbitrator shall be limited to
awarding only one (1) of the offers submitted,
without modification, based upon that proposal which best provides feasible mitigation
of Significant Effects on the Environment and
on public safety and most reasonably compensates for public services pursuant to section
11.7, without unduly interfering with the
principal objectives of the Project [77] or imposing environmental mitigation measures
which are different in nature or scale from the
type of measures that have been required to
mitigate impacts of a similar scale of other
projects in the surrounding area, to the extent
there are such other projects. The arbitrator
shall take into consideration whether the Final TEIR provides the data and information
necessary to enable the County, or the California Department of Transportation if required
by section 11.7, subdivision (c), to determine
both whether the Project may result in a Significant Effect on the Environment and
whether the proposed measures in mitigation
are sufficient to mitigate any such effect. If
the respondent does not participate in the arbitration, the arbitrator shall nonetheless
conduct the arbitration and issue an award,
and the claimant shall submit such evidence
as the arbitrator may require therefore. Review of the resulting arbitration award is
waived.
(b) To effectuate this section 11.8, and in the exercise of its sovereignty, the Tribe agrees to expressly waive, and to waive its right to assert,
sovereign immunity in connection with the

App. 194
arbitrator’s jurisdiction and in any action to
(i) enforce the other party’s obligation to arbitrate, (ii) enforce or confirm any arbitral
award rendered in the arbitration, or (iii) enforce or execute a judgment based upon the
award.
(c) The arbitral award will become part of the intergovernmental agreements with the County
required under section 11.7.
(d) An arbitral award entered pursuant to this
section 11.8 as the result of arbitration between the Tribe and the California Department
of Transportation, when an intergovernmental agreement is required by section 11.7,
subdivision (c), will become the intergovernmental agreement with the California Department of Transportation.
Sec. 11.9. State Designated Agency Review.
Before commencing arbitration provided by section 11.8, where the parties involved in the negotiation
of an intergovernmental agreement pursuant to section 11.7 have reached an impasse, either party may
request that a State Designated Agency review the Final TEIR and the proposed intergovernmental agreements to determine if the Tribe’s proposed agreement
fairly and effectively mitigates the [78] potential offreservation environmental impacts associated with
the Project, pursuant to the following process.
(a) The requesting party shall serve all relevant
documents upon the State Designated Agency

App. 195
and shall contemporaneously serve a copy of
the documents on the other party, who may
within ten (10) days submit additional information for the State Designated Agency to
consider.
(b) The State Designated Agency will have sixty
(60) days from the date of its receipt of the
items described in section 11.9, subdivision
(a), to review the information to determine
whether the Tribe’s proposed intergovernmental agreement fairly and effectively mitigates
the potential off-reservation environmental
impacts associated with the Project, unless
the Tribe consents in writing to allow the
State Designated Agency one (1) additional
sixty- (60) day period.
(c) As part of its review, the State Designated
Agency will evaluate the TEIR to determine
whether it fully and effectively identifies, analyzes, and addresses the potential off-reservation impacts. The State Designated Agency
may consult with subject-matter experts outside of that agency as appropriate to inform
its analysis and reach a sound decision.
(d) The State Designated Agency will provide
each party with a concise explanation of and
rationale for its determination under this section 11.9. If the State Designated Agency does
not make a decision within the specified
timeframe as it may be extended, the request
will be deemed to have lapsed and the parties
may continue to negotiate, or proceed to arbitration.

App. 196
(e) If the State Designated Agency determines
that the Tribe’s proposed intergovernmental
agreement does not fairly and effectively mitigate the potential off-reservation environmental impacts associated with the Project,
the parties may continue to negotiate or proceed to arbitration.
(f ) If the State Designated Agency determines
that the Tribe’s proposed intergovernmental
agreement fairly and effectively mitigates the
potential off-reservation environmental impacts associated with the Project, the parties
will have thirty (30) days to execute a final
[79] intergovernmental agreement. In the
event the parties do not execute a final intergovernmental agreement within the thirty
(30) days provided in this subdivision (f ), at
the expiration of that time the Tribe’s proposed intergovernmental agreement will be
deemed final and the Tribe will be deemed to
have fulfilled its obligations under section
11.7 of these Secretarial Procedures. The
Tribe’s obligations under an unexecuted intergovernmental agreement that is deemed effective under this subdivision (f ) shall be
enforceable as provided in the intergovernmental agreement and a failure to fulfill those
obligations shall be deemed to be a breach of
these Secretarial Procedures.
The State Designated Agency is under no obligation to make a decision pursuant to this section 11.9,
in which case notice shall be provided to both parties
within thirty (30) days following the request.

App. 197
SECTION 12.0. PUBLIC AND WORKPLACE
HEALTH, SAFETY, AND LIABILITY.
Sec. 12.1. General Requirements.
The Tribe shall not conduct Class III Gaming in a
manner that endangers the public health, safety, or
welfare, provided, however, that nothing herein shall
be construed to make applicable to the Tribe any State
laws or regulations governing the use of tobacco.
Sec. 12.2. Tobacco Smoke.
Notwithstanding section 12.1, the Tribe agrees to
provide a non-smoking area in the Gaming Facility
and to utilize a ventilation system throughout the
Gaming Facility that exhausts tobacco smoke to the extent reasonably feasible under state-of-the-art technology existing as of the date of the construction or
significant renovation of the Gaming Facility, and further agrees not to offer or sell tobacco to anyone under
eighteen (18) years of age.
Sec. 12.3. Health and Safety Standards.
To protect the health and safety of patrons and
employees of the Gaming Facility, the Tribe shall, for
the Gaming Facility:
[80] (a) Adopt, at the Tribe’s election, and comply
with tribal health standards for food and beverage handling that are no less stringent as
those of the United States Public Health Service or the State of California. Nothing herein

App. 198
shall be construed as submission of the Tribe
to the jurisdiction of any non-tribal governmental health inspectors, except an agency of
the United States pursuant to federal law.
(b) Adopt and comply with federal water quality
and safe drinking water standards applicable
in California.
(c) Comply with the building and safety standards set forth in section 6.4.2.
(d) Adopt and comply with federal workplace and
occupational health and safety standards. The
Tribe will allow inspection of Gaming Facility
workplaces by State inspectors, during normal hours of operation, to assess compliance
with these standards; provided that there is
no right to inspection by State inspectors
where an inspection has been conducted by an
agency of the United States pursuant to federal law or, alternatively, a State-licensed or
federally trained inspector, during the previous calendar quarter and the Tribe has provided a copy of the federal agency’s report to
the State Gaming Agency within ten (10) days
of the federal inspection.
(e) Adopt and comply with tribal codes to the extent consistent with the provisions of these
Secretarial Procedures and other applicable
federal law regarding public health and
safety.
(f ) Adopt and comply with tribal law that is no
less stringent than federal laws and state
laws forbidding harassment, including sexual

App. 199
harassment, in the workplace, forbidding employers from discrimination in connection
with the employment of persons to work or
working for the Gaming Operation or in the
Gaming Facility on the basis of race, color, religion, ancestry, national origin, gender, marital status, medical condition, sexual
orientation, age, or disability, and forbidding
employers from retaliation against persons
who oppose discrimination or participate in
employment
discrimination
proceedings
(hereinafter “harassment, retaliation, or employment discrimination”); provided that
nothing herein shall preclude the Tribe [81]
from giving a preference in employment to
members of federally recognized Indian tribes
pursuant to a duly adopted tribal ordinance.
(1) The Tribe shall obtain and maintain an
employment practices liability insurance
policy consistent with industry standards
for non-tribal casinos and underwritten
by an insurer with an A.M. Best rating of
A or higher which provides coverage of at
least three million dollars ($3,000,000)
per occurrence for unlawful harassment,
retaliation, or employment discrimination arising out of the claimant’s employment in, in connection with, or relating to
the operation of, the Gaming Operation,
Gaming Facility or Gaming Activities. To
effectuate the insurance coverage, the
Tribe, in the exercise of its sovereignty,
shall expressly waive, and waive its right
to assert, sovereign immunity and any
and all defenses based thereon up to the

App. 200
greater of three million dollars
($3,000,000) or the limits of the employment practices insurance policy, in accordance with the tribal ordinance
referenced in subdivision (f )(2) below, in
connection with any claim for harassment, retaliation, or employment discrimination arising out of the claimant’s
employment in, in connection with, or relating to the operation of, the Gaming Operation, Gaming Facility or Gaming
Activities; provided, however, that nothing herein requires the Tribe to agree to
liability for punitive damages or to waive
its right to assert sovereign immunity in
connection therewith. The employment
practices liability insurance policy shall
acknowledge in writing that the Tribe has
expressly waived, and waived its right to
assert, sovereign immunity and any and
all defenses based thereon for the purpose of arbitration of those claims for harassment, retaliation, or employment
discrimination up to the limits of such
policy and for the purpose of enforcement
of any ensuing award or judgment and
shall include an endorsement providing
that the insurer shall not invoke tribal
sovereign immunity up to the limits of
such policy; however, such endorsement
or acknowledgement shall not be deemed
to waive or otherwise limit the Tribe’s
sovereign immunity for any portion of the
claim that exceeds such policy limits or
three million dollars ($3,000,000),

App. 201
whichever is greater. Nothing in this provision shall be interpreted to supersede
any requirement in the Tribe’s employment [82] discrimination complaint ordinance that a claimant must exhaust
administrative remedies as a prerequisite to arbitration.
(2) The Tribe’s harassment, retaliation, or
employment discrimination standards
shall be subject to enforcement pursuant
to an employment discrimination complaint ordinance which shall be adopted
by the Tribe within thirty (30) days of the
effective date of these Secretarial Procedures and which shall continuously provide at least the following:
(A) That tribal law provisions that are no
less stringent than California law
shall govern all claims of harassment, retaliation, or employment
discrimination arising out of the
claimant’s employment in, in connection with, or relating to the operation
of, the Gaming Operation, Gaming
Facility or Gaming Activities; provided that California law governing
punitive damages need not be a part
of the ordinance. Nothing in this
provision shall be construed as a submission of the Tribe to the jurisdiction of the California Department of
Fair Employment and Housing or the
California Fair Employment and
Housing Commission.

App. 202
(B) That a claimant shall have one (1)
year from the date that an alleged
discriminatory act occurred to file a
written notice with the Tribe that he
or she has suffered prohibited harassment, retaliation, or employment
discrimination.
(C) That, in the exercise of its sovereignty, the Tribe expressly waives,
and also waives its right to assert,
sovereign immunity with respect to
the binding arbitration of claims for
harassment, retaliation, or employment discrimination, but only up to
the greater of three million dollars
($3,000,000) or the limits of the
employment practices insurance policy referenced in subdivision (f )(1)
above; provided, however, such
waiver shall not be deemed to waive
or otherwise limit the Tribe’s sovereign immunity for any portion of the
claim [83] that exceeds three million
dollars ($3,000,000) or the insurance
policy limits, whichever is greater.
(D) That the Tribe consents to binding
arbitration before a JAMS arbitrator
in accordance with JAMS Comprehensive Arbitration, that discovery
in the arbitration proceedings shall
be governed by section 1283.05 of the
California Code of Civil Procedure,
that the Tribe shall initially bear the
cost of JAMS and the JAMS

App. 203
arbitrator, but the arbitrator may
award costs, excluding attorney’s
fees, to the prevailing party not to exceed those allowable in a suit in California superior court, and that any
party dissatisfied with the award of
the arbitrator may at the party’s election invoke the JAMS Optional Arbitration Appeal Procedure (or if those
rules no longer exist, the closest
equivalent), provided that the party
making such election must bear all
costs and expenses of JAMS and the
JAMS arbitrators associated with
the Appeal Procedure, regardless of
the outcome, and shall not be eligible
for an award of attorney’s fees. The
arbitration shall take place within
seventy-five (75) miles of the Gaming
Facility, or as otherwise mutually
agreed by the parties. To effectuate
its consent to the foregoing arbitration procedure, the Tribe shall, in the
exercise of its sovereignty, expressly
waive, and also waive its right to assert, sovereign immunity in connection with the arbitrator’s jurisdiction
and in any state or federal court action to (i) enforce the parties’ obligation to arbitrate, (ii) confirm, correct,
or vacate the arbitral award rendered in the arbitration in accordance with section 1285 et seq. of the
California Code of Civil Procedure, or
(iii) enforce or execute a judgment

App. 204
based upon the award. The Tribe
agrees not to assert, and will waive,
any defense alleging improper venue
or forum non conveniens as to any
state court located within the County
or any federal court located in the
Eastern District of California in any
such action brought with respect to
the arbitration award.
[84] (3) The employment discrimination
complaint ordinance required under subdivision (f )(2) may require, as a prerequisite to binding arbitration under
subdivision (f )(2)(D), that the claimant
exhaust the Tribe’s administrative remedies, if any exist, in the form of a tribal
employment discrimination complaint
resolution process, for resolving the claim
in accordance with the following standards:
(A) Upon notice that the claimant alleges that he or she has suffered prohibited harassment, retaliation, or
employment discrimination, the
Tribe or its designee shall provide notice by personal service or certified
mail, return receipt requested, that
the claimant is required to proceed
with the Tribe’s employment discrimination complaint resolution
process in the event that the claimant wishes to pursue his or her claim.

App. 205
(B) The claimant must bring his or her
claim within one hundred eighty
(180) days of receipt of the written
notice (“limitation period”) of the
Tribe’s employment discrimination
complaint resolution process as long
as the notice thereof is served personally on the claimant or by certified mail with an executed return
receipt by the claimant and the one
hundred eighty (180)-day limitation
period is prominently displayed on
the front page of the notice.
(C) The arbitration may be stayed until
the completion of the Tribe’s employment discrimination complaint resolution process or one hundred eighty
(180) days from the date the claim
was filed, whichever first occurs, unless the parties mutually agree upon
a longer period.
(D) The decision of the Tribe’s employment discrimination complaint resolution process shall be in writing,
shall be based on the facts surrounding the dispute, shall be a reasoned
decision, and shall be rendered
within one hundred eighty (180) days
from the date the claim was filed, unless the parties mutually agree upon
a longer period.
[85] (4) Within fourteen (14) days following
notification that a claimant claims that

App. 206
he or she has suffered harassment, retaliation, or employment discrimination, the
Tribe shall provide notice by personal service or certified mail, return receipt requested, that the claimant is required
within the specified limitation period to
first exhaust the Tribe’s employment discrimination complaint resolution process,
if any exists, and if dissatisfied with the
resolution, is entitled to arbitrate his or
her claim before a retired judge in a binding arbitration proceeding, at no cost to
the claimant (except for the claimant’s attorney’s fees).
(5) In the event the Tribe fails to adopt the
ordinance specified in subdivision (f )(2),
such failure shall constitute a breach of
these Secretarial Procedures.
(6) The Tribe shall provide written notice of
the employment discrimination complaint ordinance and the procedures for
bringing a complaint in its employee
handbook. The Tribe also shall post and
keep posted in prominent and accessible
places in the Gaming Facility where notices to employees and applicants for employment are customarily posted, a notice
setting forth the pertinent provisions of
the employment discrimination complaint ordinance and information pertinent to the filing of a complaint.
(g) Adopt and comply with standards that are no
less stringent than State laws prohibiting a

App. 207
gambling enterprise from cashing any check
drawn against a federal, state, county, or city
fund, including but not limited to, Social Security, unemployment insurance, disability
payments, or public assistance payments.
(h) Adopt and comply with standards that are no
less stringent than State laws, if any, prohibiting a gambling or other gaming enterprise
from providing, allowing, contracting to provide, or arranging to provide alcoholic beverages, or food or lodging, for no charge or at
reduced prices at a gambling establishment or
lodging facility as an incentive or enticement.
[86] (i) Adopt and comply with standards that
are no less stringent than State laws, if any,
prohibiting extensions of credit.
(j)

Comply with provisions of the Bank Secrecy
Act, P.L. 91-508, October 26, 1970, 31 U.S.C.
§§ 5311-5314, as amended, and all reporting
requirements of the Internal Revenue Service, insofar as such provisions and reporting
requirements are applicable to gambling establishments.

(k) Adopt and comply with the Fair Labor Standards Act, 29 U.S.C. § 201, et seq., the United
States Department of Labor regulations implementing the Fair Labor Standards Act, 29
C.F.R. § 500, et seq., the State’s minimum
wage law set forth in California Labor Code
section 1182.12, and the State Department of
Industrial Relations regulations implementing the State’s minimum wage law, California
Code of Regulations, title 8, section 1100 et

App. 208
seq. Notwithstanding the foregoing, only the
federal minimum wage laws set forth in the
Fair Labor Standards Act, 29 Code of Federal
Regulations, part 500 et seq., shall apply to
tipped employees. Nothing herein shall make
applicable state law concerning overtime.
Sec. 12.4. Tribal Gaming Facility Standards
Ordinance.
The Tribe shall adopt in the form of an ordinance
the standards described in subdivisions (a) through (k)
of section 12.3 to which the Gaming Operation is held,
and shall transmit the ordinance to the State Gaming
Agency not later than sixty (60) days after the effective
date of these Secretarial Procedures, or sixty (60) days
prior to the commencement of Gaming Activities under
these Secretarial Procedures. In the absence of a promulgated tribal standard in respect to a matter identified in those subdivisions, or the express adoption of an
applicable federal and/or State statute or regulation,
as the case may be, in respect of any such matter, the
otherwise applicable federal and/or State statute or
regulation shall be deemed to have been adopted by
the Tribe as the applicable standard.
Sec. 12.5. Insurance Coverage and Claims.
(a) The Tribe shall obtain and maintain commercial general liability insurance consistent
with industry standards for non-tribal casinos
in the United States underwritten by an insurer with an A.M. Best rating of A or higher

App. 209
which provides coverage of no less than ten
million [87] dollars ($10,000,000) per occurrence for bodily injury, personal injury, and
property damage arising out of, connected
with, or relating to the operation of the Gaming Facility or Gaming Activities (Policy). To
effectuate the insurance coverage, the Tribe
shall expressly waive, and waive its right to
assert, sovereign immunity up to the greater
of ten million dollars ($10,000,000) or the limits of the Policy, in accordance with the tribal
ordinance referenced in subdivision (b) below,
in connection with any claim for bodily injury,
personal injury, or property damage, arising
out of, connected with, or relating to the operation of the Gaming Operation, Gaming Facility, or the Gaming Activities, including, but
not limited to, injuries resulting from entry
onto the Tribe’s land for purposes of patronizing the Gaming Facility or providing goods or
services to the Gaming Facility; provided,
however, that nothing herein requires the
Tribe to agree to liability for punitive damages or to waive its right to assert sovereign
immunity in connection therewith. The Policy
shall acknowledge in writing that the Tribe
has expressly waived, and waived its right to
assert, sovereign immunity for the purpose of
arbitration of those claims up to the greater of
ten million dollars ($10,000,000) or the limits
of the Policy referred to above and for the purpose of enforcement of any ensuing award or
judgment and shall include an endorsement
providing that the insurer shall not invoke
tribal sovereign immunity up to the limits of

App. 210
the Policy; however, such endorsement or
acknowledgement shall not be deemed to
waive or otherwise limit the Tribe’s sovereign
immunity for any portion of the claim that exceeds ten million dollars ($10,000,000) or the
Policy limits, whichever is greater.
(b) The Tribe shall adopt, and at all times hereinafter shall maintain in continuous force, an
ordinance that provides for all of the following:
(1) The ordinance shall provide that the
Tribe shall adopt as tribal law, provisions
that are the same as California tort law
to govern all claims of bodily injury, personal injury, or property damage arising
out of, connected with, or relating to the
operation of the Gaming Operation, Gaming Facility, or the Gaming Activities, including but not limited to injuries
resulting from entry onto the Tribe’s land
for purposes of patronizing the Gaming
Facility or providing goods or services to
the Gaming Facility, provided that California law governing [88] punitive damages need not be a part of the ordinance.
Further, the Tribe may include in the ordinance required by this subdivision a requirement that a person with claims for
money damages against the Tribe file
those claims within the time periods applicable for the filing of claims for money
damages against public entities under
California Government Code section 810,
et seq.

App. 211
(2) The ordinance shall also expressly provide for waiver of the Tribe’s sovereign
immunity and its right to assert sovereign immunity with respect to the arbitration or resolution of such claims in the
Tribe’s tribal court system, once a tribal
court system is established, but only up to
the greater of ten million dollars
($10,000,000) or the limits of the Policy;
provided, however, such waiver shall not
be deemed to waive or otherwise limit the
Tribe’s sovereign immunity for any portion of the claim that exceeds ten million
dollars ($10,000,000) or the Policy limits,
whichever is greater.
(3) The ordinance shall allow for the dispute
to be settled either in the Tribe’s tribal
court system, once a tribal court system
is established, or by binding arbitration
before a JAMS arbitrator, in accordance
with JAMS Comprehensive Arbitration.
The decision to choose either the tribal
court system or JAMS Comprehensive
Arbitration shall be at the claimant’s sole
discretion. Resolution of the dispute before the tribal court system shall be at no
cost to the claimant (excluding claimant’s
attorney’s fees). The cost and expenses of
the JAMS Comprehensive Arbitration
shall be initially borne equally by the parties and the parties shall pay their share
of the arbitration costs at the time of
claimant’s election of the arbitration option, but the arbitrator may award costs
(but not attorney’s fees) to the prevailing

App. 212
party not to exceed those allowable in a
suit in California Superior Court.
(4) The Tribe shall consent to tribal court adjudication or binding JAMS Comprehensive Arbitration before a JAMS arbitrator
to the extent of the limits of the Policy,
that discovery in the arbitration proceedings shall be governed by section 1283.05
of the California Code of Civil Procedure,
that the Tribe and the [89] claimant shall
initially bear the cost of JAMS and the
JAMS arbitrator equally, to be paid at the
time of election of arbitration but that the
JAMS arbitrator may award costs (but
not attorney’s fees) to the prevailing
party not to exceed those allowable in a
suit in California Superior Court, and
that any party dissatisfied with the
award of the arbitrator may at the party’s
election invoke the JAMS Optional Arbitration Appeal Procedure (or if those
rules no longer exist, the closest equivalent), provided that the party making
such election must bear all costs and
expenses of JAMS and the JAMS arbitrators associated with the Appeal Procedure, regardless of the outcome.
(5) To effectuate its consent to the tribal
court system or JAMS Comprehensive
Arbitration, and JAMS Optional Arbitration Appeal Procedure in the ordinance,
the Tribe shall, in the exercise of its sovereignty, expressly waive, and also waive
its right to assert, sovereign immunity in

App. 213
connection with the arbitrator’s jurisdiction and in any action to (i) enforce the
parties’ obligation to arbitrate, (ii) confirm, correct, modify, or vacate the arbitral award rendered in the arbitration, or
(iii) enforce or execute a judgment based
upon the award.
(6) The ordinance may also require that the
claimant first exhaust the Tribe’s administrative remedies for resolving the claim
(hereinafter the “Tribal Dispute Process”)
in accordance with the following standards: The claimant must bring his or her
claim within one hundred eighty (180)
days of receipt of written notice of the
Tribal Dispute Process as long as notice
thereof is served personally on the claimant or by certified mail with an executed
return receipt by the claimant and the
one hundred eighty (180)-day limitation
period is prominently displayed on the
front page of the notice. The ordinance
may provide that any arbitration or tribal
court adjudication shall be stayed until
the completion of the Tribal Dispute Process or one hundred eighty (180) days
from the date the claim is filed in the
Tribal Dispute Process, whichever first
occurs, unless the parties mutually agree
to a longer period.

App. 214
[90] (c) Upon notice that a claimant claims to
have suffered an injury or damage covered by
this section, the Tribe shall provide notice by
personal service or certified mail, return receipt requested, that the claimant is required
within the specified limitation period to first
exhaust the Tribal Dispute Process, if any, and
if dissatisfied with the resolution, entitled to
adjudicate his or her claim de novo in the
Tribe’s tribal court system, once a tribal court
system is established, or arbitrate his or her
claim de novo before a retired judge.
(d) In the event the Tribe fails to adopt the ordinance specified in subdivision (b), such failure
shall constitute a breach of these Secretarial
Procedures.
(e) The Tribe shall not invoke on behalf of any
employee or agent, the Tribe’s sovereign immunity in connection with any claim for, or
any judgment based on any claim for, intentional injury to persons or property committed
by the employee or authorized agent, without
regard to the Tribe’s liability insurance limits.
Nothing in this subdivision prevents the Tribe
from invoking sovereign immunity on its own
behalf or authorizes a claim against the Tribe
or a tribally owned entity.
Sec. 12.6. Participation in State Programs
Related to Employment.
(a) The Tribe agrees that it will participate in the
State’s workers’ compensation program with
respect to employees employed at the Gaming

App. 215
Operation and the Gaming Facility. The workers’ compensation program includes, but is
not limited to, state laws relating to the securing of payment of compensation through one
or more insurers duly authorized to write
workers’ compensation insurance in this
State or through self-insurance as permitted
under the State’s workers’ compensation laws.
All disputes arising from the workers’ compensation laws shall be heard by the Workers’
Compensation Appeals Board pursuant to the
California Labor Code. The Tribe hereby consents to the jurisdiction of the Workers’ Compensation Appeals Board and the courts of the
State of California for purposes of enforcement. The parties agree that independent
contractors doing business with the Tribe are
bound by all state workers’ compensation
laws and obligations.
[91] (b) In lieu of permitting the Gaming Operation to participate in the State’s workers’ compensation system, the Tribe may create and
maintain a system that provides redress for
employee work-related injuries through requiring insurance or self-insurance, which
system must include a scope of coverage, provision of up to ten thousand dollars ($10,000)
in medical treatment for alleged injury until
the date that liability for the claim is accepted
or rejected, employee choice of physician (either after thirty (30) days from the date of the
injury is reported or if a medical provider network has been established, within the medical
provider network), quality and timely medical
treatment provided comparable to the state’s

App. 216
medical treatment utilization schedule, availability of an independent medical examination to resolve disagreements on appropriate
treatment (by an Independent Medical Reviewer on the state’s approved list, a Qualified
Medical Evaluator on the state’s approved
list, or an Agreed Medical Examiner upon mutual agreement of the employer and employee), the right to notice, hearings before an
independent tribunal, a means of enforcement
against the employer, and benefits (including,
but not limited to, disability, rehabilitation
and return to work) comparable to those mandated for comparable employees under state
law. Not later than the effective date of these
Secretarial Procedures, or sixty (60) days
prior to the commencement of Gaming Activities under these Secretarial Procedures, the
Tribe will advise the State of its election to
participate in the State’s workers’ compensation system or, alternatively, will forward to
the State all relevant ordinances that have
been adopted and all other documents establishing the system and demonstrating that
the system is fully operational and compliant
with the comparability standard set forth
above. The parties agree that independent
contractors doing business with the Tribe
must comply with all state workers’ compensation laws and obligations.
(c) The Tribe agrees that it will participate in the
State’s program for providing unemployment
compensation benefits and unemployment
compensation disability benefits with respect
to employees employed at the Gaming

App. 217
Operation or Gaming Facility, which participation shall include compliance with the
provisions of the California Unemployment
Insurance Code, and the Tribe consents to the
jurisdiction of the State agencies charged
with the enforcement of that Code and of the
courts of the State of California for purposes
of enforcement.
[92] (d) As a matter of comity, the Tribe shall,
with respect to persons, including nonresidents of California, employed at the Gaming
Operation or Gaming Facility, withhold all
taxes due to the State as provided in the California Unemployment Insurance Code, except for tribal members living on the Tribe’s
reservation, as provided in the California Revenue and Taxation Code and the regulations
thereunder, as may be amended from time to
time, and shall forward such amounts to the
State. The Tribe shall file with the Franchise
Tax Board a copy of any information return
filed with the Secretary of the Treasury, as
provided in the California Revenue and Taxation Code and the regulations thereunder, except those pertaining to tribal members living
on the Tribe’s reservation. For purposes of this
subdivision, “reservation” refers to the Tribe’s
Indian lands within the meaning of IGRA or
lands otherwise held in trust for the Tribe by
the United States, and “tribal members” refers to the enrolled citizens of the Tribe.
(e) As a matter of comity, the Tribe shall, with respect to the earnings of any person employed
at the Gaming Operation or Gaming Facility,

App. 218
comply with all earnings withholding orders
for support of a child, or spouse or former
spouse, and all other orders by which the
earnings of an employee are required to be
withheld by an employer pursuant to chapter
5 (commencing with section 706.010) of division 1 of title 9 of part 2 of the California Code
of Civil Procedure, and with all earnings assignment orders for support made pursuant to
chapter 8 (commencing with section 5200) of
part 5 of division 9 of the California Family
Code or section 3088 of the California Probate
Code.
Sec. 12.7. Emergency Services Accessibility.
The Tribe shall make reasonable provisions for adequate emergency fire, medical, and related relief and
disaster services for patrons and employees of the
Gaming Facility.
Sec. 12.8. Alcoholic Beverage Service.
[93] Purchase, sale, and service of alcoholic beverages by or to patrons shall be subject to state alcoholic
beverage laws.
Sec. 12.9. Possession of Firearms.
The possession of firearms by any person in the
Gaming Facility is prohibited at all times, except for
federal, state, or local law enforcement personnel, or

App. 219
tribal law enforcement or security personnel authorized by tribal law and federal or state law to possess
firearms at the Gaming Facility.
Sec. 12.10. Labor Relations.
The Gaming Activities authorized by these Secretarial Procedures may only commence after the Tribe
has adopted an ordinance identical to the Tribal Labor
Relations Ordinance attached hereto as Appendix C,
and the Gaming Activities may only continue as long
as the Tribe maintains the ordinance. The Tribe shall
provide written notice to the State that it has adopted
the ordinance, along with a copy of the ordinance, at
least sixty (60) days prior to the commencement of
Gaming Activities under these Secretarial Procedures.
SECTION 13.0. DISPUTE RESOLUTION PROVISIONS.
Sec. 13.1. Voluntary Resolution; Court Resolution.
In recognition of the government-to-government
relationship of the Tribe and the State, the parties
shall make their best efforts to resolve disputes that
arise under these Secretarial Procedures by good faith
negotiations whenever possible. Therefore, except for
the right of either party to seek injunctive relief
against the other when circumstances are deemed to
require immediate relief, the Tribe and the State shall
seek to resolve disputes by first meeting and conferring
in good faith in order to foster a spirit of cooperation

App. 220
and efficiency in the administration and monitoring of
the performance and compliance of the terms, provisions, and conditions of these Secretarial Procedures,
as follows:
(a) Either party shall give the other, as soon as
possible after the event giving rise to the concern, a written notice setting forth the facts
giving rise to the dispute and with specificity,
the issues to be resolved.
[94] (b) The other party shall respond in writing
to the facts and issues set forth in the notice
within fifteen (15) days of receipt of the notice,
unless both parties agree in writing to an extension of time.
(c) The parties shall meet and confer in good
faith by telephone or in person in an attempt
to resolve the dispute through negotiation
within thirty (30) days after receipt of the notice set forth in subdivision (a), unless both
parties agree in writing to an extension of
time.
(d) If the dispute is not resolved to the satisfaction of the parties after the first meeting, either party may seek to have the dispute
resolved by an arbitrator in accordance with
this section, but neither party shall be required to agree to submit to arbitration.
(e) Disputes that are not otherwise resolved by
arbitration or other mutually agreed means
may be resolved in the United States District
Court in the judicial district where the Tribe’s
Gaming Facility is located, or if those federal

App. 221
courts lack jurisdiction, in any state court of
competent jurisdiction in or over the County.
The disputes to be submitted to court action
are limited to claims of breach of these Secretarial Procedures, provided that the remedies
expressly provided in section 13.4, subdivision
(a)(ii) are the sole and exclusive remedies
available to either party for issues arising out
of these Secretarial Procedures, and supersede any remedies otherwise available,
whether at law, tort, contract, or in equity and,
notwithstanding any other provision of law or
these Secretarial Procedures, neither the
State nor the Tribe shall be liable for money
damages or attorney’s fees in any action based
in whole or in part on the fact that the parties
have either entered into these Secretarial
Procedures, or have obligations under these
Secretarial Procedures. The parties are entitled to all rights of appeal permitted by law in
the court system in which the action is
brought.
(f ) In no event may the Tribe be precluded from
pursuing any arbitration or judicial remedy
against the State on the ground that the Tribe
has failed to exhaust its State administrative
remedies, and in no event may the State be
precluded from pursuing any arbitration or
judicial remedy against the Tribe on the
ground that the State has failed to exhaust
any tribal administrative remedies.

App. 222
[95] Sec. 13.2. Arbitration Rules for the Tribe
and the State.
Arbitration between the Tribe and the State shall
be conducted before a JAMS arbitrator in accordance
with JAMS Comprehensive Arbitration. Discovery in
the arbitration proceedings shall be governed by section 1283.05 of the California Code of Civil Procedure,
provided that no discovery authorized by that section
may be conducted without leave of the arbitrator. The
parties shall equally bear the cost of JAMS and the
JAMS arbitrator. Either party dissatisfied with the
award of the arbitrator may at the party’s election invoke the JAMS Optional Arbitration Appeal Procedure
(or if those rules no longer exist, the closest equivalent). In any JAMS arbitration under this section 13.2,
the parties will bear their own attorney’s fees. The arbitration shall take place within seventy-five (75)
miles of the Gaming Facility, or as otherwise mutually
agreed by the parties and the parties agree that either
party may file a state or federal court action to (i) enforce the parties’ obligation to arbitrate, (ii) confirm,
correct, or vacate the arbitral award rendered in the
arbitration in accordance with section 1285 et seq. of
the California Code of Civil Procedure, or (iii) enforce
or execute a judgment based upon the award. In any
such action brought with respect to the arbitration
award, the parties agree that venue is proper in any
state court located within the County or in any federal
court located in the Eastern District of California.

App. 223
Sec. 13.3. No Waiver or Preclusion of Other
Means of Dispute Resolution.
This section 13.0 may not be construed to waive,
limit, or restrict any remedy to address issues not arising out of these Secretarial Procedures that is otherwise available to either party, nor may this section 13.0
be construed to preclude, limit, or restrict the ability of
the parties to pursue, by mutual agreement, any other
method of Secretarial Procedures dispute resolution,
including, but not limited to, mediation.
Sec. 13.4. Limited Waiver of Sovereign Immunity.
(a) For the purpose of actions or arbitrations
based on disputes between the State and the
Tribe that arise under these Secretarial Procedures and the enforcement of any judgment
or award resulting therefrom, the State and
the Tribe expressly waive their right to assert
their [96] sovereign immunity from suit and
enforcement of any ensuing judgment or arbitral award and consent to the arbitrator’s jurisdiction and further consent to be sued in
federal or state court, as the case may be, provided that: (i) the dispute is limited solely to
issues arising under these Secretarial Procedures, (ii) neither the Tribe nor the State
makes any claim for restitution or monetary
damages, except that payment of any money
expressly required by the terms of these Secretarial Procedures may be sought, and
solely injunctive relief, specific performance

App. 224
(including enforcement of a provision of these
Secretarial Procedures expressly requiring
the payment of money to one or another of the
parties), and declaratory relief (limited to a
determination of the respective obligations of
the parties under these Secretarial Procedures) may be sought, and (iii) nothing herein
shall be construed to constitute a waiver of
the sovereign immunity of either the Tribe or
the State with respect to any third party that
is made a party or intervenes as a party to the
action.
(b) In the event that intervention, joinder, or
other participation by any additional party in
any action between the State and the Tribe
would result in the waiver of the Tribe’s or the
State’s sovereign immunity as to that additional party, the waivers of either the Tribe or
the State provided herein may be revoked, except where joinder is required to preserve the
court’s jurisdiction, in which case the State
and the Tribe may not revoke their waivers of
sovereign immunity as to each other.
(c) The waivers and consents to jurisdiction expressly provided for under this section 13.0
and elsewhere in these Secretarial Procedures shall extend to all arbitrations and
civil actions expressly authorized by these
Secretarial Procedures, including actions to
compel arbitration, any arbitration proceeding herein, any action to confirm, modify, or
vacate any arbitral award or to enforce any
judgment, and any appellate proceeding

App. 225
emanating from any such proceedings,
whether in state or federal court.
(d) Except as stated herein or elsewhere in these
Secretarial Procedures, no other waivers or
consents to be sued, either express or implied,
are granted by either party, whether in state
statute or otherwise, including but not limited
to Government Code section 98005.
[97] SECTION 14.0. EFFECTIVE DATE AND TERM
OF SECRETARIAL PROCEDURES.
Sec. 14.1. Effective Date.
These Secretarial Procedures shall be effective immediately when signed by the Assistant Secretary-Indian Affairs.
Sec. 14.2. Term of Secretarial Procedures;
Termination.
(a) Once effective, these Secretarial Procedures
shall be in full force and effect for twenty-five
(25) years following the effective date.
(b) If the Tribe and the State have not agreed to
enter into a new compact by the termination
date, these Secretarial Procedures will automatically be extended one (1) calendar year,
unless the Tribe and the State have agreed to
a superseding Class III gaming compact. Six
(6) months prior to the final expiration date,
the Tribe may request an additional extension
of these Secretarial Procedures, which shall
be granted if the Tribe and the State have not

App. 226
entered into a superseding Class III gaming
compact.
(c) The Tribe, acting under a duly adopted resolution or ordinance of its governing body, may
at any time, request that the Secretary withdraw these Secretarial Procedures, whereupon the Tribe would no longer be authorized
to operate Class III gaming under IGRA on its
Indian lands unless or until the Tribe and the
State enter into a Class III gaming compact
approved by the Secretary and published in
the Federal Register.
SECTION 15.0. AMENDMENTS; RENEGOTIATIONS.
Sec. 15.1. Amendment by Agreement.
The terms and conditions of these Secretarial Procedures may be superseded at any time by a Class III
gaming compact entered into by the mutual and written agreement of the Tribe and the State that is in effect under IGRA. Any such Class III gaming compact
shall provide that these Secretarial Procedures be
withdrawn and shall have no further force or effect
upon publication of approval of the Class III gaming
compact in the Federal Register.
[98] Sec. 15.2. Negotiations.
(a) These Secretarial Procedures are subject to
amendment in the event the Tribe wishes to
engage in forms of Class III gaming authorized in the state, provided that no such

App. 227
amendment may be sought for 12 months following the effective date of these Secretarial
Procedures.
(b) Nothing herein shall be construed to constitute a waiver of any rights under IGRA in the
event of an expansion of the scope of permissible gaming resulting from a change in state
law.
Sec. 15.3. Requests to Negotiate a New Compact.
All requests to negotiate a tribal-state Class III
gaming compact shall be in writing, addressed to the
Tribal Chair or the Governor, as the case may be, and
shall include the activities or circumstances to be
negotiated, together with a statement of the basis
supporting the request. If the request meets the requirements of this section the parties are encouraged
to confer promptly and determine a schedule for negotiations within 30 days of the request. Unless expressly
provided otherwise herein, all matters involving negotiations for a new Class III gaming compact shall be
governed, controlled, and conducted in conformity with
the provisions and requirements of IGRA, including
those provisions regarding the obligation of the State
to negotiate in good faith and the enforcement of that
obligation in Federal court.

App. 228
SECTION 16.0. NOTICES.
Unless otherwise indicated by these Secretarial
Procedures, all notices required or authorized to be
served shall be served by first-class mail or facsimile
transmission to the following addresses as applicable,
or to such other address as either party may designate
by written notice to the other:
Governor
Governor’s Office
State Capitol
Sacramento, CA 95814
Director, Office of
Indian Gaming
1849 C Street, N. W.,
MS 3657-MIB
Washington, DC 20240

Tribal Chairperson
North Fork Rancheria
of Mono Indians
33143 Road 222
North Fork, CA 93643

[99] If the State Gaming Agency has undertaken the
regulatory responsibilities vested in the Agency under
the Secretarial Procedures:
California Gambling Control Commission
2399 Gateway Oaks Drive, Ste. 220
Sacramento, California 95833
SECTION 17.0. CHANGES TO IGRA.
These Secretarial Procedures are intended to meet
the requirements of IGRA as it reads on the effective
date of these Secretarial Procedures, and, when reference is made to IGRA or to an implementing regulation
thereof, the referenced provision is deemed to have

App. 229
been incorporated into these Secretarial Procedures as
if set out in full. Subsequent changes to IGRA that
diminish the rights of the State or the Tribe may not
be applied retroactively to alter the terms of these
Secretarial Procedures, except to the extent that federal law validly mandates retroactive application without the Tribe’s consent.
SECTION 18.0. MISCELLANEOUS.
Sec. 18.1. Third-Party Beneficiaries.
Except to the extent expressly provided herein,
these Secretarial Procedures are not intended to, and
shall not be construed to, create any right on the part
of a third party to bring an action to enforce any of its
terms.
Sec. 18.2. Complete Agreement.
These Secretarial Procedures, together with all
appendices, set forth the full and complete authorization by the Secretary of the Interior for the Tribe to
conduct class III gaming on its Indian lands pursuant
to IGRA and supersede any prior agreements or understandings with respect to the subject matter hereof
On the effective date of these Secretarial Procedures, any and all prior tribal-state Class III gaming
compacts entered into between the Tribe and the State
shall be null and void and of no further force and effect.

App. 230
[100] Sec. 18.3. Construction.
Neither the presence in another tribal-state Class
III Gaming compact of language that is not included in
these Secretarial Procedures, nor the absence in another tribal state Class III Gaming compact of language that is present in these Secretarial Procedures
shall be a factor in construing the terms of these Secretarial Procedures
Compliance with Mediator’s Choice of Last Best
Offer Compact. These Secretarial Procedures are
promulgated in compliance with the requirements of
IGRA’s remedial provisions, 25 U. S. C. §2710 (d)(7),
and are consistent with the essential terms of the last
best offer Class III gaming compact selected by the mediator appointed by the court in North Fork Rancheria
of Mono Indians of California vs. State of California,
No. 1:15-cv-00419-AWI-SAB (E.D. Cal. Filed Mar. 17,
2015), JAMS Reference Number 1100083303. Under
IGRA, these Secretarial Procedures are properly
viewed as a full substitute for a Class III gaming compact that would be in effect had a voluntary agreement
been reached between the Tribe and the State, or if the
State had consented to the court-appointed mediator’s
selection. Therefore, these Secretarial Procedures
qualify for the exemption to the criminal prohibitions
on gaming provided by Section 23 of IGRA.
Sec. 18.4. Successor Provisions.
Wherever these Secretarial Procedures make reference to a specific statutory provision, regulation, or

App. 231
set of rules, it also applies to the provision or rules, as
they may be amended from time to time, and any successor provision or set of rules.
Sec. 18.5. Ordinances and Regulations.
Whenever the Tribe adopts or amends any ordinance or regulations required to be adopted and/or
maintained under these Secretarial Procedures, in addition to any other obligations to provide a copy to others, the Tribe shall provide a copy of such adopted or
amended ordinance or regulations to the State Gaming
Agency within thirty (30) days of the effective date of
such ordinance or regulations.
Sec. 18.6. Calculation of Time.
In computing any period of time prescribed by
these Secretarial Procedures, the day of the event from
which the designated period of time begins to run shall
[101] not be included. The last day of the period so computed shall be included, unless it is a Saturday, a Sunday, or a legal holiday under the Tribe’s laws, State law,
or federal law. Unless otherwise specifically provided
herein, the term “days” shall be construed as calendar
days.
Sec. 18.7. Most Favored Nation.
If, after the effective date of these Secretarial Procedures, the State enters into a Compact with any
other tribe that contains more favorable provisions

App. 232
with respect to any provisions of these Secretarial Procedures, at the Tribe’s request, the Secretary, or her or
his designee, shall meet and confer with the Tribe regarding modifying these Secretarial Procedures. The
duration of any resulting modification of these Secretarial Procedures shall comply with Section 14.2 (c).
The Secretary’s agreement to modify these Secretarial
Procedures as provided in this section shall be not unreasonably withheld or delayed.
IN WITNESS WHEREOF, the undersigned executes these Secretarial Procedures on behalf of the Secretary of the United States Department of the Interior.
Done, this 29 day of July

, 2016

/s/ Lawrence S. Roberts
Lawrence S. Roberts,
Acting Assistant Secretary – Indian Affairs

APPENDICES
A. Description and Map of the Madera Parcel
B. Off-Reservation Environmental Impact Analysis
Checklist
C. Tribal Labor Relations Ordinance

App. 233
APPENDIX A
Map and Description of
Proposed Class III Gaming Site
Real Property in the unincorporated area of the
County of Madera, State of California, described as follows:
Parcel No. 1: APN: 033-030-010 thru 015 and 017.
Parcels 1, 2, 3, 4, 5, 6, and 8 of Parcel Map 3426 in the
unincorporated area of the County of Madera, State of
California, as per map recorded September 7, 1995, in
Book 44, Pages 15 and 16 of Parcel Maps, in the office
of the County Recorder of said county.

App. 234
APPENDIX B
Off-Reservation Environmental
Impact Analysis Checklist
I.

Aesthetics

Would the project:
a)

Have a substantial adverse effect on a scenic
vista?

b)

Substantially damage off-reservation scenic resources, including, but not limited to, trees, rock
outcroppings, and historic buildings within a state
scenic highway?

c)

Create a new source of substantial light or glare,
which would adversely affect day or nighttime
views of historic buildings or views in the area?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

II.

Agricultural and Forest Resources

Would the project:
a)

Involve changes in the existing environment,
which, due to their location or nature, could result
in conversion of off-reservation farmland to nonagricultural use?

App. 235
Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

III.

Air Quality

Would the project:
a)

Conflict with or obstruct implementation of the
applicable air quality plan?

b)

Violate any air quality standard or contribute to
an existing or projected air quality violation?

c)

Result in a cumulatively considerable net increase
of any criteria pollutant for which the project region is non-attainment under an applicable federal or state ambient air quality standard
(including releasing emissions, which exceed
quantitative thresholds for ozone precursors)?

d)

Expose off-reservation sensitive receptors to substantial pollutant concentrations?

e)

Create objectionable odors affecting a substantial
number of people off-reservation?

App. 236
Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

IV.

Biological Resources

Would the project:
a)

Have a substantial adverse impact, either directly
or through habitat modifications, on any species in
local or regional plans, policies, or regulations, or
by the California Department of Fish and Game or
U.S. Fish and Wildlife Service?

b)

Have a substantial adverse effect on any off-reservation riparian habitat or other sensitive natural
community identified in local or regional plans,
policies, and regulations or by the California Department of Fish and Game or U.S. Fish and Wildlife Service?

c)

Have a substantial adverse effect on federally protected off-reservation wetlands as defined by Section 404 of the Clean Water Act?

d)

Interfere substantially with the movement of any
native resident or migratory fish or wildlife species or with established native resident or migratory wildlife corridors, or impede the use of native
wildlife nursery sites?

App. 237
e)

Conflict with the provisions of an adopted Habitat
Conservation Plan, Natural Community Conservation Plan, or other approved local, regional, or
state habitat conservation plan?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

V.

Cultural Resources

Would the project:
a)

Cause a substantial adverse change in the significance of an off-reservation historical or archeological resource?

b)

Directly or indirectly destroy a unique off-reservation paleontological resource or site or unique offreservation geologic feature?

c)

Disturb any off-reservation human remains, including those interred outside of formal cemeteries?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

App. 238
VI.

Geology and Soils

Would the project:
a)

Expose off-reservation people or structures to potential substantial adverse effects, including the
risk of loss, injury, or death involving:
i)

Rupture of a known earthquake fault, as delineated on the most recent Alquist-Priolo
Earthquake Fault Zoning Map issued by the
State Geologist for the area or based on other
substantial evidence of a known fault? Refer
to Division of Mines and Geology Special Publication 42.

ii)

Strong seismic ground shaking?

iii) Seismic-related ground failure, including liquefaction?
iv) Landslides?
b)

Result in substantial off-reservation soil erosion
or the loss of topsoil?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

App. 239
VII.

Hazards and Hazardous Materials

Would the project:
a)

Create a significant hazard to the off-reservation
public or the off-reservation environment through
the routine transport, use, or disposal of hazardous materials?

b)

Create a significant hazard to the off-reservation
public or the off-reservation environment through
reasonably foreseeable upset and accident conditions involving the release of hazardous materials
into the environment?

c)

Emit hazardous emissions or handle hazardous or
acutely hazardous materials, substances, or waste
within one-quarter mile of an existing or proposed
off-reservation school?

d)

Expose off-reservation people or structures to a
significant risk of loss, injury or death involving
wildland fires.

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

App. 240
VIII.

Water Resources

Would the project:
a)

Violate any water quality standards or waste discharge requirements?

b)

Substantially deplete off-reservation groundwater
supplies or interfere substantially with groundwater recharge such that there should be a net
deficit in aquifer volume or a lowering of the local
groundwater table level (e.g., the production rate
of pre-existing nearby wells would drop to a level
which would not support existing land uses or
planned uses for which permits have been
granted)?

c)

Substantially alter the existing drainage pattern
of the site or area, including through the alteration of the course of a stream or river, in a manner
which would result in substantial erosion of siltation off-site?

d)

Substantially alter the existing drainage pattern
of the site or area, including through the alteration of the course of a stream or river, or substantially increase the rate or amount of surface runoff
in a manner which would result in flooding offsite?

e)

Create or contribute runoff water which would exceed the capacity of existing or planned storm water drainage systems or provide substantial
additional sources of polluted runoff off-reservation?

App. 241
f)

Place within a 100-year flood hazard area structures, which would impede or redirect off-reservation flood flows?

g)

Expose off-reservation people or structures to a
significant risk of loss, injury or death involving
flooding, including flooding as a result of the failure of a levee or dam?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

IX.

Land Use

Would the project:
a)

Conflict with any off-reservation land use plan,
policy, or regulation of an agency adopted for the
purpose of avoiding or mitigating an environmental effect?

b)

Conflict with any applicable habitat conservation
plan or natural communities conservation plan
covering off-reservation lands?

App. 242
Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

X.

Mineral Resources

Would the project:
a)

Result in the loss of availability of a known offreservation mineral resource classified MRZ-2 by
the State Geologist that would be of value to the
region and the residents of the state?

b)

Result in the loss of availability of an off-reservation locally important mineral resource recovery
site delineated on a local general plan, specific
plan, or other land use plan?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

App. 243
XI.

Noise

Would the project result in:
a)

Exposure of off-reservation persons to noise levels
in excess of standards established in the local general plan or noise ordinance, or applicable standards of other agencies?

b)

Exposure of off-reservation persons to excessive
groundborne vibration or groundborne noise levels?

c)

A substantial permanent increase in ambient
noise levels in the off-reservation vicinity of the
project?

d)

A substantial temporary or periodic increase in
ambient noise levels in the off-reservation vicinity
of the project?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

XII.

Population and Housing

Would the project:
a)

Induce substantial off-reservation population
growth?

App. 244
b)

Displace substantial numbers of existing housing,
necessitating the construction of replacement
housing elsewhere off-reservation?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

XIII.

Public Services

Would the project:
a)

Result in substantial adverse physical impacts
associated with the provision of new or physically
altered off-reservation governmental facilities, the
construction of which could cause significant environmental impacts, in order to maintain acceptable service ratios, response times, or other
performance objectives for any of the off-reservation public services:
Fire protection?
Police protection?
Schools?
Parks?
Other public facilities?

App. 245
Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

XIV.

Recreation

Would the project:
a)

Increase the use of existing off-reservation neighborhood and regional parks or other recreational
facilities such that substantial physical deterioration of the facility would occur or be accelerated?

Potentially
Significant
Impact

⬜
XV.

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation
⬜

⬜

⬜

Transportation/Traffic

Would the project:
a)

Cause an increase in off-reservation traffic, which
is substantial in relation to the existing traffic
load and capacity of the street system (i.e., result
in a substantial increase in either the number of
vehicle trips, the volume-to-capacity ratio on
roads, or congestion at intersections)?

App. 246
b)

Exceed, either individually or cumulatively, a level
of service standard established by the county congestion management agency for designated offreservation roads or highways?

c)

Substantially increase hazards to an off-reservation design feature (e.g., sharp curves or dangerous intersections) or incompatible uses (e.g., farm
equipment)?

d)

Result in inadequate emergency access for off-reservation responders?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

XVI.

Utilities and Service Systems

Would the project:
a)

Exceed off-reservation wastewater treatment requirements of the applicable Regional Water Quality Control Board?

b)

Require or result in the construction of new water
or wastewater treatment facilities or expansion of
existing facilities, the construction of which could
cause significant off-reservation environmental effects?

App. 247
c)

Require or result in the construction of new
storm water drainage facilities or expansion of
existing facilities, the construction of which
could cause significant off-reservation environmental effects?

d)

Result in a determination by an off-reservation
wastewater treatment provider (if applicable),
which serves or may serve the project that it has
inadequate capacity to serve the project’s projected demand in addition to the provider’s existing commitments?

Potentially
Significant
Impact

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation

⬜

⬜

⬜

⬜

⬜

⬜

⬜

⬜

XVII.

Cumulative Effects

Would the project:
a)

Have impacts that are individually limited, but
cumulatively considerable off-reservation? “Cumulatively considerable” means that the incremental effects of a project are considerable when
viewed in connection with the effects of past, current, or probable future projects.

App. 248
Potentially
Significant
Impact

⬜

Less Than
Less than No Impact
Significant
Significant
With
Impact
Mitigation
Incorporation
⬜

⬜

⬜

APPENDIX C
Tribal Labor Relations Ordinance
Section 1: Threshold of Applicability
(a) If the North Fork Rancheria of Mono Indians
(Tribe) employs 250 or more persons in a
tribal casino and related facility, it shall
adopt this Tribal Labor Relations Ordinance
(TLRO or Ordinance). For purposes of this
Ordinance, a “tribal casino” is one in which
class III gaming is conducted pursuant to the
tribal-state compact. A “related facility” is one
for which the only significant purpose is to
facilitate patronage of the class III gaming
operations.
(b) Upon the request of a labor union or organization (any organization of any kind, or any
agency or employee representation committee
or plan, in which employees participate and
which exists for the purpose, in whole or in
part, of dealing with employers concerning
grievances, labor disputes, wages, rates of pay,
hours of employment, or conditions of work),
the Tribal Gaming Commission shall certify

App. 249
the number of employees in a tribal casino or
other related facility as defined in subsection
(a) of this Section 1. Either party may dispute
the certification of the Tribal Gaming Commission to the Tribal Labor Panel, which is defined in Section 13 herein.
Section 2: Definition of Eligible Employees
(a) The provisions of this ordinance shall apply to
any person (hereinafter “Eligible Employee”)
who is employed within a tribal casino in
which class III gaming is conducted pursuant
to a tribal-state compact or other related facility, the only significant purpose of which is to
facilitate patronage of the class III gaming operations, except for any of the following:
(1) any employee who is a supervisor, defined
as any individual having authority, in the
interest of the Tribe and/or employer, to
hire, transfer, suspend, lay off, recall, promote, discharge, assign, reward, or discipline other employees, or responsibility to
direct them or to adjust their grievances,
or effectively to recommend such action,
if in connection with the foregoing the exercise of such authority is not of a merely
routine or clerical nature, but requires
the use of independent judgment;
(2) any employee of the Tribal Gaming Commission;
(3) any employee of the security or surveillance department, other than those who

App. 250
are responsible for the technical repair
and maintenance of equipment;
(4) any cash operations employee who is a
“cage” employee or money counter; or
(5) any dealer.
(b) On [month] 1 of each year, the Tribal Gaming
Commission shall certify the number of Eligible Employees employed by the Tribe to the
administrator of the Tribal Labor Panel.
Section 3: Non-Interference with Regulatory or
Security Activities
Operation of this Ordinance shall not interfere in
any way with the duty of the Tribal Gaming Commission to regulate the gaming operation in accordance
with the Tribe’s National Indian Gaming Commissionapproved gaming ordinance. Furthermore, the exercise
of rights hereunder shall in no way interfere with the
tribal casino’s surveillance/security systems, or any
other internal controls system designed to protect the
integrity of the Tribe’s gaming operations. The Tribal
Gaming Commission is specifically excluded from the
definition of Tribe and its agents.
Section 4: Eligible Employees Free to Engage in
or Refrain From Concerted Activity
Eligible Employees shall have the right to selforganization, to form, to join, or assist employee
organizations, to bargain collectively through representatives of their own choosing, to engage in other

App. 251
concerted activities for the purpose of collective bargaining or other mutual aid or protection, and shall
also have the right to refrain from any or all such activities.
Section 5: Unfair Labor Practices for the Tribe
It shall be an unfair labor practice for the Tribe
and/or employer or their agents:
(a) to interfere with, restrain or coerce Eligible
Employees in the exercise of the rights guaranteed herein;
(b) to dominate or interfere with the formation or
administration of any labor organization or
contribute financial or other support to it, but
this does not restrict the Tribe and/or employer and a certified union from agreeing to
union security or dues check off;
(c) to discharge or otherwise discriminate
against an Eligible Employee because s/he
has filed charges or given testimony under
this Ordinance; or
(d) after certification of the labor organization
pursuant to Section 10, to refuse to bargain
collectively with the representatives of Eligible Employees.

App. 252
Section 6: Unfair Labor Practices for the Union
It shall be an unfair labor practice for a labor organization or its agents:
(a) to interfere, restrain or coerce Eligible Employees in the exercise of the rights guaranteed herein;
(b) to engage in, or to induce or encourage any individual employed by any person engaged in
commerce or in an industry affecting commerce to engage in, a strike or a primary or
secondary boycott or a refusal in the course of
his employment to use, manufacture, process,
transport or otherwise handle or work on any
goods, articles, materials, or commodities or to
perform any services; or to threaten, coerce, or
restrain any person engaged in commerce or
in an industry affecting commerce or other
terms and conditions of employment. This section does not apply to Section 11;
(c) to force or require the Tribe and/or employer
to recognize or bargain with a particular labor
organization as the representative of Eligible
Employees if another labor organization has
been certified as the representative of such Eligible Employees under the provisions of this
TLRO;
(d) to refuse to bargain collectively with the Tribe
and/or employer, provided it is the representative of Eligible Employees subject to the provisions herein; or
(e) to attempt to influence the outcome of a tribal
governmental election, provided, however,

App. 253
that this section does not apply to tribal members.
Section 7: Tribe and Union Right to Free Speech
(a) The Tribe’s and union’s expression of any
view, argument or opinion or the dissemination thereof, whether in written, printed,
graphic or visual form, shall not constitute or
be evidence of interference with, restraint, or
coercion if such expression contains no threat
of reprisal or force or promise of benefit.
(b) The Tribe agrees that if a union first offers in
writing that it and its local affiliates will comply with (b)(1) and (b)(2), the Tribe shall comply with the provisions of (c) and (d).
(1) For a period of three hundred sixty-five
(365) days following delivery of a Notice
of Intent to Organize (NOIO) to the Tribe:
(A) not engage in strikes, picketing, boycotts, attack websites, or other economic activity at or in relation to the
tribal casino or related facility; and
refrain from engaging in strike-related picketing on Indian lands as defined in 25 U.S.C. § 2703(4);
(B) not disparage the Tribe for purposes
of organizing Eligible Employees;
(C) not attempt to influence the outcome
of a tribal government election; and

App. 254
(D) during the three hundred sixty-five
(365) days after the Tribe received
the NOIO, the Union must collect
dated and signed authorization cards
pursuant to Section 10 herein and
complete the secret ballot election
also in Section 10 herein. Failure to
complete the secret ballot election
within the three hundred sixty five
(365) days after the Tribe received
the NOIO shall mean that the union
shall not be permitted to deliver another NOIO for a period of two years
(730 days).
(2) Resolve all issues, including collective
bargaining impasses, through the binding dispute resolution mechanisms set
forth in Section 13 herein.
(c) Upon receipt of a NOIO, the Tribe shall:
(1) within two (2) days provide to the union
an election eligibility list containing the
full first and last names of the Eligible
Employees within the sought-after bargaining unit and the Eligible Employees’
last known addresses, telephone numbers
and email addresses;
(2) for period of three hundred sixty-five
(365) days thereafter, not act in any way
which is or could reasonably be perceived
to be anti-union. This includes refraining
from making derisive comments about
unions; publishing or posting pamphlets,

App. 255
fliers, letters, posters or any other communication which should be interpreted
as criticism of the union or advises Eligible Employees to vote “no” against the union. However, the Tribe shall be free at all
times to fully inform Eligible Employees
about the terms and conditions of employment it provides to employees and the advantages of working for the Tribe; and
(3) resolve all issues, including collective bargaining impasses, through the binding
dispute resolution mechanisms set forth
in Section 13 herein.
(d) The union’s offer in subsection (b) of this Section 7 shall be deemed an offer to accept the
entirety of this Ordinance as a bilateral contract between the Tribe and the union, and
the Tribe agrees to accept such offer. By entering into such bilateral contract, the union and
Tribe mutually waive any right to file any
form of action or proceeding with the National
Labor Relations Board for the three hundred
sixty-five (365)-day period following the
NOIO.
(e) The Tribe shall mandate that any entity responsible for all or part of the operation of the
casino and related facility shall assume the
obligations of the Tribe under this Ordinance.
If at the time of the management contract, the
Tribe recognizes a labor organization as the
representative of its employees, certified pursuant to this Ordinance, the labor organization will provide the contractor, upon request,

App. 256
the election officer’s certification which constitutes evidence that the labor organization has
been determined to be the majority representative of the Tribe’s Eligible Employees.
Section 8: Access to Eligible Employees
(a) Access shall be granted to the union for the
purposes of organizing Eligible Employees,
provided that such organizing activity shall
not interfere with patronage of the casino or
related facility or with the normal work routine of the Eligible Employees and shall be
done on non-work time in non-work areas that
are designated as employee break rooms or
locker rooms that are not open to the public.
The Tribe may require the union and or union
organizers to be subject to the same licensing
rules applied to individuals or entities with
similar levels of access to the casino or related
facility, provided that such licensing shall not
be unreasonable, discriminatory, or designed
to impede access.
(b) The Tribe, in its discretion, may also designate additional voluntary access to the Union
in such areas as employee parking lots and
non-casino facilities located on tribal lands.
(c) In determining whether organizing activities
potentially interfere with normal tribal work
routines, the union’s activities shall not be
permitted if the Tribal Labor Panel determines that they compromise the operation of
the casino:

App. 257
(1) security and surveillance systems
throughout the casino, and reservation;
(2) access limitations designed to ensure security;
(3) internal controls designed to ensure security; or
(4) other systems designed to protect the integrity of the Tribe’s gaming operations,
tribal property and/or safety of casino
personnel, patrons, employees or tribal
members, residents, guests or invitees.
(d) The Tribe agrees to facilitate the dissemination of information from the union to Eligible
Employees at the tribal casino by allowing
posters, leaflets and other written materials
to be posted in nonpublic employee break areas where the Tribe already posts announcements pertaining to Eligible Employees.
Actual posting of such posters, notices, and
other materials shall be by employees desiring to post such materials.
Section 9: Indian Preference Explicitly Permitted
Nothing herein shall preclude the Tribe from giving Indian preference in employment, promotion, seniority, lay-offs or retention to members of any federally
recognized Indian tribe or shall in any way affect the
Tribe’s right to follow tribal law, ordinances, personnel
policies or the Tribe’s customs or traditions regarding
Indian preference in employment, promotion, seniority,
layoffs or retention. Moreover, in the event of a conflict

App. 258
between tribal law, tribal ordinance or the Tribe’s customs and traditions regarding Indian preference and
this Ordinance, the tribal law, tribal ordinance, or the
Tribe’s customs and traditions shall govern.
Section 10: Secret Ballot Elections
(a) The election officer shall be chosen within
three (3) business days of notification by the
labor organization to the Tribe of its intention
to present authorization cards, and the same
election officer shall preside thereafter for all
proceedings under the request for recognition;
provided, however, that if the election officer
resigns, dies, or is incapacitated for any other
reason from performing the functions of this
office, a substitute election officer shall be
selected in accordance with the dispute resolution provisions herein. Dated and signed
authorized cards from thirty percent (30%) or
more of the Eligible Employees within the
bargaining unit verified by the elections officer will result in a secret ballot election. The
election officer shall make a determination as
to whether the required thirty percent (30%)
showing has been made within one (1) working day after the submission of authorization
cards. If the election officer determines the required thirty percent (30%) showing of interest has been made, the election officer shall
issue a notice of election. The election shall be
concluded within thirty (30) calendar days of
the issuance of the notice of election.

App. 259
(b) Upon the showing of interest to the election
officer pursuant to subsection (a), within two
(2) working days the Tribe shall provide to the
union an election eligibility list containing
the full first and last names of the Eligible
Employees within the sought after bargaining
unit and the Eligible Employees’ last known
addresses, telephone numbers and email addresses. Nothing herein shall preclude a
Tribe from voluntarily providing an election
eligibility list at an earlier point of a union
organizing campaign with or without an election.
(c) The election shall be conducted by the election
officer by secret ballot pursuant to procedures
set forth in a consent election agreement in
substantially the same form as Attachment 1.
In the event either that a party refuses to enter into the consent election agreement or
that the parties do not agree on the terms, the
election officer shall issue an order that conforms to the terms of the form consent election
agreement and shall have authority to decide
any terms upon which the parties have not
agreed, after giving the parties the opportunity to present their views in writing or in
a telephonic conference call. The election officer shall be a member of the Tribal Labor
Panel chosen pursuant to the dispute resolution provisions herein. All questions concerning representation of the Tribe and/or Eligible
Employees by a labor organization shall be resolved by the election officer.

App. 260
(d) The election officer shall certify the labor organization as the exclusive collective bargaining representative of a unit of employees if the
labor organization has received the support of
a majority of the Eligible Employees in a secret ballot election that the election officer determines to have been conducted fairly. The
numerical threshold for certification is fifty
percent (50%) of the Eligible Employees plus
one. If the election officer determines that the
election was conducted unfairly due to misconduct by the Tribe and/or employer or union, the election officer may order a re-run
election. If the election officer determines that
there was the commission of serious Unfair
Labor Practices by the Tribe, or in the event
the union made the offer provided for in Section 7(b) that the Tribe violated its obligations
under Section 7(c), that interferes with the
election process and precludes the holding of
a fair election, and the labor organization is
able to demonstrate that it had the support of
a majority of the employees in the unit at any
time before or during the course of the Tribe’s
misconduct, the election officer shall certify
the labor organization as the exclusive bargaining representative.
(e) The Tribe or the union may appeal within five
(5) days any decision rendered after the date
of the election by the election officer to a three
(3) member panel of the Tribal Labor Panel
mutually chosen by both parties, provided
that the Tribal Labor Panel must issue a decision within thirty (30) days after receiving the
appeal.

App. 261
(f ) A union which loses an election and has exhausted all dispute remedies related to the
election may not invoke any provisions of this
ordinance at that particular casino or related
facility until one (1) year after the election
was lost.
Section 11: Collective Bargaining Impasse
(a) Upon recognition, the Tribe and the union will
negotiate in good faith for a collective bargaining agreement covering bargaining unit employees represented by the union.
(b) Except where the union has made the written
offer set forth in Section 7(b), if collective bargaining negotiations result in impasse, the
union shall have the right to strike. Strike-related picketing shall not be conducted on Indian lands as defined in 25 U.S.C. § 2703(4).
(c) Where the union makes the offer set forth in
Section 7(b), if collective bargaining negotiations result in impasse, the matter shall be resolved as set forth in Section 13(c).
Section 12: Decertification of Bargaining Agent
(a) The filing of a petition signed by thirty percent (30%) or more of the Eligible Employees
in a bargaining unit seeking the decertification of a certified union, will result in a secret
ballot election. The election officer shall
make a determination as to whether the required thirty percent (30%) showing has been
made within one (1) working day after the

App. 262
submission of authorization cards. If the election officer determines the required thirty
percent (30%) showing of interest has been
made, the election officer shall issue a notice
of election. The election shall be concluded
within thirty (30) calendar days of the issuance of the notice of election.
(b) The election shall be conducted by an election
officer by secret ballot pursuant to procedures
set forth in a consent election agreement in
substantially the same form as Attachment 1.
The election officer shall be a member of the
Tribal Labor Panel chosen pursuant to the
dispute resolution provisions herein. All questions concerning the decertification of the union shall be resolved by an election officer. The
election officer shall be chosen upon notification to the Tribe and the union of the intent of
the Eligible Employees to present a decertification petition, and the same election officer
shall preside thereafter for all proceedings
under the request for decertification; provided
however that if the election officer resigns,
dies or is incapacitated for any other reason
from performing the functions of this office, a
substitute election officer shall be selected in
accordance with the dispute resolution provisions herein.
(c) The election officer shall order the labor organization decertified as the exclusive collective bargaining representative if a majority of
the Eligible Employees support decertification of the labor organization in a secret ballot
election that the election officer determines to

App. 263
have been conducted fairly. The numerical
threshold for decertification is fifty percent
(50%) of the Eligible Employees plus one (1).
If the election officer determines that the election was conducted unfairly due to misconduct by the Tribe and/or employer or the
union the election officer may order a re-run
election or dismiss the decertification petition.
(d) A decertification proceeding may not begin
until one (1) year after the certification of a
labor union if there is no collective bargaining
agreement. Where there is a collective bargaining agreement, a decertification petition
may only be filed no more than ninety (90)
days and no less than sixty (60) days prior to
the expiration of a collective bargaining
agreement. A decertification petition may be
filed any time after the expiration of a collective bargaining agreement.
(e) The Tribe or the union may appeal within five
(5) days any decision rendered after the date
of the election by the election officer to a three
(3) member panel of the Tribal Labor Panel
chosen in accordance with Section 13(c), provided that the Tribal Labor Panel must issue
a decision within thirty (30) days after receiving the appeal.

App. 264
Section 13: Binding Dispute Resolution Mechanism
(a) All issues shall be resolved exclusively
through the binding dispute resolution mechanisms herein.
(b) The method of binding dispute resolution
shall be a resolution by the Tribal Labor
Panel, consisting of ten (10) arbitrators appointed by mutual selection of the parties
which panel shall serve all tribes that have
adopted this ordinance. The Tribal Labor
Panel shall have authority to hire staff and
take other actions necessary to conduct elections, determine units, determine scope of negotiations, hold hearings, subpoena witnesses,
take testimony, and conduct all other activities needed to fulfill its obligations under this
Ordinance.
(1) Each member of the Tribal Labor Panel
shall have relevant experience in federal
labor law and/or federal Indian law with
preference given to those with experience
in both. Names of individuals may be provided by such sources as, but not limited
to, Indian Dispute Services, Federal Mediation and Conciliation Service, and the
American Academy of Arbitrators.
(2) One arbitrator from the Tribal Labor
Panel will render a binding decision on
the dispute under the Ordinance. Five (5)
Tribal Labor Panel names shall be submitted to the parties and each party may
strike no more than two (2) names. A coin
toss shall determine which party may

App. 265
strike the first name. The arbitrator will
generally follow the American Arbitration
Association’s procedural rules relating to
labor dispute resolution. The arbitrator
must render a written, binding decision
that complies in all respects with the provisions of this Ordinance within thirty
(30) days after a hearing.
(c) (1) Upon certification of a union in accordance with Section 10 of this Ordinance,
the Tribe and union shall negotiate for a
period of ninety (90) days after certification. If, at the conclusion of the ninety
(90)-day period, no collective bargaining
agreement is reached and either the union and/or the Tribe believes negotiations
are at an impasse, at the request of either
party, the matter shall be submitted to
mediation with the Federal Mediation
and Conciliation Service. The costs of mediation and conciliation shall be borne
equally by the parties.
(2) Upon appointment, the mediator shall
immediately schedule meetings at a time
and location reasonably accessible to the
parties. Mediation shall proceed for a period of thirty (30) days. Upon expiration
of the thirty (30)-day period, if the parties
do not resolve the issues to their mutual
satisfaction, the mediator shall certify
that the mediation process has been exhausted. Upon mutual agreement of the
parties, the mediator may extend the mediation period.

App. 266
(3) Within twenty-one (21) days after the
conclusion of mediation, the mediator
shall file a report that resolves all of the
issues between the parties and establishes the final terms of a collective bargaining agreement, including all issues
subject to mediation and all issues resolved by the parties prior to the certification of the exhaustion of the mediation
process. With respect to any issues in dispute between the parties, the report shall
include the basis for the mediator’s determination. The mediator’s determination
shall be supported by the record.
(d) In resolving the issues in dispute, the mediator may consider those factors commonly considered in similar proceedings.
(e) Either party may seek a motion to compel arbitration or a motion to confirm or vacate an
arbitration award, under this Section 13, in
the appropriate state superior court, unless a
bilateral contract has been created in accordance with Section 7, in which case either party
may proceed in federal court. The Tribe agrees
to a limited waiver of its sovereign immunity
for the sole purpose of compelling arbitration
or confirming or vacating an arbitration
award issued pursuant to the Ordinance in
the appropriate state superior court or in federal court. The parties are free to put at issue
whether or not the arbitration award exceeds
the authority of the Tribal Labor Panel.

App. 267
Attachment 1
CONSENT ELECTION AGREEMENT PROCEDURES
Pursuant to the Tribal Labor Relations Ordinance
adopted pursuant to section 10.7 of the compact, the
undersigned parties hereby agree as follows:
1. Jurisdiction. The North Fork Rancheria of
Mono Indians (Tribe) is an employer within the meaning of the Ordinance; and each employee organization
named on the ballot is an employee organization
within the meaning of the Ordinance; and the employees described in the voting unit are Eligible Employees
within the meaning of the Ordinance.
2. Election. An election by secret ballot shall be
held under the supervision of the elections officer
among the Eligible Employees of the Tribe named
above, and in the manner described below, to determine which employee organization, if any, shall be certified to represent such employees pursuant to the
Ordinance.
3. Voter Eligibility. Unless otherwise indicated
below, the eligible voters shall be all Eligible Employees who were employed on the eligibility cutoff date indicated below, and who are still employed on the date
they cast their ballots in the election, i.e., the date the
voted ballot is received by the elections officer. Eligible
Employees who are ill, on vacation, on leave of absence
or sabbatical, temporarily laid off, and employees who
are in the military service of the United States shall be
eligible to vote.

App. 268
4. Voter Lists. The Tribe shall electronically file
with the elections officer a list of eligible voters within
two (2) business days after receipt of a Notice of Election.
5. Notice of Election. The elections officer shall
serve Notices of Election on the Tribe and on each
party to the election. The Notice shall contain a sample
ballot, a description of the voting unit and information
regarding the balloting process. Upon receipt, the
Tribe shall post such Notice of Election conspicuously
on all employee bulletin boards in each facility of the
employer in which members of the voting unit are employed. Once a Notice of Election is posted, where the
union has made the written offer set forth in Section
7(b) of the Tribal Labor Relations Ordinance, the Tribe
shall continue to refrain from publishing or posting
pamphlets, fliers, letters, posters or any other communication which should be interpreted as criticism of the
union or advises employees to vote “no” against the union. The Tribe shall be free at all times to fully inform
employees about the terms and conditions of employment it provides to employees and the advantages of
working for the Tribe.
6. Challenges. The elections officer or an authorized agent of any party to the election may challenge,
for good cause, the eligibility of a voter. Any challenges
shall be made prior to the tally of the ballots.
7. Tally of Ballots. At the time and place indicated below, ballots shall be co-mingled and tabulated
by the elections officer. Each party shall be allowed to

App. 269
station an authorized agent at the ballot count to verify the tally of ballots. At the conclusion of the counting,
the elections officer shall serve a Tally of Ballots on
each party.
8. Objections and Post-election Procedures. Objections to the conduct of the election may be filed with
the elections officer within five (5) calendar days following the service of the Tally of Ballots. Service and
proof of service is required.
9. Runoff Election. In the event a runoff election
is necessary, it shall be conducted at the direction of
the elections officer.
10. Wording on Ballot. The choices on the ballot
shall appear in the wording and order enumerated below.
FIRST:
SECOND:
THIRD:
11.

[***]
[***]
[***]

Cutoff Date for Voter Eligibility: [***]

12. Description of the Balloting Process. A secret
ballot election will take place within thirty (30) days
after delivery of the voter list referenced in paragraph
4. The employer will determine the location or locations of the polling places for the election. There must
be at least one (1) neutral location (such as a high
school, senior center, or similar facility) which is not
within the gaming facility and employees must also be
afforded the option of voting by mail through procedures established by the elections officer. Only voters,

App. 270
designated observers and the election officer or supporting staff can be present in the polling area. Neither
employer nor union representatives may campaign in
or near the polling area. If the election officer or supporting staff questions an employee’s eligibility to vote
in the election, the ballot will be placed in a sealed envelope until your eligibility is determined. The box will
be opened under the supervision of the election officer
when voting is finished. Ballots submitted by mail
must be received by the elections officer no later than
the day of the election in order to be counted in the official tally of ballots.
13. Voter List Format and Filing Deadline: Not
later than two (2) business days after receipt of the Notice of Election, the Tribe shall file with the elections
officer, at [**address**], an alphabetical list of all eligible voters including their job titles, work locations
and home addresses.
Copies of the list shall be served concurrently on
the designated representative for the [***]; proof of service must be concurrently filed with elections officer.
In addition, the Tribe shall submit to the elections
officer on or before [***], by electronic mail, a copy of
the voter list in an Excel spreadsheet format, with columns labeled as follows: First Name, Last Name,
Street Address, City, State, and Zip Code. Work locations and job titles need not be included in the electronic file. The file shall be sent to [***].
14. Notices of Election: Shall be posted by the
Tribe no later than [***].

App. 271
15. Date, Time and Location of Counting of Ballots: Beginning at [**time**] on [**date**], at the
[**address**].
16. Each signatory to this Agreement hereby declares under penalty of perjury that s/he is a duly authorized agent empowered to enter into this Consent
Election Agreement.
(Name of Party)
By
(Title)
(Date)

(Name of Party)
By
(Title)
(Date)

(Name of Party)
By
(Title)
(Date)

(Name of Party)
By
(Title)
(Date)

Date approved:
[**Author**]
Elections Officer

